<html>
<title> - PREVENTING UNDERAGE DRINKING: WHAT WORKS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





               PREVENTING UNDERAGE DRINKING: WHAT WORKS?

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           February 11, 2004

                               __________

                           Serial No. 108-42

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
91-726                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 11, 2004................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     2
        Prepared statement of....................................     2
    Musgrave, Hon. Marilyn N., a Representative in Congress from 
      the State of Colorado, Prepared statement of...............    94
    Osborne, Hon. Tom, a Representative in Congress from the 
      State of Nebraska..........................................     5
    Wilson, Hon. Joe, a Representative in Congress from the State 
      of South Carolina, Prepared Statement of...................    83
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Hackett, Jacqueline, Student Leadership Council, Students 
      Against Destructive Decisions..............................    49
        Prepared statement of....................................    51
    Hamilton, Wendy J., National President, Mothers Against Drunk 
      Driving....................................................    37
        Prepared statement of....................................    40
    Katz, Francine I., Vice President, Corporate Communications, 
      Anheuser-Busch Companies, Inc..............................    52
        Prepared statement of....................................    54
    Molinari, Hon. Susan, Chairman, The Century Council, 
      Washington, DC.............................................     8
        Prepared statement of....................................    11
    Newton, Robert L., Director, Business Development, Betty Ford 
      Center, Rancho Mirage, California..........................    32
        Prepared statement of....................................    34

Additional materials supplied:
    Anastas. Bob, Founder, Students Against Driving Drunk, Letter 
      submitted for the Record...................................    94
    Baker, Dale & Thomas, Ph.D.s, Family-School-Community 
      Partnerships, Letter submitted for the Record..............    95
     Rehr, David K., Ph.D., President, National Beer Wholesalers 
      Association, Statement submitted for the Record............    96
    Riibe, Diane, Executive Director, Project Extra Mile, Letter 
      submitted for the Record...................................    98
    Taft, Hope, First Lady of Ohio, Statement submitted for the 
      Record.....................................................    99

 
               PREVENTING UNDERAGE DRINKING: WHAT WORKS?

                              ----------                              


                      Wednesday, February 11, 2004

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:35 a.m., in 
room 2175, Rayburn House Office Building, Hon. Michael N. 
Castle [Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Osborne, Upton, Keller, 
Wilson, Woolsey, Davis of California, Davis of Illinois, Case, 
Kind, and Van Hollen.
    Ex officio present: Representative Owens.
    Staff present: Kevin Frank, Professional Staff Member; 
Catherine Meyer, Legislative Assistant; Krisann Pearce, Deputy 
Director of Education and Human Resources Policy; Whitney 
Rhoades, Professional Staff Member; Deborah L. Samantar, 
Committee Clerk/Intern Coordinator; Jo-Marie St. Martin, 
General Counsel; Liz Wheel, Legislative Assistant; Joe Novotny, 
Minority Legislative Assistant/Education; and Lynda Theil, 
Minority Legislative Associate/Education.
    Chairman Castle. A quorum being present, the Subcommittee 
on Education Reform of the Committee on Education and the 
Workforce will come to order.
    We are meeting today to hear testimony on ``Preventing 
Underage Drinking: What Works?'' So that we can get to our 
witnesses, I am going to limit the opening statements to the 
Chairman, the ranking minority member, and the designee from 
each side. Therefore, if other members have statements, they 
will be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Let me say, first of all, good morning to everyone here, 
including, of course, our witnesses. I would like to welcome 
all of our guests and our witnesses and our members who are 
here for today's Education Reform Subcommittee hearing 
entitled, ``Preventing Underage Drinking: What Works?''
    I am looking forward to hearing the witnesses' testimony 
pertaining to the efforts these organizations are making to 
help reduce and prevent underage drinking in this country. 
Today's hearing will focus on awareness and prevention programs 
that are geared toward students in elementary, middle and high 
school that successfully prevent and discourage youth from 
drinking alcohol before they are of legal age.
    Significant gains have been in reducing underage drinking 
since the 1970's and the 1980's. I applaud the various local, 
state and Federal Governmental organizations, the public health 
community groups, and the members of industry who have 
contributed to this reduction. I know that in my home state of 
Delaware there are numerous efforts at all levels of 
government.
    However, this issue remains a real problem with very real 
and devastating consequences. Despite the progress that has 
been made, the 2002 National Survey on Drug Use and Health 
administered by the Substance Abuse and Mental Health 
Administration found that 10.7 million young people, ages 12 to 
20, reported drinking alcohol within a 30-day period. About 
three in ten high school seniors reported binge drinking, binge 
drinkers defined as those having five or more drinks on the 
same occasion at least once in the past 30 days.
    The study also reported that 95 percent of 12th graders 
perceived alcohol as readily available to them.
    It is my hope that we can better learn what constitutes an 
effective awareness and prevention program so that these best 
practices can be shared with schools and communities throughout 
the country. Programs based on research and whose effectiveness 
has been evaluated are invaluable.
    I would like to thank my colleague from Nebraska, Mr. 
Osborne, for his interest in this issue and for his dedication 
to reducing and preventing underage drinking. It was his 
interest and tenacity that was the impetus for this hearing.
    I now yield to the distinguished ranking minority member of 
the Subcommittee, Mrs. Woolsey, for purposes of making an 
opening statement.
    [The prepared statement of Mr. Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good Morning. I would like to welcome our guests, witnesses, and 
members to today's Education Reform Subcommittee hearing entitled, 
``Preventing Underage Drinking: What Works?''
    I am looking forward to hearing the witness' testimony pertaining 
to the efforts these organizations are making to help reduce and 
prevent underage drinking in this country. Today's hearing will focus 
on awareness and prevention programs that are geared toward students in 
elementary, middle, and high school that successfully prevent and 
discourage youth from drinking alcohol before they are of legal age.
    Significant gains have been made in reducing underage drinking 
since the 1970's and 1980's. I applaud the various local, state, and 
federal governmental organizations, the public health community groups, 
and the members of industry that have contributed to this reduction. I 
know that in my home state of Delaware there are numerous efforts, at 
all levels of government. However, this issue remains a real problem 
with very real and devastating consequences. Despite the progress that 
has been made, the 2002 National Survey on Drug Use and Health, 
administered by the Substance Abuse and Mental Health Administration, 
found that 10.7 million young people, ages 12 to 20, reported drinking 
alcohol within a 30-day period. About 3 in 10 high school seniors 
reported binge drinking--binge drinkers defined as those having five or 
more drinks on the same occasion at least once in the past 30 days. The 
study also reported that 95 percent of 12th graders perceive alcohol as 
readily available to them.
    It is my hope that we can better learn what constitutes an 
effective awareness and prevention program so that these best practices 
can be shared with schools and communities throughout the country. 
Programs based on research and whose effectiveness has been evaluated 
are invaluable.
    I would like to thank my colleague from Nebraska, Mr. Osborne for 
his interest in this issue and for his dedication to reducing and 
preventing underage drinking. It was his interest and tenacity that was 
the impetus for this hearing.
    With that, I yield to my colleague from California, Mrs. Woolsey 
for whatever opening statement she may have.
                                 ______
                                 

STATEMENT OF HON. LYNN WOOLSEY, RANKING MEMBER, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you very much, Mr. Chairman, and thank 
you for this hearing. It is very important. Underage drinking 
is a serious public health and safety program and it is also 
very, very expensive for our country.
    Alcohol is a key factor in the three leading causes of 
death among young people in America--traffic crashes, 
homicides, and suicides. Alcohol kills 6.5 times as many 
American youth as illegal drugs combined. The economic 
consequences of underage drinking are also huge.
    The Pacific Institute for Research and Evaluation 
researched the cost to society of underage drinking in a report 
prepared in the year 2002 and found them to be more than $58 
billion per year. Yet we have a robust Federal youth anti-drug 
campaign and no Federal campaign to combat underage drinking.
    In fact, in his fiscal year '05 budget, President Bush has 
recommended eliminating funding for the one Federal school-
based alcohol prevention program which is currently authorized 
under the Safe and Drug-Free Schools Act. This must change.
    In September of 2003 the Institutes of Medicine at the 
National Academy of Sciences issued a report to Congress 
entitled, ``Reducing Underage Drinking, a Collective 
Responsibility.'' The panel of public health experts who wrote 
this report found that not only is alcohol easy for underage 
youth to obtain, but also that their main source of alcohol is 
adults, both in social settings and in stores. The panel also 
found alcohol product advertising to be a strong contributing 
factor to underage drinking.
    So when we talk about programs that work to prevent 
underage drinking we need to remember that along with programs 
that focus directly on the youth, we also need programs to 
educate adults about what they do to contribute to underage 
drinking, and we need to have better constraints on advertising 
and marketing alcohol to youth of those ages. In my district I 
am really pleased to say that in my district an alcohol 
beverage distributor called Golden Gate Distributing Company 
has been constantly involved with local police departments and 
their programs to curb underage drinking.
    Golden Gate Distributing has been involved--well, they are 
a 70-year-old distributing company, and they have been involved 
for years at our local high schools with their safe graduation 
nights and they work to make sure that we are totally involved 
in their programs to combat underage drinking. They would like 
the Federal Government to understand that not all distributors 
are out to get kids to drink; and we can use what they are 
doing as one of our examples but what we have to know--all 
these examples are not leading to the results we want so we 
have to do more. That is what I hope we will be hearing from 
you about.
    I am pleased today that Jacqueline Hackett is here to tell 
her story about Students Against Destructive Decisions (SADD)--
what a great way to do this--which is an outstanding national 
program that does focus directly on youth. SADD provides 
students with prevention and intervention tools, the tools they 
need to deal with underage drinking and other harmful 
behaviors, and SADD has a proven track record of success.
    I look forward to hearing from you, Jackie, and I would 
like to greet the Honorable Susan Molinari, a past Member of 
Congress who still feels like she is in our halls. Thank you 
for coming, Susan.
    [The prepared statement of Ms. Woolsey follows:]

    Statement of Hon. Lynn Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Thank you for calling this hearing, Mr. Chairman. Underage drinking 
is a serious public health and safety problem, as well as a very costly 
one.
    Alcohol is a key factor in the three leading causes of death among 
young people in America: traffic crashes; homicides; and suicides. 
Alcohol kills six and half times as many American youth as all illegal 
drugs combined.
    The economic consequences of underage drinking are also huge--the 
Pacific Institute for Research and Evaluation researched the costs to 
society of underage drinking in a report prepared in 2002 and found 
them to be more than $58 billion per year.
    Yet, we have a robust federal youth anti-drug campaign and no 
federal campaign to combat underage drinking. In fact, in his fiscal 
year 05 budget, president bush has recommended eliminating funding for 
the one federal school-based alcohol prevention program, which is 
currently authorized under the safe and drug-free schools act.
    That must change.
    In September of 2003, the Institutes of Medicine at the National 
Academy of Sciences issued a report to congress, ``Reducing Underage 
Drinking: A Collective Responsibility.''
    The panel of public health experts who wrote this report found that 
not only is alcohol easy for underage youth to obtain, but also that 
their main source of alcohol is adults, in both social settings and 
stores. The panel also found alcohol product advertising to be a strong 
contributing factor to underage drinking.
    So, when we talk today about programs that work to prevent underage 
drinking, we need to remember that along with programs that focus 
directly on youth, we also need programs to educate adults about the 
things that we do to contribute to underage drinking and we also need 
better restraints on advertising and marketing alcohol to underage 
youth.
    Having said that, I am pleased today to have Ms. Jacqueline Hackett 
here to tell us about SADD (Students Against Destructive Decisions), an 
outstanding national program that does focus directly on youth. SADD 
provides students with the prevention and intervention tools they need 
to deal with underage drinking and other harmful behaviors, and it has 
a proven track record of success. I look forward to hearing from 
Jacqueline and the rest of the panel.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Woolsey. We appreciate your 
good comments.
    The opening statement indicated we would have a designee on 
each side, and I will now turn to the distinguished gentleman 
from Nebraska, Mr. Osborne, for his 5 minutes.

  STATEMENT OF HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEBRASKA

    Mr. Osborne. Thank you, Chairman Castle. I would like to 
thank you and also Chairman Boehner for allowing us to have 
this hearing.
    The reason I was interested in this is that I spent about 
36 years on a college campus, and I would say probably 70 to 
maybe 90 percent of the problems that I saw and I dealt with, 
whether it be assaults, sexual assault, accidents, and 
sometimes criminal behavior, have usually involved alcohol, and 
usually it was underage drinking.
    So at the present time, more than one-fourth of Nebraska 
young people indicate that they first use alcohol by age 13, 
and I believe nationally the average age of first drink is 
under age 13. We are not really aiming here at 21, 20, 19-year-
olds. We are really concerned about what is going on at 11 and 
12 and 13 and 14 and 15. And this is a big problem. There is an 
estimated 3 million teenagers in our country today that are 
full-blown alcoholics, and that is a huge number when you look 
at other types of addiction. That is by far the most.
    It has already been mentioned that alcohol kills six times 
more young people than all other illicit drugs and I think Ms. 
Woolsey mentioned $58 billion as the annual cost. I have seen 
$53 billion, but it is certainly in the $50 billions.
    We just had a meeting, Republicans did, about the budget 
deficit, and $53 billion would go a long ways, I mean if we 
could even trim that in half, because somebody is paying for 
that and basically it is the taxpayers that are paying for that 
$53 billion.
    Those who use alcohol before age 15 are four times more 
likely to become alcohol-dependent. The thing I think that I 
would like to emphasize here is that there is a physiological 
and psychological component. When you are 12 and 13 and 14, 15, 
that is way different in the use of alcohol than if you are 21, 
22, 23 years of age. It has an entirely different reaction on 
the human body and on the brain, and these are the kids that we 
are dealing with.
    Underage drinkers consume nearly twice as much alcohol per 
occasion as adults and that is a binge drink, and oftentimes 
what they do is they drink to get drunk. They don't drink to be 
sociable, they drink to get drunk.
    Alcohol is the most widely used drug among America's young 
people, yet the Federal Government spends 25 times more on 
prevention of illicit drug use by young people than on 
prevention of underage drinking, so it is our biggest problem. 
And yet we spend 1/25th of our prevention dollars on alcohol, 
which seems a little bit skewed as far as I am concerned.
    In May of 2001 the General Accounting Office released a 
report, and the report provided concrete evidence that, No. 1, 
the Federal Government's approach to youth alcohol prevention 
is disjointed, and, No. 2, funding for alcohol youth prevention 
is woefully inadequate.
    So as Ms. Woolsey mentioned, we are really concerned to see 
the $30 million for alcohol abuse reduction zeroed out in the 
'05 budget. Again, talking about the budget process, we realize 
there's going to be casualties, but if you can do something to 
reduce a $53 billion taxpayer bill by spending $30 million, it 
might be money well spent.
    Then also, September 2003, the National Academy of Science 
reported and they recommended this, a national adult-oriented 
media campaign as the centerpiece of Federal efforts to prevent 
underage drinking. The problem is that so many adults actually 
are sometimes relieved if their child uses alcohol, because 
they say if they are using alcohol, they are not going to use 
anything else. Well, anybody who knows anything about this 
problem realizes that kids, once they become addicted will grab 
anything they can. They don't start with meth. They don't start 
with cocaine. They start with alcohol, sometimes with marijuana 
and then it goes from there. So we need to educate adults as to 
what is going on out there.
    Secondly, the alcohol industry should strengthen its 
current voluntary advertising codes, refrain from marketing 
practices that have substantial appeal to youth and be more 
careful to place under ads to reduce youthful exposure.
    Then, third, the need for better Federal coordination and 
assistance to states and local communities.
    Lastly, let me just say this. I know there are 
representatives of the alcohol industry here and I think many 
of you do some great things. I know your intentions are very 
good but I would have to confess some skepticism in regard to 
some of the claims that people in alcohol industry have made.
    For example, the director of product development at 
Anheuser-Busch, in commenting on Bacardi Silver, said this: 
``This beauty of this category is that it brings in new 
drinkers, people who really don't like the taste of beer. 
Industry trade reporters call these beverages teeny-bopper 
sweet drinks,'' so they appeal heavily to underage drinkers.
    A recent Monitoring the Future survey indicates that 50 
percent of high school seniors have consumed Alco-Pops, which 
taste like soda pop, which, again, appeals to youth to drink. 
Malibu Rum has U-Shaggy to promote its products. Shaggy won two 
Teen Choice awards in 2001 and recently Anheuser-Busch assigned 
Sergio Garcia, age 22, to a Michelob sponsorship agreement, and 
the Beer Institute marketing advertising code stipulates models 
and actors used in ads should be a minimum of 25 years old and 
on and on and on.
    Beer advertisement providing steady exposure to talking 
animals, pop culture, immature humor, encourages underage 
drinking.
    So anyway, these are some of the concerns I have and I want 
to thank you witnesses for being here today. I look forward to 
hearing your thoughts and suggestions of how we can strengthen 
underage drinking prevention programs and again, Mr. Chairman, 
appreciate your having this hearing.
    Chairman Castle. Thank you, Mr. Osborne.
    We will now turn to our witnesses, and we have a very 
distinguished panel of witnesses before us today. I will go 
through all the introductions and then we will go through the 
format, how we will proceed.
    The first speaker will be the Honorable Susan Molinari, who 
is currently the chairman of the Century Council, a not-for-
profit organization that seeks to fight drunk driving and 
underage drinking. She is also president and CEO of the 
Washington Group. Previously Congresswoman Molinari represented 
a congressional district in New York from 1990 to 1997, where 
she was elected to the Republican majority leadership. She is 
the chair of the Ripon Educational Fund and serves as a 
national spokesperson for Americans for Consumer Education and 
Competition, and she was a very successful Member of Congress 
when she was here, and we welcome her back.
    All of you will have 5 minutes to speak. Former Members of 
Congress only get 1 minute.
    [Laughter.]
    Chairman Castle. So she will be a little bit limited in 
what she says.
    And I understand that Mr. Osborne would like to introduce 
the next witness on our panel today, and I yield to him for 
that purpose.
    Mr. Osborne. Well, it's my pleasure to introduce Bob 
Newton. I met Bob 36 years ago. He was at Cerritos Junior 
College in California, played a little football there, came to 
the University of Nebraska in 1969 and played there in 1969-70 
and was an All-American player at Nebraska, went on to play 
with the Chicago Bears from 1971 through 1976, Seattle Seahawks 
from 1977 to 1982--I may have those years off a little bit, but 
he spent 11 years in pro football.
    In 1983 he came back to University of Nebraska and 
eventually got a master's degree, went through some procedures 
he may tell you about, and eventually became a drug and alcohol 
counselor, worked for Lincoln Council on Alcohol and Drugs, 
later went to Seattle, worked as a drug counselor out there, 
worked with the Seahawks in a capacity as a drug and alcohol 
counselor, and now he works with Betty Ford as the director of 
business development. And he also is a certified drug and 
alcohol counselor, does a lot of speaking around the country, 
and he knows this issue inside and out, so I am glad that he 
could be here today.
    Chairman Castle. Thank you, Mr. Osborne, and nice to have 
you here, Mr. Newton.
    Our next witness is Mrs. Wendy J. Hamilton. She is 
currently the national president of Mothers Against Drunk 
Driving, where she has served since 2002. She began her efforts 
with MADD after three separate drunk driving crashes occurred 
within her family, and prior to her current position, Mrs. 
Hamilton served MADD in several positions, including vice 
president of victim issues, vice president of field issues, and 
as public policy liaison.
    Next will be Jacqueline Hackett, who has already been 
mentioned. Ms. Hackett is currently a senior at Souderton Area 
High School in Souderton, Pennsylvania, where she participates 
in various activities--quite a few activities, as a matter of 
fact. She serves on the student leadership council for Students 
Against Destructive Decisions. Additionally, she is a DARE role 
model as well as a member of the Just Say No Traveling Show.
    Ms. Hackett has been recognized in Who's Who Among American 
High School Seniors and is a member of the National Honor Roll 
and the National Honor Society.
    Our final witness will be Mrs. Francine Katz. Mrs. Katz is 
the vice president of corporate communications at Anheuser-
Busch Companies, Incorporated. Her duties include overseeing 
the departments responsible for Anheuser-Busch's alcohol 
awareness and education programs for both underage and adult 
audiences as well as the company's archives and library.
    Prior to joining Anheuser-Busch Mrs. Katz practiced law for 
5 years in St. Louis, where she specialized in general 
corporate law. She is a member of various boards, including St. 
Louis University, the Mary Institute and County Day School, and 
the St. Louis Children's Hospital Developmental Board.
    Let me just say before the witnesses begin to testify that 
the whole panel will testify and then we will have questions 
back and forth from the members up here. It is a 5-minute limit 
in both instances.
    Let me apologize. As some of you may know, we all serve on 
more than one Committee and I am serving on the Financial 
Services Committee and Mr. Alan Greenspan is testifying there, 
and it is time for me to ask him questions, and try to 
straighten out our economy, so I am going to run over there for 
awhile, and turn this over to Mr. Osborne as we proceed with 
our witnesses.
    With that, we will turn to Susan Molinari.

    STATEMENT OF HON. SUSAN MOLINARI, CHAIRMAN, THE CENTURY 
                   COUNCIL, WASHINGTON, D.C.

    Ms. Molinari. Thank you very much, Chairman Castle and 
other members of this Committee. It is truly a pleasure for me 
to be here. I will be on the other side of the podium than when 
Congressman Boehner--Chairman Boehner and I served many years 
together on this Committee, and it truly is an honor to be back 
here.
    May I say that I would not be surprised to come back here 
in a few short years and find Ms. Hackett sitting on the other 
side of this dais herself, based on the background that she has 
accrued for herself at such a young age.
    I am delighted to be here today as a former Member of 
Congress, but very important to today's mission as chairman of 
the Century Council. The Century Council is an independent, 
national, not-for-profit organization with two missions--
fighting drunk driving and underage drinking. It is 
headquartered here in Washington, D.C. and is funded by 
America's leading distillers. Our council's mission is to 
promote responsible decisionmaking regarding drinking or not 
drinking of beverage alcohol and to discourage all forms of 
irresponsible consumption through education, communications, 
working with law enforcement, and in conjunction with other 
program partners.
    Now since 1933 the distilled spirits industry has initiated 
and supported programs designed to fight alcohol abuse. In the 
testimony I have submitted I have provided you examples of 
those efforts in greater detail.
    Today, let me talk about the Century Council, which was 
formed in 1991 and is funded by Allied Domecq Spirits and Wine, 
North America, Bacardi USA, Brown Forman, DIAGEO, Future 
Brands, LLC, and Pernod Ricard USA. They have invested together 
more than $130-140 million to support the council's efforts to 
develop and implement alcohol education and prevention 
programs.
    We posted over 2000 events to launch our programs. Just 
launching our programs in communities across the nation, 
bringing them to millions of parents, kids, educators, law 
enforcement officials, and traffic safety professionals.
    We are joined and work in conjunction with an independent 
advisory board of distinguished leaders in business, 
government, education, medicine and all other relevant 
disciplines to assist the counsel in development of its 
programs and its policies.
    Now the council's education efforts start in middle school 
and continue on through college--programs such as the Ready or 
Not program, which is a video-based program currently being 
utilized in boys' and girls' clubs across the country.
    The Brandon Silveria Make the Right Choice is a speaking 
tour by a young man who was involved in an alcohol-related 
crash in high school. Parents, You're Not Done Yet is a 
brochure that encourages parents to talk with their kids before 
they leave for college about the dangers of underage drinking, 
very much to your point, Congressman Osborne.
    Cops in Shops is a cooperative effort involving local 
retailers such as the ones Congresswoman Woolsey talked about 
and law enforcement designed to deter minors from attempting to 
purchase alcohol illegally and adults who purchase alcohol for 
minors.
    Our latest, Alcohol 101 Plus, is an innovative CD-ROM 
program aimed at helping students make safe and responsible 
decisions about alcohol on college campuses.
    In fact, many Members of Congress have participated in, I 
think close to 200 now, and have shared these programs with 
their constituents, such as the Brandon program, which was a 
program that I used in my high schools when I was a Member of 
Congress and was my first introduction to the council's good 
work.
    Now important progress has been made in reducing underage 
drinking over the past few decades. Implementation of effective 
programs has resulted in fewer alcohol-related deaths and 
injuries among youth, but clearly, and we are grateful for your 
presence here today because so much more needs to be done.
    The 2003 Monitoring the Future study revealed that alcohol 
consumption was relatively unchanged in 2003, unfortunately, 
after declining in 2002. Despite the lack of significant 
decrease in consumption, high school seniors who reported daily 
drinking in the past months declined 32 percent 
proportionately, but despite this notable progress, as you 
stated very correctly, Congressman Osborne, underage drinking 
levels, particularly in a targeted segment, remains 
unacceptably high.
    Research conducted by Teenage Research Unlimited and 
Wirthlin Worldwide for the Century Council revealed additional 
alarming facts about underage drinking and I think several of 
you mentioned it in your opening statements today. Sixty-five 
percent of youth who drink reported obtaining alcohol from 
family and friends. A separate survey conducted by Wirthlin 
revealed that a majority of parents believe family and friends 
are also the leading source of alcohol for today's youth.
    Although this number is still unacceptable, it is important 
to note that this research indicates only 7 percent of youth 
who drink report obtaining alcohol from a store, bar or club 
that does not check ID. Other sources include fake IDs and 
asking strangers outside the store to help them obtain alcohol.
    Now encouragingly but indicates that we have a long way to 
go, research also shows that parents are the most influential 
factor in a child's decision not to drink. According to recent 
data such as the 2002 Roper Youth Report, 71 percent of youth 
identify their parents with having the most influence on their 
decisions as to whether to drink alcohol or not. Friends and 
peers are a distant second. Now these reports confirm the 
council's longstanding belief that parents are keys to keeping 
alcohol out of the hands of kids, which is why so many of our 
programs are directed toward the parents of young people.
    Working together, the council believes underage drinking 
programs should be data-driven, developed by professionals in 
the field, and why we distribute it to parents, educators and 
youths. We are therefore constantly conducting research and 
evaluation to develop our programs and determine its 
effectiveness.
    Our education efforts are developed by recognized 
professionals in the education field, reviewed by practitioners 
and an evaluation is currently built into every program that we 
implement.
    For instance, our Cops and Shops program, implemented in 42 
states around the nation, was identified by the Department of 
Justice publication as a promising practice for reducing 
attempts for purchase of underage youth. The evaluation found 
that following the program launch students were more inclined 
to believe that someone under 21 would be caught and arrested 
for illegally purchasing beverage alcohol.
    Now based on findings, Congressman Osborne, that you 
referred to, which breaks all of our hearts, education now 
needs to begin as early as 10-years-old. Our newest education 
program that will be released later this year focuses on middle 
school students, their parents and educators. Let me assure you 
that in going to middle schools and developing his agenda, we 
are working with various government agencies including the 
United States Department of Education, NIAAA, SAMHSA and the 
Centers for Disease Control and Prevention.
    We are also working with educational groups like the 
American School Counselors Association, the National Secondary 
School Principals Association, the National Middle Schools 
Association, and the National Latino Children's Institute. We 
look forward to coming back maybe individually in your office 
sharing the depth and breadth of these programs with you.
    Now as I conclude my remarks, I would like to ask you to 
watch a very brief PowerPoint presentation we prepared that 
gives an overview of some of our programs. While they are going 
on on the screen, let me just conclude that we all believe that 
underage drinking is an issue that requires a sustained 
response using effective strategies and tactics.
    America's leading distillers have from the beginning 
recognized this fact and have proactively contributed to this 
activity by contributing to the Century Council through their 
efforts on the Distilled Spirits Council and their own 
individual company efforts.
    As the Committee attempts to develop strategies to reduce 
and prevent underage drinking, I thought it important to convey 
to you what we have done in the past, what we are currently 
doing and what we will continue to do in the future to ensure 
that underage drinking is not tolerated.
    The Century Council looks forward to working with you, and 
let me conclude, Chairman, as a member of the Century Council 
but particularly as a mother of a five and a 7-year old, in 
these crazy days of much demands on all of your schedule, to 
all of you who are sitting here today, we are very grateful for 
your taking a national focus on this problem. Thank you.
    [The prepared statement of Ms. Molinari follows:]

    Statement of Hon. Susan Molinari, Chairman, The Century Council

    Good morning Chairman Castle and other distinguished members of 
this Committee. My name is Susan Molinari and I am the Chairman of The 
Century Council. I am pleased to present testimony to the Committee on 
this important issue. As a former Member of Congress, it's an honor to 
be back albeit on the other side of the table.
    The Century Council is an independent, national not-for-profit 
organization dedicated to fighting drunk driving and underage drinking. 
Headquartered in Washington, D.C., and funded by America's leading 
distillers, the Council's mission is to promote responsible decision-
making regarding drinking, or not drinking, of beverage alcohol and to 
discourage all forms of irresponsible consumption through education, 
communications, law enforcement and other programs.
    Since 1933, the distilled spirits industry has initiated and 
supported programs designed to fight alcohol abuse. These programs have 
spanned throughout the decades. For example, in the 1960s, the 
distilled spirits industry funded the development of alcohol education 
sourcebooks, including Alcohol Education for Classroom and Community 
for high school and college teachers. Distillers also provided a series 
of grants to the National Education Association to develop Learning 
About Alcohol, a popular and widely used text.
    In the 1970s, the distillers partnered with the National Football 
League (NFL) and the Education Commission of the States for several 
consecutive seasons to co-sponsor national TV and radio messages 
helping parents educate young people about alcohol. In the 1980s, 
distillers also partnered with the NFL and the Education Commission of 
the States to develop Straight Talk About Alcohol, a booklet designed 
to help parents and teenagers improve their communications on the 
subject of alcohol. In that decade, distillers also were active 
sponsors of SADD, Students Against Driving Drunk, and also co-sponsored 
with DOT the ``Friends Don't Let Friends Drive Drunk'' campaign.
    Formed in 1991, The Council's funding companies (Allied Domecq 
Spirits & Wine North America, Bacardi USA. Inc., Brown-Forman, DIAGEO, 
Future Brands LLC, and Pernod Ricard USA) have invested more than $130 
million to support the Council's efforts to develop and implement 
alcohol education and prevention programs. To date, we have hosted 
nearly 2,000 events to launch our programs in communities across the 
nation bringing them to millions of parents, kids, educators, law 
enforcement officials and traffic safety professionals.
    An independent Advisory Board comprised of distinguished leaders in 
business, government, education, medicine and other relevant 
disciplines assists the Council in its' development of programs and 
policies. Additionally, the Council maintains advisory panels in the 
areas of education and traffic safety that provide related guidance.
    The Council's education efforts start in middle school and continue 
through college. Programs such as Ready or Not, a video-based program 
utilized in Boys and Girls clubs across the country; Brandon 
Silveria's, Make the Right Choice, a speaking tour by a young man who 
was involved in an alcohol-related crash in high school; Parents You're 
Not Done Yet, a brochure that encourages parents to talk with their 
kids before they leave for college about the dangers of underage 
drinking; Cops in Shops a cooperative effort involving local retailers 
and law enforcement designed to deter minors from attempting to 
purchase alcohol illegally and adults who purchase alcohol for minors; 
and Alcohol 101 Plus, an innovative, interactive CD-ROM program aimed 
at helping students make safe and responsible decisions about alcohol 
on college campuses are widely used across the country. Other programs 
such as SPEAK-UP (a joint effort with the National Collegiate Athletic 
Association), and Promising Practices (a joint effort with George Mason 
University) and are also in use on our nation's college campuses. In 
fact, many Members of Congress have participated in and shared these 
programs with their constituents, such as our Brandon program which is 
how I was first introduced to The Century Council's good work as a 
Member of Congress.
    Underage drinking is an issue where we must work together. 
Important progress has been made in reducing underage drinking over the 
past few decades. The implementation of effective programs has resulted 
in fewer alcohol-related deaths and injuries among youth but more can 
be done.
    The 2003 Monitoring the Future Study revealed that alcohol 
consumption was relatively unchanged in 2003, after declining in 2002. 
Despite the lack of significant decrease in consumption, high school 
seniors who reported daily drinking in the past month declined 32% 
proportionally from 70% in 1982 to 48% in 2003. Despite this notable 
progress, underage drinking levels remain unacceptably high.
    Research conducted by Teenage Research Unlimited and Wirthlin 
Worldwide for The Century Council revealed additional alarming facts 
about underage drinking in America today: 65 percent of youth who drink 
report obtaining alcohol from family and friends. A separate survey 
conducted by Wirthlin revealed a majority of parents believe family and 
friends are also the leading source of alcohol for today's youth as 
well.
    Although still unacceptable, it is important to note that this 
research indicates only 7 percent of youth who drink report obtaining 
alcohol from a store, bar or club that does not check identification. 
Other sources include fake IDs and asking strangers to buy alcohol.
    Research also shows parents are the most influential factor in a 
child's decision not to drink. According to the last several Roper 
polls, such as the 2002 Roper Youth Report, 71% of youth identify their 
parents as having the most influence on their decision whether to drink 
alcohol or not. Friends and peers are a distant second. These reports 
confirm The Council's longstanding belief in the important role that 
parents play in keeping alcohol out of the hands of kids.
    The Century Council also believes collective action can have a 
greater impact than individual efforts. We involve all sectors of the 
community including beverage alcohol wholesalers and retailers, law 
enforcement, public officials, educators, insurers, health care 
professionals and private citizen organizations in the fight against 
drunk driving and underage drinking.
    Working together, the Council also believes underage drinking 
programs should be data-driven, developed by professionals in the field 
and widely distributed to parents, educators, and youth. We therefore, 
constantly conduct research to assist us in developing new programs and 
to gauge the effectiveness of our efforts.
    While many organizations simply identify the problem, identifying 
the problem is not enough. The Council's education efforts are 
developed by recognized professionals in the field, reviewed by 
practitioners, and evaluation is currently built into every program. 
For instance, our Cops in Shops program, implemented in 42 states 
around nation, was identified in a Department of Justice publication as 
a promising practice for reducing attempts to purchase by an underage 
youth. The evaluation found that following the program launch, students 
were more inclined to believe that someone under 21 would be caught and 
arrested for illegally purchasing beverage alcohol.
    Alcohol 101 is another example. Requested by more than 1500 college 
campuses throughout the nation and winner in two categories of the 
prestigious FREDDIE Awards, Alcohol 101 was recently highlighted in the 
National Academy of Sciences report as being ``independently evaluated 
with purposeful sampling.'' The independent evaluation found that the 
Alcohol 101 CD generates a significant increase in individuals' intent 
to better regulate their future behavior.
    The Council updated and released the successful Alcohol 101 last 
year in the form of Alcohol 101 Plus an innovative, interactive CD-ROM 
program aimed at helping students make safe and responsible decisions 
about alcohol on college campuses. Set on a ``virtual campus,'' Alcohol 
101 Plus combines the core elements of the Alcohol 101 program, with 
new content targeted to at-risk populations--first year students, 
Greeks, student-athletes, and judicial policy offenders.
    The program's realistic scenarios highlight the specific issues, 
challenges, and decisions these groups face when it comes to alcohol in 
a college setting and provides students and educators with the 
opportunity for reflection and discussion. A special edition for high 
school students is also available to educators nationwide.
    All of the Council's programs highlight the need for parents to be 
involved in the education of today's youth. The Council routinely 
commissions related research, highlighting issues such as how underage 
youth access alcohol and when and where alcohol education should be 
conducted. It is also important to note that many of the Council's 
programs are available in Spanish and our Ready or Not program has a 
Native American version.
    One of the Council's strengths is building effective coalitions for 
change. Our educational programs have been developed and distributed in 
cooperation with organizations such as the National Institute on 
Alcohol Abuse and Alcoholism (NIAAA), the U.S. Department of Education 
and the National Collegiate Athletic Association (NCAA).
    Based on research that says that alcohol education should begin as 
early as the age of 10, our newest educational program will be released 
later this year and focuses on middle school students, their parents 
and educators. In developing this effort, we are working with various 
government agencies including the U.S. Department of Education, NIAAA, 
the Substance Abuse and Mental Health Services Administration, and the 
Centers for Disease Control and Prevention.
    We are also working with educational groups such as the American 
School Counselor Association, the National Secondary School Principals 
Association, the National Middle School Association, and the National 
Latino Children's Institute. We look forward to sharing these program 
materials with you later this year.
    Underage drinking is an issue that requires a sustained response 
using effective strategies and tactics. America's leading distillers 
have, from the beginning, recognized this fact and have proactively 
contributed to reducing this activity through The Century Council, The 
Distilled Spirits Council and their own individual company efforts. As 
the Committee attempts to develop strategies to reduce and prevent 
underage drinking, I thought it important to convey to you what we have 
done in the past, are currently doing and will continue to do in the 
future to ensure that underage drinking is not tolerated.
    I have also enclosed an overview of the Council that provides some 
background information. The Century Council looks forward to working 
with you to reduce underage drinking. Once again, thank you for your 
good work and for the opportunity to testify today.
                                 ______
                                 
    [Attachments to Ms. Molinari's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T1726.028
    
    [GRAPHIC] [TIFF OMITTED] T1726.029
    
    [GRAPHIC] [TIFF OMITTED] T1726.030
    
    [GRAPHIC] [TIFF OMITTED] T1726.031
    
    [GRAPHIC] [TIFF OMITTED] T1726.004
    
    [GRAPHIC] [TIFF OMITTED] T1726.005
    
    [GRAPHIC] [TIFF OMITTED] T1726.006
    
    [GRAPHIC] [TIFF OMITTED] T1726.007
    
    [GRAPHIC] [TIFF OMITTED] T1726.008
    
    [GRAPHIC] [TIFF OMITTED] T1726.009
    
    [GRAPHIC] [TIFF OMITTED] T1726.010
    
    [GRAPHIC] [TIFF OMITTED] T1726.011
    
    [GRAPHIC] [TIFF OMITTED] T1726.012
    
    [GRAPHIC] [TIFF OMITTED] T1726.013
    
    [GRAPHIC] [TIFF OMITTED] T1726.014
    
    [GRAPHIC] [TIFF OMITTED] T1726.015
    
    [GRAPHIC] [TIFF OMITTED] T1726.016
    
    [GRAPHIC] [TIFF OMITTED] T1726.017
    
    [GRAPHIC] [TIFF OMITTED] T1726.018
    

                                ------                                

    Mr. Osborne. [presiding] Thank you very much.
    I would like to remind the witnesses that they have 5 
minutes and you have a green light, a yellow light comes on 
when you have 1 minute left, and the red light is at 5 minutes, 
so we would appreciate it if you would try to adhere to those 
timelines. Bob.

STATEMENT OF ROBERT L. NEWTON, DIRECTOR, BUSINESS DEVELOPMENT, 
          BETTY FORD CENTER, RANCHO MIRAGE, CALIFORNIA

    Mr. Newton. I guess it's Mr. Vice Chairman and Subcommittee 
members, good morning. I have a hard time not calling you 
``Coach,'' so excuse me. For 36 years I have been calling you 
that. I am very appreciative of that.
    I am very grateful to be here this morning and on behalf of 
the Betty Ford Center and the Partnership for Recovery. As 
Coach Osborne was sharing some of my background, I did play in 
the NFL for 11 years for the Bears and the Seahawks, and after 
a distinguished college career at the University of Nebraska. I 
was released from the Seahawks in September, 1982, excuse me.
    In July 1983 I was admitted to an alcoholism/drug treatment 
center in Monroe, Washington, diagnosed as a late stage 
alcoholic/drug addict. That first week I was in that treatment 
center at age 33, I was extremely in shock. One of the aspects 
that I learned in that treatment center is at age 13 is when I 
had my first beer. It was a Saturday afternoon, and my best 
friend offered it to me that he had stolen from his parents. I 
didn't know how to get out of that situation, and that was the 
first instance that I felt peer pressure.
    I had a few more beers that day, and I ended up getting 
very sick and it was a very toxic chemical to my body, but I 
failed to heed that warning. I went into high school and I 
continued to drink heavily with my friends, and I was raised 
with a lot of mixed messages.
    My father had a severe problem with alcohol, as did most of 
my uncles on my mother's and father's side. Alcoholism was very 
prevalent in my family. All the men drink. It was a mixed 
message to me. I thought drinking alcohol, especially beer, had 
something to do with being a man and being mature.
    I continued this behavior and got my first DUI at age 17. I 
ended up getting more, several DUIs. I am very grateful today 
that I didn't kill somebody under the influence of alcohol.
    Also when I was in that treatment center, I became aware of 
how ignorant our society is about alcohol problems and 
alcoholism. I kind of made a commitment that one of these 
days--I was in treatment--that I was going to try to help 
educate people about alcohol problems and alcoholism and drug 
addiction.
    I became a certified counselor in 1988 and I started 
working in schools. I went to many schools and gave many 
presentations and seminars, trying to build awareness about 
alcohol and other drugs. I heard a lot of statistics this 
morning and they were very, very well presented. But one of the 
ones I came across, preparing for this, is that 38 percent of 
eighth grade female girls who attempted suicide were heavy 
drinkers of alcohol, versus 11 percent of eighth grade girls 
who did not drink alcohol. I think it is very obvious young 
people do not understand that alcohol is a very powerful 
depressant on the nervous system and a very powerful drug.
    A lot of times I hear that parents are responsible. We've 
got 6 million kids living with an impaired parent that has a 
problem with alcohol or drug addiction. There's no way they are 
going to get an understanding, a clear message that is going to 
prevent them from using.
    One of the reasons that I used alcohol is to help me with 
the emotional turmoil I was having with my father because of 
his drinking.
    A lot of you said, well, Bob, did alcohol hurt you? I mean, 
you went on and played for Nebraska, and you played in the NFL. 
I never reached my potential as a football player. Alcohol 
caused major negative legal consequences in my life, with DUIs. 
It was a major contributor to a divorce, and financial ruin. So 
it did impair my life, even though I played football for a long 
time.
    As a student assistance program counselor for a local high 
school in Tacoma, Washington, I came--I was able to observe 
many young kids get help with early intervention and I can't 
tell you--a lot of these kids were coming from families that 
had alcohol problems and they had a chance to get counseling 
and treatment.
    A lot of these kids, as Coach Osborne mentioned, were 
addicted already at 15 or 16 years old, and I have seen kids as 
young as 12 having a severe problem with addiction with alcohol 
and other drugs. I just feel our society is continuing to send 
a mixed message to children, to young people. I don't like that 
alcohol and sports are interrelated in every sporting event. I 
think that is the wrong message for young people. I never saw 
alcohol improve an athlete's career. I did see alcohol ruin 
many athletes' careers.
    To sum up, what would I suggest to Congress, what we can 
do? You know, inaction is not working. Not taking action is 
hurting us. We need to--I am in full support of the NAS 
recommendations, especially that we have a Federal strategy for 
prevention and intervention to help young people and an excise 
tax to alcohol to help the media campaign to educate our 
society, especially adults, because as Wendy said, a lot of the 
alcohol is accessed through parents and adults, and so they 
need as much education as our adolescents.
    I thank you for having me here today. Thank you very much.
    [The prepared statement of Mr. Newton follows:]

 Statement of Robert L. Newton, Director, Business Development, Betty 
                 Ford Center, Rancho Mirage, California

    The Betty Ford Center is a non-profit licensed addiction hospital 
in Rancho Mirage, California. Mrs. Ford opened the facility in October 
1982 to help those suffering from alcoholism and other drug addiction 
and their families. The center has helped over 61,000 people since its 
opening. Levels of care provided at the Betty Ford center include: 
inpatient care, residential day treatment, and intensive outpatient 
services. We have specialty programs including our licensed 
professional program, family and children's programs.
    The Substance Abuse and Mental Health Services Administration 
(SAMHSA) reports that more than 6 million children live with at least 
one parent who abuses or is dependent on alcohol or an illicit drug. 
The Betty Ford Center's Children's Program attempts to help children 
whose parents have struggled with addiction by providing a program 
where they can learn problem-solving, coping and self-care strategies.
    The Betty Ford Center is a member of the Partnership for Recovery 
(PFR), a public policy coalition comprised of nine of the nation's 
leading alcohol and drug addiction treatment providers and the field's 
trade association, the National Association of Addiction Treatment 
Providers (NAATP). Members include: the Betty Ford Center, Bradford 
Health Systems, Caron Foundation, Cumberland Heights, Father Martin's 
Ashley, Gateway Rehabilitation Center, Hazelden Foundation, NAATP, 
Sierra Tucson, and Valley Hope Association. The PFR was formed in 1997 
because the Centers share a common philosophy in the treatment and care 
of individuals and their families suffering from chemical dependency 
and share a common interest in shaping policy that affects those in or 
seeking recovery. The treatment providers offer a continuum of care 
including traditional and intensive outpatient, residential inpatient, 
day or partial care and sub-acute detoxification. Each PFR facility 
also utilizes American Society of Addiction Medicine (ASAM) Patient 
Placement criteria to determine admission, length of stay and discharge 
for all levels of care.

BACKGROUND
    I have worked in the chemical dependency field since 1986 as a 
counselor, educator, and administrator. I have been a CADC [certified 
alcohol drug counselor] since 1988. I currently work at the Betty ford 
center as a business development associate and counselor. I've also 
worked in many school systems presenting numerous lectures and seminars 
regarding prevention and intervention to substance use for students, 
teachers, administrators and coaches. Some of my work with youth 
included SAP [Student Assistance Program] counseling for a high school 
in Tacoma, WA. where I evaluated adolescents for chemical use, provided 
individual counseling and family education. This work also included 
training teachers, administrators and coaches about signs and symptoms 
of chemical use problems in the school. The SAP experience was 
extremely insightful and a valuable experience. I was able to provide 
early intervention for numerous young people experiencing alcohol and 
other drug abuse and/or addiction. This early intervention gave the 
young person an opportunity to seek counseling and/or treatment. I 
observed many young people turn their lives around from the SAP 
process. I have great concern that the Student Assistance Program is 
diminishing throughout the country because of budget woes. Many young 
people will suffer from not having an SAP on every high school and 
middle school campus.
    The Seattle Seahawks football team also utilized my services as a 
consultant regarding their alcohol/drug programs. I provided 
evaluations, individual counseling and trainings for players and staff 
and treatment recommendations. My past work also included evaluation 
specialist and educator for the University of Nebraska athletic 
department.
    Prior to my work in the chemical dependency field I played in the 
National Football League for eleven years as an offensive lineman with 
the Chicago Bears [1971-1975] and Seattle Seahawks [1976-1981]. I was a 
team member on the first national Championship college football team 
for the University of Nebraska in 1970. I was also honored as a 
consensus All-American offensive tackle in 1970.
    My NFL career ended in 1982 because of my alcoholism and other drug 
dependencies. I entered alcoholism treatment in July 1983 and I'm very 
grateful that I have been clean and sober since July 12, 1983. One of 
the aspects I learned about my alcoholism while I was in treatment is 
the mixed messages I received as a young teenager about alcohol use. I 
had my first drink of alcohol [beer] at age 13 as a result of peer 
pressure from one of my friends. I had a few other beers that afternoon 
and became very sick. But I did not heed this warning and continued to 
drink through high school because I felt drinking alcohol had something 
to do with being mature and being a man. Again, I had received 
confusing messages about alcohol from my friends and alcohol 
advertisements and did not have the leadership at home from my family 
because my dad had a severe problem with alcohol. Although I had a 
successful college football career and played a long time in the NFL, I 
never played up to my potential and alcohol use caused me to be cut 
from the Seahawks. Alcohol caused major legal problems in my life 
regarding DUI'S. I had my first DUI at age seventeen. Alcohol was a big 
factor in my divorce and severely impaired my physical and mental 
health.

THE SCOPE OF THE UNDERAGE DRINKING PROBLEM
    Today I feel our young people are still receiving mix messages 
regarding alcohol. Underage drinking is a serious widespread problem in 
America that deserves immediate Congressional action. Approximately 
10.7 million underage Americans, 28.8 % of the 12 to 20 age group, 
reported drinking alcohol in the month prior to being surveyed by the 
2002 National Survey on Drug Use and Health and 7.2 million of those 
teens are classified as binge drinkers.\1\ Furthermore, underage 
drinkers are responsible for almost 20% of all alcohol consumed in the 
United States, with $22.5 billion spent on alcohol in 1999.\2\
    Teens and adults incorrectly view alcohol as less harmful than 
other drugs and, while many Americans view teen drinking as a right of 
passage, we cannot ignore the serious long and short-term consequences 
associated with illegal underage drinking.

UNDERAGE DRINKING AND ILLICIT DRUG USE ARE INEXTRICABLY LINKED TO YOUTH 
        SEXUAL ASSAULT AND SUICIDE
    As I can tell you first hand, underage drinking and alcohol abuse 
can result in serious negative consequences in the lives of our 
nation's youth. Early experimentation with alcohol puts teens at a 
greater risk for developing a problem with alcohol and/or substance 
abuse. A study released just last month found that the basis for adult 
substance abuse has been generally established for a person by the time 
he or she finishes high school.\3\ Youth who begin drinking before age 
15 are four times likelier to develop alcohol dependence than those who 
begin drinking at age 21.\4\ Furthermore, alcohol use strongly 
associates with illicit drug use and 30.7% of heavy drinkers aged 12 
and older concurrently use illicit drugs.\5\ Thus, the Partnership for 
Recovery and the Betty Ford Center applaud the Office of National Drug 
Control Policy (ONDCP)'s new ad campaign that debuted during the Super 
Bowl that links youth alcohol consumption with substance abuse. ONDCP 
reports that this ad ranked as the number one Super Bowl ad among 
viewers aged 17 and under and we hope that additional ads will be 
forthcoming.
    Underage drinking can damage developing brains and put our children 
at higher risk for sexual assault and suicide. For example, one study 
found that 37% of eighth grade females who drank heavily reported 
attempting suicide, compared with 11% who did not drink. NIAAA reports 
that ``underage alcohol use is more likely to kill young people than 
all illegal drugs combined\6\ and in 2002, 24% of drivers ages15 to 20 
years old who were killed in crashes were intoxicated.\7\ We need to 
tackle this problem before it destroys or ends the lives of any more 
American children.

THE ECONOMIC CONSEQUENCES OF UNDERAGE DRINKING
    The economic consequences associated with underage drinking are 
staggering. The Institute of Medicine and National Research Council 
(IOM/NRC) report released last September found that underage drinking 
costs the nation an estimated $53 billion annually in losses stemming 
from traffic fatalities, violent crime, and other behaviors that 
threaten the well-being of America's youth.\8\ If this cost were shared 
equally by each congressional district, the amount would approximately 
total more than $120 million per district.\9\

RECOMMENDATIONS
    Congress has the opportunity to help curtail underage drinking--a 
problem that will not go away on its own. The IOM/NRC report made 
several recommendations on necessary steps to reduce underage drinking. 
The Betty Ford Center and the PFR urge Congress to act as swiftly as 
possible to enact these recommendations. While I realize that not all 
of the recommendations are within the purview of this Committee, I 
believe they deserve Congressional attention.

REFORM ADVERTISING
    <bullet>  Alcohol companies, advertising companies, and commercial 
media should refrain from marketing practices (including product 
design, advertising, and promotional techniques) that have substantial 
underage appeal and should take reasonable precautions in the time, 
place, and manner of placement and promotion to reduce youthful 
exposure to other alcohol advertising and marketing activity
    <bullet>  The alcohol industry trade associations, as well as 
individual companies, should strengthen their advertising codes to 
preclude placement of commercial messages in venues where a significant 
proportion of the expected audience is underage, to prohibit the use of 
commercial messages that have substantial underage appeal, and to 
establish independent external review boards to investigate complaints 
and enforce the codes
    <bullet>  Congress should appropriate the necessary funding for the 
U.S. Department of Health and Human Services to monitor underage 
exposure to alcohol advertising on a continuing basis and to report 
periodically to Congress and the public. The report should include 
information on the underage percentage of the exposed audience and 
estimated number of underage viewers of print and broadcasting alcohol 
advertising in national markets and, for television and radio 
broadcasting, in a selection of large local or regional markets

FUND HHS UNDERAGE DRINKING MEDIA CAMPAIGN
    <bullet>  The federal government should fund and actively support 
the development of a national media effort, as a major component of an 
adult-oriented campaign to reduce underage drinking
    <bullet>  Intensive research and development for a youth-focused 
national media campaign relating to underage drinking should be 
initiated. If this work yields promising results, the inclusion of a 
youth-focused campaign in the strategy should be reconsidered

DEVELOP A FEDERAL STRATEGY TO PREVENT UNDERAGE DRINKING
    <bullet>  A federal interagency coordinating committee on 
prevention of underage drinking should be established, chaired by the 
secretary of the U.S. Department of Health and Human Services
    <bullet>  The annual report of the secretary of the U.S. Department 
of Health and Human Services on underage drinking should include key 
indicators of underage drinking
    <bullet>  The Monitoring the Future (MTF) Survey and the National 
Household Survey on Drug Use and Health (NSDUH) should be revised to 
elicit more precise information on the quantity of alcohol consumed and 
to ascertain brand preferences of underage drinkers

RAISE ALCOHOL EXCISE TAXES
    <bullet>  Congress and state legislatures should raise excise taxes 
to reduce underage consumption and to raise additional revenues for 
this purpose. Top priority should be given to raising beer taxes, and 
excise tax rates for all alcoholic beverages should be indexed to the 
consumer price index so that they keep pace with inflation without the 
necessity of further legislative action

SUPPORT COMMUNITY MOBILIZATION EFFORTS
    <bullet>  Community leaders should assess the underage drinking 
problem in their communities and consider effective approaches--such as 
community organizing, coalition building, and the strategic use of the 
mass media--to reduce drinking among underage youth
    <bullet>  Public and private funders should support community 
mobilization to reduce underage drinking. Federal funding for reducing 
and preventing underage drinking should be available under a national 
program dedicated to community-level approaches to reducing underage 
drinking, similar to the Drug Free Communities Act, which supports 
communities in addressing substance abuse with targeted, evidence-based 
prevention strategies

STRENGTHEN LAW ENFORCEMENT EFFORTS
    <bullet>  States should strengthen their compliance check programs 
in retail outlets, using media campaigns and license revocation to 
increase deterrence
    <bullet>  States and localities should implement enforcement 
programs to deter adults from purchasing alcohol for minors
    <bullet>  States should facilitate enforcement of zero tolerance 
laws in order to increase their deterrent effect
    <bullet>  Local police, working with community leaders, should 
adopt and announce policies for detecting and terminating underage 
drinking parties
    I understand that Representatives Frank Wolf (R-VA), Lucille 
Roybal-Allard (D-CA), and Zach Wamp (R-TN) intend to introduce 
legislation containing a Office of Public Health and Science and U.S. 
Surgeon General funded media campaign aimed at reducing underage 
drinking. From my own experience, I know that such a campaign would be 
invaluable for the millions of American youth who are bombarded with 
mixed messages about drinking.
    On behalf of the Betty Ford Center and the Partnership for 
Recovery, thank you for the opportunity to testify today on such an 
important issue affecting America's youth. We look forward continuing 
to work with Congress to reduce and prevent underage drinking. Thank 
you.

\1\ Department of Health and Human Services, Substance Abuse and Mental 
        Health Services Administration. (2003). 2002 National Survey on 
        Drug Use and Health.
\2\ Susan E. Foster, et al, ``Alcohol Consumption and Expenditures for 
        Underage Drinking and Adult Excessive Drinking,'' Journal of 
        the American Medical Association. (February 2003): 289:989-995.
\3\ Alicia Merline, et al, ``Substance Use Among Adults 35 Years of 
        Age: Prevalence, Adulthood Predictors, and Impact of Adolescent 
        Substance Use,'' American Journal of Public Health. (January 
        2004).
\4\ National Institute on Alcohol Abuse and Alcoholism, National 
        Institutes of Health. (1998) NIH News Release.
\5\ Department of Health and Human Services, Substance Abuse and Mental 
        Health Services Administration. (2003). 2002 National Survey on 
        Drug Use and Health.
\6\ National Institute on Alcohol Abuse and Alcoholism. (2003) Alcohol 
        Alert,.
\7\ National Highway Traffic Safety Administration, U. S Department of 
        Transportation. Traffic Safety Facts 2002: Young Drivers. 
        (2003)
\8\ Richard Bonnie, et al. ``Reducing Underage Drinking: A Collective 
        Responsibility'' (September 2003). National Research Council & 
        Institute of Medicine.
\9\ David Levy, et al, (1999) ``Costs of Underage Drinking'' U.S. 
        Department of Justice.
                                 ______
                                 
    Mr. Osborne. Thanks, Bob. Ms. Hamilton.

  STATEMENT OF WENDY J. HAMILTON, NATIONAL PRESIDENT, MOTHERS 
                     AGAINST DRUNK DRIVING

    Mrs. Hamilton. Thank you, Mr. Chairman, Vice Chairman 
Osborne, and Ranking Member Woolsey for holding this important 
hearing today. My name is Wendy Hamilton. I am the National 
President of Mothers Against Drunk Driving. MADD's mission is 
to stop drunk driving, support the victims of this violent 
crime, and prevent underage drinking. I am honored to be here 
testifying on this critical public health issue. Your 
leadership is going to be very important in identifying 
systemic changes that will keep our children safe.
    This is a historic time. With the recent release of the 
National Academy of Sciences report, Congress is developing a 
strategy to prevent underage drinking. The NAS and the nation's 
top public health researchers examined the problem and my 
comments today will focus on NAS's science-based solutions to 
save lives.
    Alcohol is the illegal drug of choice for America's youth, 
with 10.1 million underage drinkers in this nation. Alcohol is 
a major factor in the three leading causes of death of 
America's teens. Forty-nine percent of high school seniors 
reported drinking in the last 30 days, more than those using 
marijuana or tobacco combined, and for over a decade underage 
drinking rates have flatlined.
    I have submitted for the record a sheet from Monitoring the 
Future data, which shows that since 1991 this number has not 
moved. In over 10 years it has not moved.
    Teens have easy access to alcohol. They are saturated with 
irresponsible alcohol ads. Underage drinking laws are not well-
enforced and communities often look the other way. The 
consequences of underage drinking are staggering. Research 
demonstrates that the younger children begin to drink alcohol, 
the more likely they are to become alcohol dependent or drive 
drunk later in life.
    Young drivers constitute 13 percent of the alcohol-involved 
drivers in fatal crashes and individuals under 21 commit over a 
third of all rapes, robberies and assaults. Half of this is 
alcohol-related.
    Neuroscience documents that the adolescent brain develops 
into the early 20's and youth alcohol use stunts physical 
development and functioning of the brain. In addition to the 
human toll, the NAS concluded that the $53 billion price tag 
appears to be an underestimate of the social costs of underage 
drinking.
    In fiscal 2000 the Nation spent approximately $1.8 billion 
on preventing illicit drug use, but only $71.1 million on 
underage drinking prevention. A 2001 GAO report confirmed that 
the government's approach is disjointed and that only 7 percent 
of total Federal funds available for alcohol and other drug 
prevention focused on underage drinking.
    MADD supports NAS Recommendation 12-1 for a Federal 
interagency coordinating committee to align Federal efforts to 
prevent underage drinking, and the Department of Education must 
be a key player. NAS reports that education-oriented 
interventions should be implemented within a comprehensive 
approach, and MADD supports NAS Recommendation 6-1, which 
encourages the government to develop a national media campaign 
to reduce underage drinking that targets adults. Most adults 
including parents underestimate the dangers of underage 
drinking and even facilitate children's drinking by allowing 
access to alcohol.
    This media campaign is necessary to elevate and frame this 
important issue. Youth who drink remember 10 percent less of 
what they have learned than those who don't drink. Higher 
absenteeism rates and lower GPAs are associated with great 
alcohol use.
    The Safe and Drug Free Schools program is the Federal 
Government's primary vehicle for reducing drug, alcohol, 
tobacco use and violence. Currently the state grants program 
has lower funding levels than 1991. The administrations's 
fiscal year 2005 request contains $441 million for state 
grants, $28 million less than 2003. The 2005 budget request 
proposes a $30 million slash in alcohol prevention programming, 
cutting the only K through 12 money within Safe and Drug Free 
Schools that targets alcohol prevention.
    Making underage drinking prevention programs optional for 
schools is a major flaw in our system. This Committee has the 
opportunity to establish stable ongoing funding for prevention 
programs committed to reducing underage drinking. MADD supports 
NAS Recommendation 10-2, which urges HHS and DOE to fund only 
evidence-based education interventions. MADD applauds the 
rigorous standards required by SAMHSA and the DOE for programs 
seeking eligibility into the national registry of effective 
programs. MADD worked very hard to ensure the effectiveness of 
its elementary school program, Protecting You, Protecting Me, 
an alcohol use prevention curriculum for Grades 1 through 5, 
was named a model program by HHS and is on the national 
registry of effective programs.
    Scientific evaluation of PYPM has shown that students 
receiving the lessons are more knowledgeable of their brains, 
more media literate, less likely to ride with a driver who has 
been drinking, and less likely to drink as teens.
    Continued growth of this and other proven programs is 
necessary as we seek to create a culture where underage 
drinking is not a rite of passage. There has to be a long-term 
commitment to evaluation to ensure that tax dollars are being 
spent on programs that work.
    School-based programs have only modest results if not 
coupled with research-based community prevention interventions.
    MADD designed Youth in Action as a community initiative 
where students work on projects proven to reduce underage 
drinking. These teams work to change the community environment 
that condones underage drinking, from the store clerk that 
doesn't check IDs to the adults willing to buy beer for kids.
    Young people have to learn about alcohol in the classroom 
but must also be engaged in community interactions and we urge 
this Committee to allow community-based programs like Youth in 
Action to be accepted as model programs.
    The alcohol industry has relied on unevaluated, unproven 
programs to combat underage drinking. NAS reports that it is 
aware of only one industry-sponsored education program that has 
been independently evaluated and further research was suggested 
on that particular program.
    It found that the rest of the industry's material had no 
backing in science.
    Underage drinkers consume between $11-22 billion worth of 
alcohol annually. When else would we trust a manufacturer to 
convince customers not to buy their products? Yet for underage 
drinking, many are willing to leave the sole education of our 
children to the alcohol industry. The alcohol industry has not 
created programs that stand up to scientific scrutiny.
    If we don't put an end to the complacent attitude about 
underage drinking we continue to put our children in harm's 
way. Many would like to blame parents for this problem, but 
they are just a piece of the puzzle.
    Kids are growing up where alcohol is easy to get, 
irresponsible advertising is everywhere, and underage drinking 
laws are not well enforced. I remember, and I'm sure most of 
this Committee knows, what it is like to have a child leave on 
a Friday night and just pray that they get home safely. That's 
what I did every Friday.
    Our nation can no longer pretend that underage drinking is 
a mere rite of passage and harmless. Our children deserve more, 
and as a parent and an activist forever changed by the 
devastation caused by a drunk driver, I urge this Committee to 
embrace the role that you play in expanding youth and community 
interventions through the educational system. Thank you.
    [The prepared statement of Mrs. Hamilton follows:]

  Statement of Wendy J. Hamilton, National President, Mothers Against 
                             Drunk Driving

    Good Morning. My name is Wendy Hamilton and I am the National 
President of Mothers Against Drunk Driving. MADD's mission is to stop 
drunk driving, support the victims of this violent crime and prevent 
underage drinking. I am honored to be here today to testify on the 
critical public health issue of illegal youth alcohol use.
    I would like to take this opportunity to thank Chairman Castle, 
Vice Chairman Osborne, Ranking Member Woolsey and the entire 
Subcommittee for holding this hearing today. Your leadership will be so 
important in identifying systemic changes that will help keep our 
children safe from harms caused by underage alcohol use.
    Despite the fact that alcohol kills six and a half times more youth 
than all other illicit drugs combined, there has been minimal attention 
paid to this public health issue. However, it is a historic time in our 
nation. With the release of the Congressionally mandated National 
Academy of Sciences / Institute of Medicine (NAS) September 2003 report 
titled ``Reducing Underage Drinking, A Collective Responsibility,'' 
Congress has started working toward the development of a comprehensive 
strategy to prevent underage drinking. The NAS assembled the nation's 
top public health researchers to examine a problem that has been 
overlooked for far too long. Many of my comments today will focus on 
the NAS recommendations as the report offers proven, science-based 
solutions that, if implemented, will save young lives.
    The public health and safety communities have been pursuing action 
at the federal level for many years on this issue, but only now has the 
necessary national dialogue begun. The NAS report provides a 
groundbreaking opportunity to help put the nation's number one youth 
drug problem on the national policy agenda and gives our nations' 
leaders the impetus for concrete action. All of the NAS recommendations 
should be seriously considered by Congress, the Administration, and 
state and local leaders. While MADD supports the NAS report in its 
entirety, my remarks will focus on areas in which this committee can 
have the greatest impact. I applaud your commitment to shine the 
national spotlight on this sorely neglected issue.
Overview of the Problem
    Without question, alcohol is the most widely used drug among 
America's youth. It is illegal for people under the age of 21 to drink 
alcohol, and yet currently there are 10.1 million underage drinkers in 
this nation (2002 National Household Survey On Drug Use and Health). 
Alcohol is a major factor in the three leading causes of death of 
America's teens: motor vehicle crashes, homicides and suicides. 
Further, underage drinking does not just harm the drinker: half of the 
people who die in traffic crashes involving underage drinking drivers 
are people other than the drinking drivers. Underage drinking is not 
harmless fun. There is no such thing as ``responsible'' underage 
drinking.
    Progress was made in the 1980's, most notably with the raising of 
the minimum drinking age to 21--a law that has saved over 20,000 young 
lives. But we still have a national mentality that accepts underage 
drinking as a mere ``rite of passage,'' and underage drinking rates 
remain inexcusably high and have not improved for the past decade.
    According to 2002 Monitoring the Future data, nearly half (48.6 
percent) of all high school seniors report drinking in the last 30 
days, a much larger proportion of youth than those who report either 
using marijuana (21.5 percent) or smoking (26.7 percent). The 
proportion of high school seniors who reported drinking in the last 30 
days was the same in 2002 as it was over a decade ago in 1993. 
Additionally, 29 percent of seniors report having five or more drinks 
on at least one occasion in the past two weeks, a percentage virtually 
unchanged since 1993.
    Teens have easy access to alcohol. They are saturated with 
irresponsible alcohol ads. Underage drinking laws are not well 
enforced. And, parents and communities often look the other way when 
kids drink, in many cases even providing the alcohol. We've all heard 
the line: ``Well, at least they're not using drugs.'' The fact is, 
alcohol IS the illegal drug of choice for teens.

Consequences Associated With Youth Alcohol Use
    The consequences of youth alcohol use are staggering. Research 
demonstrates that the younger someone starts drinking, the more likely 
they are to suffer from alcohol-related problems later in life, 
including alcohol dependence and drunk driving. Children who drink 
before age 15 are four times more likely to become alcohol dependent 
than those who delay drinking until they are 21.
    More than 17,000 people are killed each year in alcohol-related 
crashes and approximately one-half million others are injured. In 2000, 
69 percent of youth killed in alcohol-related traffic crashes involved 
underage drinking drivers. Although young drivers make up a mere 7 
percent of the driving population, they constitute 13 percent of the 
alcohol-involved drivers in fatal crashes.
    The 1999 National Survey of Drinking and Driving Among Drivers Age 
16--20 revealed that youth drove 11 million times after drinking in the 
past year. Their average blood alcohol level was .10 percent, three 
times the level of all drivers who drove after drinking. Forty percent 
of youth who drove after drinking had at least one passenger in the 
vehicle. Clearly young drivers are putting themselves and others at 
risk. Society has an obligation to protect motorists from the risky 
behavior of underage drinkers. Society also has an obligation to 
protect kids from themselves.
    Alcohol is also implicated in a large portion of deaths and 
injuries caused by dangers other than drinking and driving. According 
to the NAS, nearly 40 percent of youth under age 21 who died from 
drowning, burns and falls tested positive for alcohol. Youth alcohol 
use is also associated with violence and suicidal behavior. Individuals 
under 21 commit 45 percent of rapes, 44 percent of robberies, and 37 
percent of other assaults, and it is estimated that 50 percent of 
violent crime is alcohol-related.
    Sexual violence, as well as unplanned and unprotected sexual 
activity, is another consequence of youth alcohol use. A 2002 National 
Institute on Alcohol Abuse and Alcoholism (NIAAA) study titled ``A Call 
to Action: Changing the Culture of Drinking at U.S. Colleges'' found 
that each year more than 70,000 students aged 18-24 are victims of 
alcohol-related sexual assault or date rape. Additionally, the report 
found that 600,000 students were assaulted by another drinking college 
student annually.
    Groundbreaking work in the field of neuroscience sheds further 
light on the long-term consequences of youth alcohol use. We know that 
the human brain continues to develop into the early 20's. As research 
in this area continues to emerge, studies show that heavy alcohol use 
by youth has disproportionately negative effects on the physical 
development of the brain, and that alcohol use during adolescence has a 
direct negative effect on brain functioning.
    In addition to the human costs associated with underage drinking, 
the economic cost to society is staggering. It is conservatively 
estimated that underage drinking costs this nation $53 billion dollars 
each year, including $19 billion from traffic crashes and $29 billion 
from violent crime. The NAS points out that this estimate is ``somewhat 
incomplete'' and ``does not include medical costs other than those 
associated with traffic crashes'' and other potential factors 
contributing to the social costs of underage drinking. The NAS 
concludes that ``the $53 billion appears to be an underestimate of the 
social costs of underage drinking.'' (p. 70)
    As parents, as educators, as legislators, knowing that underage 
alcohol use has such serious consequences, we have a responsibility to 
treat this problem with the emphasis that it deserves. Underage 
drinking is not a childhood rite of passage--it is a threat to our 
children's health and safety, brain development, to their potential and 
to their futures.

National Efforts to Combat Underage Drinking Woefully Inadequate
    While illicit drugs and tobacco youth prevention have received 
considerable attention and funding from the federal government, 
underage drinking has consistently been ignored. NAS confirms this:
        In fiscal 2000, the nation spent approximately $1.8 billion on 
        preventing illicit drug use (Office of National Drug Control 
        Policy, 2003), which was 25 times the amount, $71.1 million, 
        targeted at preventing underage alcohol use. (p. 14)
    Not only is there minimal funding available to states and local 
communities specifically targeted to reduce youth alcohol use, there is 
also no coordinated national effort to reduce and prevent underage 
drinking. In May 2001, the General Accounting Office (GAO) released a 
report outlining federal funds aimed at preventing underage drinking. 
The report provided concrete evidence that: 1) the federal government's 
approach to youth alcohol use prevention is disjointed and 2) funding 
for youth alcohol prevention is woefully inadequate.
    GAO found that multiple federal agencies play some role in underage 
drinking prevention, and that only a very small portion--7 percent--of 
total funds available for alcohol and other drug use both had a 
specific focus on alcohol and identified youth or youth and the broader 
community as the specific target population.
    Citing the GAO and additional research, the NAS report concludes 
the following:
        ...there is no coordinated, central mechanism for disseminating 
        research findings or providing technical assistance to grantees 
        or others interested in developing strategies that target 
        underage drinking--the committee is not aware of any ongoing 
        effort to coordinate all of the various federal efforts either 
        within or across departments. The multitude of agencies and 
        initiatives involved suggests the need for an interagency body 
        to provide national leadership and provide a single federal 
        voice on the issue of underage drinking. (p. 236-237)
    The NAS report also adds that ``community efforts are most likely 
to succeed if they have strong and informed leadership'' and that 
``resources are needed for training and leadership development for 
coalition and task force members as well as key decision makers.'' (p. 
237-238)
    MADD strongly supports NAS recommendation 12-1 which calls for the 
establishment of a federal interagency coordinating committee to better 
align federal agency efforts to prevent underage drinking. The 
Department of Education, working with the Department of Health and 
Human Services, must be a vital player in this effort.

National Adult-Oriented Media Campaign
    NAS reports that education-oriented interventions should be 
implemented in the context of a comprehensive approach to preventing 
underage drinking. A focal point of this comprehensive approach is the 
development and implementation of a national adult-oriented media 
campaign that seeks to educate parents and adults about the risks 
associated with youth alcohol use.
    MADD strongly supports NAS recommendation 6:1, which states:
        The federal government should fund and actively support the 
        development of a national media effort, as a major component of 
        an adult-oriented campaign to reduce underage drinking.
    The goals of the campaign, as explained by NAS, would be to instill 
a broad societal commitment to reduce underage drinking, to increase 
specific actions by adults that are meant to discourage underage 
drinking, and to decrease adult conduct that facilitates underage 
drinking.
    The need for a comprehensive public education campaign aimed at 
underage drinking prevention is undeniable as most parents and teens 
are unaware of the dangers associated with youth alcohol use. Many 
parents do not recognize the prevalence of or the risks associated with 
underage alcohol use and because of this they often facilitate their 
underage children's drinking by giving kids access to alcohol, by not 
responding to children's drinking, by not adequately monitoring their 
children's behavior and by not understanding the severity of the 
consequences of youth alcohol use. All too often, parents falsely 
believe that since they lived through their teen years relatively 
unscathed, their kids will be fine.
    Seven years ago, Congress allocated $1 billion dollars to the White 
House Office of National Drug Control Policy (ONDCP) for an anti-drug 
media campaign designed to prevent youth drug use. Despite the fact 
that alcohol is the number one youth drug problem--both then and now--
underage drinking prevention messages were excluded from the campaign. 
The glaring omission of alcohol from the ONDCP campaign left a gaping 
hole in national youth prevention efforts. America's cultural 
``education'' on alcohol continued to rely almost entirely on 
irresponsible alcohol advertising, television shows and movies. A more 
realistic portrayal of the consequences associated with youth alcohol 
use is long overdue.
    Since 1998, Congress has considered creating a separate media 
campaign to prevent underage drinking, but those attempts failed due to 
behind the scenes opposition from the alcohol industry. The alcohol 
industry instead pressured Congress to request a study as a means to 
delay action on a media campaign. The Congressional directive to NAS to 
develop a comprehensive strategy to prevent underage drinking dates 
back several years to repeated attempts by the public health and safety 
communities to establish a media campaign that addresses youth alcohol 
use.
    When the alcohol industry learned that the NAS might recommend 
prevention measures it opposes, alcohol interests tried to 
inappropriately influence the content of the report, fault the NAS 
expert panel, and criticize and discredit the findings while they were 
being formulated. Before the NAS report was even released, the beer 
industry took out full-page ads in Roll Call, the Hill, Congress Daily 
and other Capitol Hill publications in an attempt to discredit the 
report findings. The beer industry complained that they did not have 
enough influence on the NAS report.
    The alcohol industry seeks to limit underage drinking prevention 
efforts by pointing fingers at parents as those who must bear 
responsibility for educating their kids. Parents do play a vital role 
in youth alcohol prevention efforts, but they--along with other adults 
who make youth access to alcohol easy--must be educated about the risks 
and consequences associated with underage drinking. And, research tells 
us that underage drinking is much more than a ``family problem.'' Even 
parents who incorporate a no-use message about alcohol are swimming 
upstream as their kids grow up in a world in which alcohol is easy to 
obtain, irresponsible alcohol advertising is omnipresent, and underage 
drinking laws are not well-enforced.
    A national adult-oriented media campaign to prevent underage 
drinking is necessary to elevate this public health issue and to 
support effective prevention efforts at the national, state and local 
level. The American public needs and deserves these messages.

Increased Funding and Institutionalization Needed for Alcohol 
        Prevention within Safe and Drug Free Schools
    On January 8, 2002, President Bush signed into law the No Child 
Left Behind Act (NCLB) of 2001. The NCLB emphasizes the 
Administration's commitment to provide support for elementary and 
secondary education to ensure that every student achieves academic 
success.
    But, despite the staggering impact of alcohol-related problems 
among students, and the clear link between youth alcohol use and school 
achievement, our educational system does not provide stable, targeted 
funding for underage drinking prevention. It is important to recognize 
the relationship between academic performance and youth alcohol use:
    <bullet>  Research indicates that adolescents who use alcohol may 
remember 10 percent less of what they have learned than those who don't 
drink. (Brown SA, Tapert SF, Granholm E,--et al. 2000. Neurocognitive 
functioning of adolescents: Effects of protracted alcohol use. 

Alcoholism: Clinical and Experimental Research. 24(2):164-171)
    <bullet>  Among eighth graders, higher absenteeism rates were 
associated with greater rates of alcohol use in the past month. (O 
Malley PM, Johnston LD, Bachman JG. 1998. Alcohol use among 
adolescents. Alcohol Health & Research World. 22(2):85-93)
    <bullet>  Among eighth graders, students with higher grade point 
averages reported less alcohol use in the past month. (O Malley PM, 
Johnston LD, Bachman JG. 1998. Alcohol use among adolescents. Alcohol 
Health & Research World. 22(2):85-93)
    The Safe and Drug-Free Schools Program was reauthorized under NCLB 
and is the federal government's primary vehicle for reducing drug, 
alcohol, tobacco use, and violence, through education and prevention 
activities in the nation's schools. This program consists of two major 
components: (1) State Grants for Drug and Violence Prevention Programs 
and (2) National Programs. State Grants is a formula grant program that 
provides funds to state and local education agencies, as well as 
governors, for a wide range of school- and community-based education 
and prevention activities. Communities rely on state grant funding for 
valuable prevention activities.
    Under the Safe and Drug-Free Schools and Communities Act the term 
``drug'' includes controlled substances, the illegal use of alcohol and 
tobacco, and the harmful, abusive, or addictive use of other 
substances, including inhalants or anabolic steroids.
    Overall funding for the Department of Education's Safe and Drug-
Free Schools State Grants initiative has remained at very low levels. 
Historically, the State Grants program is at approximately the same 
level of funding it received in 1990, and is currently lower than the 
amount it received in 1991. The Administration's fiscal year 05 budget 
request contains 441 million dollars for State Grants, the same level 
of funding enacted in fiscal year 04, and a 28 million dollar decrease 
from the fiscal year 03 enacted level.
    Quite significantly to youth alcohol prevention advocates, the 
Administration's fiscal year 05 budget request proposes a 30 million 
dollar reduction in K-12 alcohol prevention programming. This funding 
represented the only amount within Safe and Drug-Free Schools that was 
specifically targeted to K-12 alcohol prevention. While a very modest 
sum compared to the economic and social costs of youth alcohol use, 
this cut demonstrates a clear lack of commitment to reducing underage 
drinking. Our schools require a stable, dedicated funding base for 
youth alcohol prevention. As more schools focus on violence prevention, 
more and more funds continue to be directed away from youth alcohol 
prevention.
    Within the confines of Safe and Drug-Free Schools, alcohol programs 
must compete with a variety of other drug and violence prevention 
activities. Local education authorities can access these federal funds 
for a laundry list of programs, including ``counseling services; 
professional development services; programs for school personnel, 
students, law enforcement officials, judicial officials; implementing 
conflict resolution, peer mediation and mentoring programs; 
implementing character education programs and community service 
projects; acquiring and installing metal detectors and hiring security 
personnel.'' While these areas are all important, the result is that 
very few targeted funds are available for underage drinking prevention.
    A stable, year-to-year funding base for underage drinking 
prevention is critical because it is not enough to simply provide 
program funds for one or two years and then cease prevention efforts. 
If we are to ever succeed in youth alcohol prevention in any meaningful 
way, Congress must continuously allocate protected funds to educate our 
nation's children. NAS confirms this need:
        Institutionalization is crucial for prevention to realize its 
        full potential. It can ensure that new social norms in a 
        community are perpetuated by exposing new community members 
        (e.g., every fifth grade class in a school) to the norms, that 
        well-trained professionals facilitate the intervention, and 
        that programs are regularly evaluated and adjusted to meet the 
        changing needs of the community. This kind of consistency and 
        rigor has the potential to ensure that programs shown to reduce 
        underage drinking can have long lasting effects. However, 
        schools and communities are often funded to implement these 
        programs through temporary mechanisms and often at a level that 
        does not allow sustained implementation. (p. 199)
    Alcohol is a major factor in youth violence and more widely abused 
by children in America than any other illicit drug. To maintain an 
educational system in which underage drinking prevention programs are 
optional for schools presents a major flaw in our prevention efforts. 
Every American child is at-risk when it comes to alcohol. Every school 
district must deal with the fall out caused by underage drinking, but 
our educational system continues to bypass the number one drug problem 
teens face: alcohol.
    MADD urges the committee to invest in establishing increased, 
continuous, targeted funding for the Office of Safe and Drug-Free 
Schools specifically for youth alcohol use prevention programs.
Effective Education-Oriented Prevention Measures
    The NAS report outlines the effective role that youth-oriented 
interventions can play, and specifically states that ``School-based 
intervention programs represent an important opportunity to prevent and 
reduce alcohol use among youth.'' (p. 195)
    MADD strongly supports NAS recommendation 10:2, which states:
        The U.S. Department of Health and Human Services and the U.S. 
        Department of Education should fund only evidenced-based 
        education interventions, with priority given both to those that 
        incorporate elements known to be effective and those that are 
        part of comprehensive community programs.
    NAS also states that:
        Approaches that have been demonstrated to reduce youth alcohol 
        use have many program elements in common. However, similar to 
        other approaches recommended in this report, the committee 
        believes that education-oriented interventions should be 
        implemented in the context of a comprehensive approach. (p. 
        197)
    This comprehensive approach, as stated by NAS and strongly 
supported by the public health community, includes development of a 
national media campaign to prevent underage drinking, alcohol 
advertising reform, limiting access, youth-oriented interventions, 
government assistance and coordination, research and evaluation, and 
community-based interventions, which I will discuss later in my 
testimony.
    MADD supports the current, rigorous standards required by the 
Substance Abuse and Mental Health Services Administration (SAMHSA) and 
the Department of Education for programs seeking eligibility and 
acceptance into the National Registry of Effective Programs (NREP). 
Through this review process, prevention programs are evaluated and, if 
approved, placed on a list of programs that have been proven to prevent 
or reduce substance abuse and other related high-risk behaviors.
    Alcohol-related expectancies are well-formed by age 12 
(Christiansen et al., 1982; Jones et al., 2001). Prevention efforts 
targeting suicide, drop-out and violence, for example, have shown that 
the most effective prevention efforts begin in or long before the 
developmental period that precedes the problem. Since alcohol-related 
expectancies are developed in childhood, prior to actual use during 
adolescence, and expectancies are a key factor leading to use, 
prevention is most effective if it begins in the developmental period 
preceding adolescence-childhood-which means effective prevention 
messages must reach our children in elementary school.
    The federal government has established a set of criteria for best 
practices in prevention education--with that system and the latest 
research in mind, MADD worked diligently to ensure the effectiveness of 
its elementary school program, Protecting You/Protecting Me.
    As NAS states:
        ...interventions need to be multicomponent and integrated; 
        sufficient in ``dose'' and follow-up; establish norms that 
        support nonuse; stress parental monitoring and supervision; be 
        interactive; be implemented with fidelity; include limitations 
        in access; be institutionalized; avoid an exclusive focus on 
        information and avoid congregating high-risk youth; and promote 
        social and emotional skill development among elementary school 
        students. (p. 197)
    NAS continues with:
        Significant developmental changes occur during adolescence. For 
        educational interventions to be effective, they must be 
        delivered throughout this period--multiyear programs should be 
        encouraged. (p. 198)
    Protecting You/Protecting Me is an alcohol use prevention 
curriculum for grades 1-5. It was created in direct response to parents 
and community leaders seeking a program for elementary school students 
that could be incorporated into the core curriculum. PY/PM was named a 
Model Program by the U.S. Department of Health and Human Services and 
can be found on the NREP list.
    PY/PM includes the latest brain research, provides all curriculum 
and training materials necessary for national replication and includes 
an evaluation component, which continually demonstrates significant 
results. The PY/PM curriculum teaches basic safety skills, alcohol's 
effects on the developing brain and shows kids how to protect 
themselves by making good decisions, such as what to do when riding in 
a car with an unsafe driver. The curriculum is designed to fill the gap 
in current prevention programs that have not yet incorporated the 
latest research on children's brains and the developmental risks 
associated with exposure to alcohol before the age of 21.
    The goal of the curriculum is to prevent youth alcohol-related 
death and injury, focusing on the risks of underage consumption of 
alcoholic beverages, and vehicle-related risks, including those 
associated with riding as a passenger in vehicles in which the driver 
is not alcohol-free.
    Evaluation of PY/PM has shown that students receiving the lessons 
are:
    <bullet>  more knowledgeable about their brains
    <bullet>  more media literate
    <bullet>  less likely to ride with a driver who is not alcohol-free
    <bullet>  less likely to drink when they are teenagers
    PY/PM is endorsed by the American Academy of Pediatrics and the 
National Association of Elementary School Principals. By the end of 
2003, nearly 200,000 elementary students were exposed to MADD's PY/PM's 
lessons in over 1,200 schools across the country. MADD is committed to 
continued growth of this program as we seek to create a culture where 
underage drinking is not a ``rite of passage.''

Program Implementation
    As NAS points out, ``identifying and selecting model programs are 
only part of the process in launching a successful education 
strategy.'' (p. 201) Local communities and education authorities have a 
wide range of choices when designing their prevention plans and 
selecting programs. Once identified however, many good programs do not 
have the capacity or willingness to provide the necessary technical 
assistance to ensure effectiveness at the local level. In fact, NAS 
finds that:
        Experience over the past two decades reveals that most schools 
        do not implement research-based programs as intended or do not 
        continue to use them over time. Failure to institutionalize 
        interventions is likely to prevent them from realizing their 
        full potential. Federal and state policies are needed to 
        encourage and support the institutionalization of research-
        based programs. (p. 210)
    Often program developers will not alter their programs or work with 
local educators and communities on implementation issues. This lack of 
attention to local communities can significantly lessen the impact of 
prevention programs. Model Programs are thoroughly tested and evaluated 
in order to be effective; however when the fidelity of the programs is 
not protected during implementation, it is impossible to ensure the 
programs will achieve their desired results. While the DOE requires the 
use of research-based programs, more needs to be done to ensure that 
programs are implemented the way in which they were intended.
    MADD urges the committee to support funding for program developers 
to ensure that prevention programs have the necessary infrastructure to 
provide technical support to communities. The federal government must 
make a commitment to local school teachers, principals, counselors and 
parents to reject an ivory tower approach to prevention programming by 
ensuring that trained professionals will be there to roll up their 
sleeves and help local schools use Model Programs in the most effective 
way.

        Increased Emphasis/Funding Needed for Prevention Research

    As stated earlier, it is absolutely essential that Model Programs 
be rigorously evaluated and identified through the NREP process; 
however maintaining the efficacy of a Model Program goes far beyond the 
initial award. There must be a long-term commitment to continually re-
evaluate prevention programs and make certain that they remain 
relevant. MADD and many other prevention groups have been able to 
identify funding to develop and initially evaluate programs to meet the 
initial requirements of the NREP review process. But the pursuit of 
ongoing, long-term evaluation requires an increased financial 
commitment.
    NAS supports this:
        Both SAMHSA and the Department of Education have demonstrated a 
        commitment to funding research based interventions. The 
        committee believes that this interest, and the effectiveness of 
        funded programs, would be enhanced by a standard evaluation 
        expectation across all funded programs. Programs also need to 
        be provided with tools for conducting research and 
        evaluation.'' (p. 247)
    MADD strongly supports NAS recommendation 12-9:
        States and the federal government--particularly the U.S. 
        Department of Health and Human Services and the U.S. Department 
        of Education--should fund the development and evaluation of 
        programs to cover all underage populations.
    MADD urges the committee to seek increased funding levels to 
specifically support longitudinal research to ensure the ongoing 
effectiveness of Model Programs.
    To guarantee that our children continue to receive the best that 
prevention has to offer, the federal government must commit time, 
resources and attention to the long term assessment of all Model 
Programs. This is a measure that will protect investments made by the 
federal government and ensure that taxpayer dollars are being spent on 
programs that work year after year.
        Community-Based Interventions
    As stated earlier in recommendation 10:2 and throughout the report, 
NAS outlines the need for community-based interventions as part of a 
comprehensive underage drinking prevention strategy. School-based 
interventions will have only modest results if they are not coupled 
with proven, research-based community interventions. That is why MADD 
designed Youth In Action (YIA). YIA is a community-based prevention 
approach that utilizes effective environmental strategies such as 
limiting availability of alcohol to minors, creating partnerships with 
law enforcement and working to change alcohol policies. Young people 
work on specific community projects which are proven to significantly 
reduce the availability of alcohol for teens and raise compliance with 
related 21 Minimum Drinking Age Laws. Such practices have been found to 
be highly effective and are substantiated by numerous studies cited in 
the Pacific Institute for Research and Evaluation report, ``Regulatory 
Strategies for Preventing Youth Access to Alcohol: Best Practices.''
    YIA teams have been trained in more than 40 communities across the 
country. Their partnerships with local law enforcement agencies, 
schools and community leaders have helped pass key underage drinking 
legislation and encourage enforcement of laws that have saved young 
lives. Youth In Action focuses on the community environment that 
condones underage drinking: from the store clerk who doesn't check IDs, 
to the police officer who might pour out the alcohol and send teens 
home, to the adult who doesn't mind buying beer for a kid who slips him 
or her an extra $10. YIA teams look for community solutions to underage 
drinking to work in concert with many of the school-based interventions 
already in place in their communities.
    Youth In Action teams engage in very specific interventions because 
research says these projects work. For example, YIA teams conduct 
Alcohol Purchase Surveys, where a young looking 21 year old attempts to 
purchase alcohol without an ID. No actual purchase is made. It is 
merely a community survey conducted to determine whether retail clerks 
would have sold alcohol to a presumed minor without ID.
    In the Greater Boston area, MADD's Youth In Action team began doing 
Alcohol Purchase Surveys in 2000. At that time only 64 percent of 
surveyed stores carded the legal age buyer. After concentrated efforts 
with local law enforcement these numbers increased to 81 percent of 
buyers being carded by 2002.
    YIA teams also conduct Shoulder-Tap Surveys. During these surveys, 
local police observe the youth for safety purposes as they approach 
adults outside an alcohol retailer and ask if these adults would 
willingly purchase alcohol for them because they are too young to 
legally buy.
    That same YIA team I mentioned from Boston also conducted Shoulder 
Taps in 2001. Students approached 100 people at 15 different package 
stores. The good news is they found that 83 people would not purchase 
alcohol for them. The disheartening news is that they also determined 
that they only needed to be out for an average of 15 minutes before 
they could find a complete stranger willing to say yes.
    Instead of money, the adults who agreed to purchase alcohol were 
given a card outlining Massachusetts state law and listing the penalty 
for furnishing alcohol to a minor. Those who refused to purchase 
alcohol were handed a card thanking them for serving their community by 
refusing to provide alcohol to a minor.
    Students involved with Youth In Action also conduct two projects in 
support of law enforcement. Many organize Law Enforcement Recognition 
Events where teens publicly thank local law enforcement officials who 
are working to prevent underage drinking and impaired driving. These 
events range from formal banquets, to media events, to YIA teams 
dropping off snacks for officers at the station or out on location 
where police officers are working on the job.
    The second project with police involves students preparing ``Roll 
Call Briefings.'' YIA teams ask to present to police officers during 
their shift change meetings when officers are beginning their shifts. 
Two or three YIA members go to the police station with an adult leader 
to encourage police officers to enforce the Zero Tolerance Laws that 
make it illegal for youth to drive after drinking. Many YIA teams hand 
out printed cards or notepads that outline the law and declare the 
teens support for the police officers in enforcing the law.
    The inclusion of tested community-based programs that engage 
students in underage drinking prevention as part of a comprehensive 
strategy is vital. MADD urges the committee to pursue action to allow 
community-based programs to be accepted as Model Programs. Young people 
must not only learn about alcohol in the classroom but must be engaged 
in solutions through learning opportunities that support a multi-
component, integrated prevention plan.

Alcohol-Industry Efforts
    MADD continues to push for evaluation efforts and proven programs 
because without hard data we do not know what types of messages will 
work. Unevaluated programs may be useless or, worse, counterproductive. 
As the NAS states, ``interventions that rely solely on provision of 
information alone, fear tactics, or messages about not drinking until 
one is ``old enough'' have consistently been found to be ineffective in 
reducing alcohol use, and in some cases, produce boomerang effects.'' 
(p. 195)
    This is why many in the public health community remain highly 
skeptical of the value of the alcohol industry's underage drinking 
programs. By and large, the alcohol industry has relied on unproven 
messages and tactics to combat underage drinking. The NAS reports that 
it ``is aware of only one industry-sponsored education program that has 
been independently evaluated,'' (p. 195) and further research was 
suggested on that particular program.
    The alcohol industry charged that the NAS panel did not review 
industry funded programs, but this could not be farther from the truth. 
The NAS reviewed all of the materials submitted, but found that the 
industry's material had no backing in science. This led NAS to report:
        ``Based on our own review of the materials submitted by 
        industry representatives, the alcohol prevention literature, 
        and the other materials and testimony submitted to the 
        committee, we believe that industry efforts to prevent and 
        reduce underage drinking, however sincere, should be redirected 
        and strengthened.'' (p. 132)
    NAS went on to rearticulate the need for strong scientific evidence 
to support any underage drinking program:
        ...industry-funded messages and programs should be delivered 
        directly to young people only if they rest on a scientific 
        foundation, as judged by qualified, independent organizations, 
        or incorporate rigorous evaluation. Programs that have an 
        exclusive focus on providing information have been demonstrated 
        to be ineffective at reducing alcohol use and should be 
        avoided. (p. 134)
    Quite significantly, a typical industry-funded ``responsibility'' 
ad is branded with the alcohol company name, which leads many public 
health experts to conclude that ``responsibility'' ads are simply 
another means to promote brand recognition and loyalty.
    A recent study by the Center on Alcohol Marketing and Youth (CAMY 
2003) reported that in 2001 the alcohol industry spent $23.2 million 
dollars to air 2,379 ``responsibility'' messages, while in contrast the 
industry spent $812.2 million on 208,909 product advertisements. There 
were 179 product ads for every ad that referred to the legal drinking 
age.
    NAS reports that:
        In 2001, alcoholic beverage companies spent $1.6 billion on 
        advertising and print media, broadcast media, billboards, and 
        other venues--known as measured media purchases. At least twice 
        that amount was spent on unmeasured promotion, which includes 
        sponsorships, product placement payment in entertainment media, 
        point-of-sale advertising, discount promotion, apparel and 
        other items with brand-name logos, and other activities 
        (Federal Trade Commission, 1999). (p. 134)
    The market certainly rewards those manufacturers that can tap the 
youth market. The NAS reports that underage drinkers consumed anywhere 
from 10 to 20 percent of all alcohol consumed in 2000, representing 
somewhere between 11 to 22 billion dollars. Beer is overwhelmingly the 
most common alcoholic drink consumed by underage drinkers.
    Now ``malternatives'' or ``alcopops'' have climbed onto the 
advertising bandwagon to capture more of the youth market (such as 
Smirnoff Ice, Bacardi Silver, and Skyy Blue). MADD is deeply concerned 
with the growing number of ads for liquor-branded, malt-based beverages 
that have a flavor and marketing plan that appeals to our kids. Just 
like beer, the distilled spirits industry is being given a ``free 
pass'' to establish brand recognition and loyalty among youth. NAS 
states that:
        A particularly troubling illustration of the youth-specific 
        attractions of an alcohol marketing campaign concerns so-called 
        ``alcopops,'' sweet, flavored alcoholic malt beverages. Recent 
        survey data suggest that these products are more popular with 
        teenagers than with adults, both in terms of awareness and use. 
        (p. 135)
    New data from the 2003 Monitoring the Futures Survey confirms that 
these drinks are popular with teens: nearly 80 percent of high school 
seniors who drink had consumed an alcohol-pop within the past year.
    Additionally, despite the alcohol industry's claims, CAMY reports 
that young people under 21 are reached at a higher proportion to their 
numbers in the population by print alcohol ads. Our youth see far more 
beer, distilled spirits and malternative advertising in magazines than 
adults. In 2001 alone, nearly one-third of all measured magazine 
alcohol ads were placed in 10 publications with a youth audience of 25 
percent or more.
    NAS points out that the dispute over whether alcohol advertising 
``causes'' underage drinking is simply an ``unnecessary distraction'' 
from the most important task at hand: the alcohol industry must do a 
better job of refraining from marketing products or engaging in 
promotional activities that appeal to youth. NAS concludes that if the 
industry fails to respond in a meaningful way to this challenge, the 
case for government action becomes compelling. Although beer is the 
favorite alcoholic beverage among young people, the beer industry has 
advertised for years with little or no restrictions or standards from 
the networks. Strong alcohol advertising restrictions must be mandatory 
for all segments of the alcohol industry--including ads for beer, wine, 
liquor and malt-based beverages.
    It is odd that an industry that studies and hones its marketing 
messages so well has no data on the effectiveness of its underage 
drinking programs. At best, the industry is inept in this area; at 
worst, they are a malevolent force.
    In no other context would we trust that a product manufacturer 
would aggressively work to convince a segment of the population not to 
buy their products. Yet in regards to underage drinking, we are willing 
to trust the health, well being and education of our children in large 
part to the care of the alcohol industry.
    The government must act to make sure that science-based, effective 
programs are not lost in the din of advertising and industry messages. 
If the alcohol industry can create programs that stand up to scientific 
scrutiny, then we can reexamine this; in the meantime, it is past time 
for action.

Conclusion
    Armed with the knowledge that underage alcohol use results in 
significant negative social and economic consequences, including 
irreversible damage to the adolescent brain, our nation can no longer 
pretend that underage drinking is a rite of passage. Our children 
deserve more. It is time to face the sobering reality that if we do not 
put an end to the complacent attitude about underage drinking, we 
continue to put our children in harm's way.
    More youth drink alcohol than smoke tobacco or use other illegal 
drugs, yet federal investments in preventing underage drinking pale in 
comparison with resources targeted at preventing illicit drug use. The 
media constantly reports on the countless numbers of alcohol-related 
deaths and injuries of today's youth, but our nation accepts and even 
enables these preventable tragedies. The future of our nation's youth 
continues to hang in the balance. Underage drinking is illegal, and yet 
millions of kids continue to engage in this high-risk behavior every 
month, every weekend, and even every day.
    The NAS has reviewed the research and has recommended strategies 
that will significantly reduce and prevent underage drinking. As a 
parent and an activist who has experienced devastating alcohol-related 
consequences, I urge this Committee to use the NAS recommendations as a 
roadmap to create a healthier future for America's youth and embrace 
the role you can play in expanding youth and community interventions 
through our nation's educational system. Thank you.
                                 ______
                                 
    Mr. Osborne. Thank you, Mrs. Hamilton.
    Ms. Hackett.

 STATEMENT OF JACQUELINE HACKETT, STUDENT LEADERSHIP COUNCIL, 
             STUDENTS AGAINST DESTRUCTIVE DECISIONS

    Ms. Hackett. Mr. Chairman, members of the Subcommittee and 
distinguished panelists, my name is Jacqueline Hackett, and I 
am a senior at Souderton Area High School in Montgomery County, 
Pennsylvania.
    I have been actively involved in Students Against 
Destructive Decisions since I was in the eighth grade, first at 
the local level and now nationally, where I serve as an 
executive committee member for the SADD Student Leadership 
Council.
    As a high school student, I am very aware of the lifestyle 
and the activities chosen by some of my peers. Friday night 
parties are not kept secret, nor is anyone left unaware of what 
happens at these events. The reality of high school life is 
that underage drinking is a very big deal and a serious problem 
that affects not only those who choose to use but also others 
in the high school community and ultimately my entire 
generation.
    Let me tell you a little bit about SADD and how it works. 
Since being founded in 1981 as Students Against Drunk Driving, 
SADD has been committed to empowering young people to say no to 
alcohol and other drugs and encouraging young people to serve 
as role models in their own communities.
    In 1997 in response to young people themselves, SADD 
expanded its name and its mission and now sponsors chapters 
called Students Against Destructive Decisions. SADD continues 
to endorse and affirm a no use message related to the use of 
alcohol and other drugs. With this expanded focus, SADD now 
highlights prevention in all destructive behaviors and 
attitudes that are harmful to youth, focusing particularly on 
underage drinking, substance abuse, impaired driving, teen 
violence, suicide and depression.
    Currently there are 10,000 SADD chapters in middle schools, 
high schools and colleges around the United States with 350,000 
active members and seven million students in the schools where 
SADD chapters exist. Over the past 23 years, literally millions 
of people have gone through the SADD program, proving that SADD 
serves a necessary role and delivers a strong and unwavering 
message.
    The efforts of SADD have been proven to work. An 
independent study conducted in the late '90's showed that 
students in schools with an established SADD chapter are more 
aware of and informed about the risks of underage drinking, 
other drug use and impaired driving.
    Students in schools with a SADD chapter are also more 
likely to hold attitudes reflecting positive reasons not to use 
alcohol. Alcohol is the No. 1 drug of choice among our nation's 
youth.
    I won't repeat all the statistics because I am sure you 
know them, but here is just one. In 2002 there were more than 
2,400 alcohol-related traffic deaths among students 15 to 20 
years old, more than 200 teen lives lost each month to impaired 
driving alone. Across the country, SADD is working to respond 
to this pervasive youth epidemic. Perhaps the most important 
reason that SADD works is because it's students who talk to 
each other, using words and activities that are more likely to 
make a difference. After all, young people are the ones who are 
actually drinking the beers, putting the keys into the ignition 
and piling into a car with friends who have been drinking in 
the driver's seat.
    SADD chapters provide information and education about the 
harmful effects of drugs and alcohol, but they also host 
alternative drug-free activities for students, mentor younger 
elementary and middle school students, and reach out to other 
groups in the community, such as law enforcement, the media, 
and the business community. My chapter has held prom graduation 
programs, offered dances as drug-free alternative events, and 
co-hosted a picnic with the local YMCA.
    SADD offers a safe haven for those who have made the 
conscious decision not to use. SADD students become alternative 
role models and consciously work to bring people together who 
believe in the no use message for youth and want to make a 
positive difference in their community.
    All the individual SADD chapters working together have a 
huge potential to present positive change in their communities. 
We need support though. We need more people to acknowledge our 
efforts and provide us with the resources to implement 
effective programming.
    If in my state the Pennsylvania Department of Education 
were to embrace the 550 Pennsylvania SADD chapters working on 
prevention efforts at the local level, link them with community 
coalitions and local law enforcement initiatives and provide 
coordinating services that magnify the energy and drive of 
fellow SADD students working within every school, there would 
indeed be a strong statewide movement opposing the destructive 
influences of alcohol on our youth.
    With the state support not only in Pennsylvania but in 
every state in the country, SADD would be able to spread its 
message even further, implement effective prevention 
programming within the schools and ultimately change behaviors 
and attitudes of the youth across the United States.
    The underage drinking epidemic needs a strong movement 
against it to challenge the negative and risky attitudes of 
young people and SADD is that movement.
    SADD students are the troops and they are ready for the 
country, they are ready for the country to support them so that 
they can win this war.
    Thank you very much for giving me this opportunity to speak 
today with you about this very serious problem that I am 
committed to addressing through my work in SADD. Underage 
drinking is dangerous and often deadly and I urge you to rally 
behind students like myself and give us the support we need to 
continue the work that we are doing every day in our 
communities. SADD is a force that needs your collaboration and 
support.
    [The prepared statement of Ms. Hackett follows:]

 Statement of Jacqueline Hackett, Student Leadership Council, Students 
                     Against Destructive Decisions

    Mr. Chairman, Members of the Subcommittee, Distinguished Panelists:
    My name is Jacqueline Hackett and I am a senior at Souderton Area 
High School in Montgomery County, Pennsylvania. I've been actively 
involved in Students Against Destructive Decisions since I was in 
eighth grade; first at the local level and now nationally where I serve 
on the executive committee of the SADD Student Leadership Council.
    As a high school student, I'm very aware of the lifestyle and 
activities chosen by some of my peers. Friday night parties aren't kept 
secret, nor is anyone left unaware of what happens at these events. The 
reality of high school life is that underage drinking is a very big 
deal and a serious problem that affects not only those who choose to 
use, but also others in the high school community and ultimately my 
entire generation.
    Let me tell you a little bit about what SADD is and how it works. 
Since being founded in 1981 as Students Against Driving Drunk, SADD has 
been committed to empowering young people to ``say no'' to alcohol and 
other drugs, and encouraging young people to serve as role models in 
their communities. In 1997, in response to young people themselves, 
SADD expanded its mission and name, and now sponsors chapters called 
Students Against Destructive Decisions. SADD continues to endorse a 
firm ``no use'' message related to use of alcohol and other drugs. With 
its expanded focus, SADD now highlights prevention of all destructive 
behaviors and attitudes that are harmful to youth, focusing 
particularly on underage drinking, substance abuse, impaired driving, 
teen violence, suicide and depression.
    Currently there are 10,000 SADD chapters in middle schools, high 
schools, and colleges around the United States with 350,000 active 
members and seven million students in the schools where SADD exists. 
Over the past 23 years, literally millions of people have gone through 
the SADD program, proving that SADD serves a necessary role and 
delivers a strong and unwavering message.
    The efforts of SADD have been proven to work. An independent study 
conducted in the late 1990s showed that students in schools with an 
established SADD chapter are more aware of and informed about the risks 
of underage drinking, other drug use, and impaired driving. Students in 
schools with a SADD chapter are also more likely to hold attitudes 
reflecting positive reasons not to use alcohol.
    Alcohol is the number one drug of choice among our nation's youth. 
I won't repeat all the statistics because I'm sure you know them, but 
here is just one. In 2002, there were more than 2,400 alcohol-related 
traffic deaths among 15 to 20 year olds, more than 200 teen lives lost 
each month to impaired driving alone.
    Across the country, SADD is working to respond to this pervasive 
youth epidemic. Perhaps the most important reason that SADD works is 
that it's about students talking to each other, using words and 
activities that are most likely to make a difference. After all, young 
people are the ones who actually drink the beer, put the key in the 
ignition or pile into a car with a friend who has been drinking in the 
driver's seat.
    SADD chapters provide information and education about the harmful 
effects of drugs and alcohol, but they also host alternative drug-free 
activities for students, mentor younger elementary and middle school 
students and reach out to other groups in the community such as law 
enforcement, the media and the business community. My chapter has held 
prom and graduation programs, offered dances as drug-free alternative 
events, and co-hosted a picnic with the local YMCA. SADD chapters offer 
a ``safe haven'' for those who have made the conscientious decision not 
to use. SADD students become alternative role models and continuously 
work to bring people together who believe in the ``no use'' message for 
youth and want to make a positive difference in their community.
    All of the individual SADD chapters working together have a huge 
potential to present positive change in their communities. We need 
support though. We need more people to acknowledge our efforts and 
provide us with resources to implement effective programming. If in my 
state, the Pennsylvania Department of Education were to embrace the 550 
Pennsylvania SADD chapters working on prevention efforts at the local 
level, link them with community coalitions and local law enforcement 
initiatives, and provide coordination services that magnified the 
energy and drive of fellow SADD students working within every school, 
there would indeed be a strong state-wide movement opposing the 
destructive influence of alcohol on our youth. With state support, not 
only in Pennsylvania but in every state in the country, SADD would be 
able to spread the message even further, implement effective prevention 
programming within the schools, and ultimately change behaviors and 
attitudes of youth across the United States. The underage drinking 
epidemic needs a strong oppositional movement to challenge the negative 
and risky attitudes of young people, and SADD is that movement. SADD 
students are the troops and they're ready for the country to support 
them so they can win this war.
    Thank you very much for giving me the opportunity to speak with you 
today about this very serious problem that I am committed to addressing 
through my work with SADD. Underage drinking is dangerous and often 
deadly, and I urge you to rally behind students like myself and give us 
the support we need to continue the work we are doing everyday in our 
communities. SADD is a force that needs your collaboration and support.
                                 ______
                                 
    Mr. Osborne. Thank you very much.
    Mrs. Katz.

   STATEMENT OF FRANCINE I. KATZ, VICE PRESIDENT, CORPORATE 
         COMMUNICATIONS, ANHEUSER-BUSCH COMPANIES, INC.

    Mrs. Katz. Good morning, Mr. Vice Chairman and 
distinguished members of the Subcommittee. My name is Francine 
Katz, and for 14 years I have headed a department at Anheuser-
Busch of over 20 people working to fight alcohol abuse, 
including underage drinking. I am pleased to be sharing the 
floor today with others who share a commitment to this issue.
    I hope you will remember three things from what I have to 
say.
    First, that the more than 830,000 people who brew, package, 
distribute, and sell America's beers care about this issue and 
want to be part of the solution. Personally, I feel 
passionately about this issue, not just because of my job at 
Anheuser-Busch but because I am a mother. I have a 17-year-old 
daughter and a 12-year-old son, and I care about this issue 
just like every other mom out there.
    The second thing I would ask you to remember is that the 
best way to fight underage drinking is through education and 
awareness, starting early and in the home.
    Third, things are getting better. There is much more work 
to be done, but our nation has made some real progress in this 
fight.
    Our industry is committed to addressing underage drinking 
and we want to be part of the solution and at Anheuser-Busch we 
take great pride in the beers we brew, but we also understand 
the responsibility that accompanies selling an adult product.
    People in our industry come from all walks of life. They 
are brewers and bottlers, wholesalers and retailers. They are 
waiters, they are MBAs and they are secretaries. They are 
salespeople and they are union workers. They are churchgoers 
and PTA members. They live all over the United States. They are 
moms. They are dads. And they all share a commitment to 
fighting underage drinking.
    We believe the best way to address this issue is through 
education and awareness and in this regard we take a three-
prong approach.
    First and foremost, our efforts are directed at parents, to 
help them address this issue with their kids. Why? Because 
every year for the last decade in a national poll of youth 
conducted by the Roper research organization youths themselves 
have identified their parents' far and away as the most 
important factor in their decisions to drink or refrain from 
drinking.
    Our efforts on this front involve several programs. The 
first is called ``Family Talk About Drinking,'' which is a 
guide book that's available in five languages and helps parents 
of children as young as 8 years old begin the conversation with 
their children and carry it through their teenage years. We've 
given out over 5 million copies of this program since it was 
introduced in 1990.
    The second program is called ``College Talk,'' and it's a 
program for those parents whose teens are heading off to 
college, and the goal of that program is to help parents help 
their teens continue to make responsible decisions in their 
college years. But we also recognize that some youth don't get 
the kind of parental influence that they need at home, and we 
have been a strong supporter of mentoring initiatives designed 
to help adults who are caring adults make a difference in the 
lives of youth who need that kind of positive influence.
    The second prong of our efforts is aimed at retailers. 
Because we don't actually sell our products to the public, but 
rather we sell to wholesalers who in turn sell to retailers, 
and those retailers sell to the public. So we focus on efforts 
on those retailers who are on the front line, and we give them 
training and tools to spot fake IDs and stop sales to minors. 
And the nation's largest retailers, including 7-11, Circle K, 
Safeway and Publics join us in this effort.
    I'd like to show the Subcommittee a commercial which 
debuted on last year's Academy Awards and aired again this 
month on the Super Bowl which emphasizes the powerful role that 
retailers can play in this fight.
    [Videotape is played.]
    Mrs. Katz. The third prong of efforts involves programs 
aimed at young people. The most visible example is a speaker's 
bureau, comprised of third parties who bring messages into 
schools through live presentations. These speakers cover topics 
such as drunk driving, alcohol poisoning, building refusal 
skills, and enhancing self-esteem. Over the last 5 years, 
they've reached more than 1.4 million students.
    Each of these programs emphasizes that there is no excuse 
for breaking the law, and that youth must understand that such 
behavior will have consequences.
    Mr. Vice Chairman, members of the Subcommittee, over the 
last 22 years, Anheuser-Busch and its family of wholesalers 
across the country have invested nearly half a billion dollars 
in these efforts. But equally important to this financial 
investment is the human capital that we and our wholesalers 
have expended in this fight. Whether it's manning a booth to 
hand out Family Talk about drinking to parents or hosting 
training sessions for servers to help them spot fake IDs, 
meeting with school principals to offer a third-party speaker 
for students, this human capital demonstrates our collective 
commitment to being part of the solution.
    Finally, it is important to acknowledge that progress has 
been made on this front so that parents know their efforts are 
working, so that retailers know checking IDs is working, and so 
that teens know that most of their peers are making the good 
decision not to drink, because many are. According to the U.S. 
Department of Health and Human Services, 82 percent of today's 
teens do not drink. The University of Michigan's Monitoring the 
Future Survey sponsored by the National Institute on Drug Abuse 
reports that the percentage of high school seniors having a 
drink in the last 30 days has declined 32 percent since 1982.
    I realize that Mrs. Hamilton also cited the same statistic. 
However, her data is from 2002, not the most recent 2003 
report, which was released 2 months ago, and shows that this 
figure is at a record low level.
    And according to the U.S. Department of Transportation, 
teen drunk driving fatalities have declined 61 percent since 
1982. A large part of the credit for this progress goes to 
groups like Mothers Against Drunk Driving and SADD. And while 
we've made significant progress, this battle is far from over.
    In closing, let me say that the commitment I've spoken of 
today is shared by my colleagues at Miller, Coors, Heineken, 
and other brewers. We believe that the best way to continue the 
progress made in this fight against underage drinking is 
through education, especially involving parents, and the 
collective investment we make in our youth today will ensure 
their safe passage into adulthood.
    Thank you.
    [The prepared statement of Mrs. Katz follows:]

Testimony of: Francine Katz, Vice President, Corporate Communications, 
                     Anheuser-Busch Companies, Inc.

    Good morning, Mr. Chairman, Mr. Vice Chairman and distinguished 
members of the Subcommittee. My name is Francine Katz, and I'm the vice 
president responsible for Anheuser-Busch's longstanding efforts to 
fight alcohol abuse, an area I have been working in since 1990. I also 
am the mother of a 17-year-old daughter and a 12-year-old son, so I am 
dealing with these issues as a parent, too.
    I thank you for the opportunity to be here to address a topic that 
is important to all of us at Anheuser-Busch and to our fellow brewers. 
I hope that you remember three things from my statement here today: 
First, that the men and women who brew, package, distribute and sell 
America's beers care about this issue and want to be part of the 
solution. The more than 830,000 people in this industry come from all 
walks of life. They are brewers and bottlers, wholesalers and waiters. 
They are MBAs and secretaries, sales people and union workers. They are 
churchgoers and members of their local PTAs. They are east coasters, 
west coasters and Midwesterners. They are men and women, moms and dads. 
And they have an important role in helping to resolve this problem. 
Second, that our nation truly has made some significant progress in the 
fight against underage drinking. And third, that education, starting 
early and in the home, is the best way to continue that progress.
    Those of us in the beer industry are also in the hospitality 
business. Our beers are intended to be a refreshing accompaniment to 
social occasions or a simple reward after a long day's work. We take 
great pride in being part of an industry that has had its roots in 
America since colonial times. We also understand the responsibility 
that goes along with making and marketing an adult product, and we have 
been at the forefront of efforts to fight the abuse of our products. I 
am proud to tell you that my company has invested nearly a half billion 
dollars thus far in these efforts, and we are committed to continuing 
these initiatives. And I speak for other members of our nation's beer 
industry. While we compete with each other as fiercely as any industry 
in America, in this we are united: we don't want kids to drink, and we 
are committed to giving parents and others who deal with the problem 
real solutions.
    In addition to our company's efforts, each of Anheuser-Busch's 
independently owned beer wholesalers conduct alcohol awareness programs 
in their communities. These wholesalers have an individual within their 
organizations with responsibility for developing an alcohol awareness 
activities market plan and directing their local efforts. They do this 
by providing our educational materials to the public, making our 
alcohol awareness programs part of their promotions, and purchasing 
print, outdoor, radio and TV awareness ads. Equally important to this 
financial investment is the human capital that Anheuser-Busch and our 
wholesalers have expended in this fight. Whether it's manning a booth 
to hand out materials designed to help parents talk to their kids about 
drinking; hosting training sessions for servers to help them spot fake 
IDs; meeting with school principals to offer third party speakers who 
address topics with students like drunk driving and alcohol awareness, 
this human capital demonstrates our collective commitment to being part 
of the solution.
    We believe we have far more in common with the other witnesses on 
the panel than may appear at first blush. We all agree that underage 
drinking is a serious issue that we must aggressively fight. And I hope 
that we can channel our energies and resources toward this collective 
goal and find ways to work together in this fight.
    We believe the most effective way to fight underage drinking is to 
use a three-prong approach, and the cornerstone of that approach is 
focused on parents. Don Elium, a family and child counselor, recently 
wrote a book called, ``Raising a Teenager.'' In his book, Elium says 
that the teenage years are like a second birth of sorts, and that teens 
need just as much time and attention at that stage of their lives as 
they did when they were born. Elium goes on to say, ``One of the 
biggest mistakes parents make is letting them make decisions they have 
no business making...a family is not a democracy, it is a benevolent 
dictatorship.'' As a mother myself, I know that to be true.
    And despite what we may all think, youth themselves also favor 
strong parental involvement. According to the Roper Research 
Organization's Youth Poll, a nationally representative survey, 73% of 
youth ages 8-17 cite their parents, far and away, as the most 
influential factor in their decision to drink or refrain from drinking. 
This poll has been conducted for over a decade, and every year, youth 
have overwhelmingly identified their parents as the number one 
influence in this decision.
        Accordingly, we have invested a significant amount of our 
        efforts in programs for parents. One such program, a guide book 
        and video for parents called ``Family Talk About Drinking,'' 
        was created by an advisory panel of authorities from the areas 
        of family counseling, alcohol treatment and education. It is 
        available in five languages. We promote this free program 
        through advertising and on our website, but over the years, we 
        have also worked in partnership with groups and organizations 
        across the country to get these materials into the hands of 
        parents. For instance, we have worked with the attorneys 
        general from various states to send these materials to parents. 
        Working with the Association of Junior Leagues International, 
        we have distributed ``Family Talk'' via the group's local 
        chapters through our network of 600 wholesalers throughout the 
        country. And for parents of teens heading off to college, we 
        have a program called ``College Talk,'' created by a group of 
        authorities in the fields of student life, alcohol treatment 
        and peer education. This program helps parents prepare their 
        teens for responsible decision-making in college. ``College 
        Talk'' is endorsed by the National Association of State 
        Universities and Land Grant Colleges, the American Association 
        of State Colleges and Universities, the Social Norms Resource 
        Center and the BACCHUS and GAMMA Peer Education Network.
    The second prong to our efforts to fight underage drinking is aimed 
at the retail level, the point-of-purchase. Under the laws governing 
the sale and distribution of beer, we do not sell our products to 
consumers. Rather, we sell to our wholesalers, they sell to retailers 
and retailers sell to the public. As a result, retailers are on the 
front lines and they play a vital role in stopping underage drinking. 
In cooperation with police departments, county sheriffs, and other 
state and local agencies, we have worked aggressively to help retailers 
and servers stop sales to minors. We provide materials in English, 
Spanish, Korean and Vietnamese for retailers to teach them how to 
properly check IDs and to spot fake IDs. We also disseminate ``WE ID'' 
and other point-of-sale materials that remind customers that the 
establishment will ask for proper identification. Among the myriad of 
tools we provide retailers are such things as drivers license booklets 
that show valid licenses from all 50 states and serve as a useful tool 
for retailers--especially in college communities--who are confronted 
with IDs from all over the country. We have worked closely in these 
efforts with a number of major national retailers including 7-Eleven 
Stores, Circle K, Publix and Safeway Markets to put these materials to 
work in their stores. Our efforts in this regard were just featured in 
one of our Super Bowl commercials earlier this month, in which an 
attentive clerk deterred two teens in their attempt to buy beer.
    We have also been a sponsor of several server-training programs, 
designed again to ensure the responsible sale and service of our 
products. These include Training in Intervention Procedures for servers 
of alcohol, or TIPs, a program developed by Dr. Morris Chafetz, 
founding director of the NIAAA. TIPs provides techniques for servers to 
avoid over serving and drunk driving situations and to ensure proper ID 
checking procedures. Similar training is also presented in the BarCode 
and Learn2Serve programs that we support.
    Over the last decade, we have also joined with our colleagues at 
Miller and Coors through the Beer Institute and with the National 
Highway Traffic Safety Administration, Major League Baseball, and other 
professional sports leagues in a program called ``TEAM'' (which stands 
for ``Techniques for Effective Alcohol Management'') to address 
underage drinking and abusive consumption at games and other major 
outdoor events. Through this partnership, we helped train all the staff 
at the 28 Major League Baseball stadiums in alcohol management 
techniques before opening day last year.
    Finally, the third prong of our approach involves directing efforts 
at young people, to help them make good decisions. The most visible 
example of these efforts is a Speakers Bureau comprised of third 
parties from many walks of life who take their messages directly into 
schools. The members of the Anheuser-Busch Consumer Awareness and 
Education Speakers Bureau bring a message of responsibility and respect 
for the law to middle school and high school students around the 
country. With the support of our local wholesalers, over the past five 
years, these speakers have reached more than 1.4 million students via 
4,700 presentations throughout the country. The speakers include:
    <bullet>  Barbara Babb, a former critical-care flight nurse, who 
delivers a graphic, factual and memorable presentation on video to high 
school and college students about the tragic consequences of underage 
drinking and drunk driving.
    <bullet>  Michael Chatman, who shares his message of self-
empowerment and personal responsibility with students across the 
country. The son of an abusive father, Michael grew up in Miami, joined 
a gang and endured the trials of life on the wrong side of the law. 
Finally, following a series of life-altering events, he decided to 
transform his life. Today, Michael has reached more than one million 
teenagers, helping them realize that despite negative peer pressure, 
and the many other challenges they may face, underage drinking is not 
the answer.
    <bullet>  Dr. Lonnie Carton, a nationally recognized educator and 
family counselor, and host of the nationally syndicated radio program 
``Take a Minute for the Family.'' Lonnie presents ``Stepping Into 
Adolescence'' a program for parents of middle-school children designed 
to help parents maintain open communication with their children during 
the middle-school years and throughout adolescence.
    <bullet>  Bob Anastas, the founder and former executive director of 
Students Against Driving Drunk (SADD), delivers a powerful presentation 
to high school and college students. Motivational in spirit, the 
program offers parents and students a timely message on how young 
people can build key life skills and make responsible decisions about 
the challenges they face. The program is also available on video.
    <bullet>  Emergency-room nurse Linda Dutil delivers a presentation, 
designed for middle-and high school students, about the real-world 
consequences that come from making poor choices about alcohol and 
drugs. Linda also teaches effective skills for resisting peer pressure 
and for making smart, responsible choices.
    <bullet>  Jason Barber tells the story of several teens, including 
his brother, each of who were drunk driving crash victims. What 
students learn during Jason's powerful presentation is that he was the 
intoxicated driver responsible for his brother's death. Jason was 
seriously injured and served prison time for vehicular manslaughter.
    <bullet>  Carolyn Cornelison, who holds a Ph.D. from Florida State 
University where she worked as director of the Campus Alcohol and Drug 
Information Center for four years while advising both BACCHUS & GAMMA, 
delivers a program called ``Courage to Care,'' which focuses on college 
drinking, taking responsibility, recognizing abuse and helping those 
with alcohol problems. A member of a sorority and a former collegiate 
student-athlete, Carolyn has taken her ``Courage to Care'' message to 
more than 350 college campuses and has been a part of numerous Greek 
education, athletic department and general campus health programs.
    <bullet>  The ``Street Smart'' program, taught by certified 
firefighter/paramedics, reminds students of the dangers of teen 
drinking, drunk driving, illegal drug use and not wearing seat belts. 
The program is available for presentation in English or Spanish, and 
uses factual information, actual medical equipment and demonstrations 
involving students to help them better understand the consequences of 
their actions. ``Street Smart'' is presented by members of ``Stay Alive 
From Education'' (S.A.F.E.), a non-profit organization created by 
firefighter/paramedics in Miami-Dade County, Florida, dedicated to 
reducing teen injuries and fatalities.
    One of the things that each of these programs emphasizes is that 
there is no excuse for breaking the law--and youth must understand that 
such behavior will have consequences. While they are teens, our young 
people should not be led to believe that they are excused from acting 
responsibly and abiding by the law. They are expected to act with 
responsibility.
    At the college level, we have supported campus programs that focus 
student attention on education and awareness, emphasizing personal 
responsibility and respect for the law--which means not drinking if you 
are under 21, and drinking responsibly if you are above the legal 
drinking age and choose to drink. These programs include, among others, 
unrestricted grants to colleges such as the University of Virginia, 
Florida State University, Georgetown University, Michigan State 
University and Virginia Commonwealth University to establish social 
norms programs, a positive approach that reminds college students that 
the large majority of their peers make healthy and responsible 
decisions about drinking. We have also worked closely for over three 
years with the National Association of State Universities and Land 
Grant Colleges, an organization representing more than 200 of America's 
largest institutions, to promote social norms and encourage responsible 
behavior among college students. A recent comprehensive report issued 
by the National Institute on Alcohol Abuse and Alcoholism (NIAAA) 
categorized social norms and other approaches supported by the industry 
as effective or promising. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Task Force of the National Advisory Council on Alcohol Abuse 
and Alcoholism, A Call to Action: Changing the Culture of Drinking at 
U.S. Colleges, NIAAA, 2002, p. 24.
---------------------------------------------------------------------------
    I mentioned earlier that it was important to cite the progress that 
has been made on this front--to let parents know their efforts are 
working, and to salute those teens who are making the right decisions. 
And many are. Teen drinking and teen drunk-driving fatalities have 
declined significantly over the last two decades. According to the U.S. 
Department of Health and Human Services, 82% of today's adolescents do 
not drink. <SUP>2</SUP> That means nearly 20 million adolescents are 
doing the right thing by not drinking. <SUP>3</SUP> Similarly, 
according to the University of Michigan survey called ``Monitoring the 
Future,'' sponsored by the National Institute on Drug Abuse, the 
percentage of high school seniors who report having a drink in the last 
30 days was 32% lower in 2002 than it was in 1982. <SUP>4</SUP> In 
2003, there were nearly 410,000 fewer high school seniors who reported 
past-month drinking than did in 1982. <SUP>5</SUP> And beer consumption 
by college freshmen fell 39% in the same time frame according to the 
American Council on Education and researchers at the University of 
California at Los Angeles. <SUP>6</SUP> The latter two measurements are 
record lows.
---------------------------------------------------------------------------
    \2\ National Survey on Drug Use and Health (2003), available at 
http://www.samhsa.gov/oas/p0000016.htm.
    \3\ Source of base data: U.S. Bureau of the Census.
    \4\ Available at http://monitoringthefuture.org.
    \5\ Source of base data: Projections of Education Statistics to 
2012, Thirty-first Edition. U.S. Department of Education, National 
Center for Education Statistics, October 2002, http://nces.ed.gov/
pubs2002/2002030.pdf.
    \6\ The American Freshman Survey (2003), sponsored by UCLA and the 
American Council on Education, available at http://www.gseis.ucla.edu/
heri/freshman.htm.
---------------------------------------------------------------------------
    In addition, the United States Department of Transportation reports 
that fatalities in crashes involving drunk drivers aged 16 to 20 have 
fallen 61% between 1982 and 2002. There were 2,500 fewer teen drunk-
driving fatalities in 2002 than there were in 1982. That progress has 
been achieved even though the number of 16 to 20-year-olds licensed to 
drive has increased over 7% over the last decade to more than 12.4 
million. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ U.S. Department of Transportation, National Highway Traffic 
Safety Administration and Federal Highway Administration (2002).
---------------------------------------------------------------------------
    While many factors explain this success, and there is still 
significant room for improvement, we believe that one of reasons for 
the progress of the last 20 years is that different groups have come 
together to create programs that work.
    And those groups include members of our industry. I am happy to 
report that I could give each member of this committee the names of 
many people in your districts among our ranks that work with us on 
similar efforts. I hope you would agree that it is good work.
    Last year, the Federal Trade Commission issued a report on alcohol 
beverage industry self-regulation in which it reviewed industry-
sponsored alcohol awareness programs. The FTC commended these programs 
and pointed out that they are developed by professionals in the fields 
of education, medicine or alcohol abuse and that they follow approaches 
recommended by alcohol research. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Federal Trade Commission, Alcohol Marketing and Advertising-A 
Report to Congress, September, 2003, p. 21.
---------------------------------------------------------------------------
    In discussing solutions and efforts that are yielding results, I 
would be remiss if I also didn't address a fundamental difference we 
have with some on the issue of advertising and teen drinking.
    Advertising is not what causes youth to drink. In fact, since 1982, 
Anheuser-Busch's advertising expenditures have tripled, while teen 
drinking has declined 32 percent and teen drunk driving fatalities have 
declined 61 percent.
    At the same time, our advertising is intended for adults, and those 
of us in the beer industry voluntarily undertake extensive steps to 
place our ads in adult programming. Our advertising is only placed in 
television, radio and magazines where the proportion of the audience 
above age 21 is reasonably expected to be 70% or higher. This standard 
reflects the demographics of the U.S. population, in which 
approximately 70% of the public is age 21 or older. The 2003 FTC report 
commended the industry's self-regulation and also concluded that the 
industry did not target youth with its advertising.
    As adults, we need to help youth navigate through an adult world, 
not try to pretend that adult activities don't exist. In the end, 
underage drinking is not an advertising issue, it's a family issue, and 
it's a societal issue.
    As you know, the National Academy of Sciences also reviewed these 
issues in its 2003 report. We have some fundamental differences with 
some of the National Academy's recommendations.
    Although the recent National Academy's recommendation to increase 
excise taxes is not part of our discussion here today, it is well known 
that the beer industry opposes such a measure; and I would like to take 
a brief moment to explain why. Higher excise taxes are not an effective 
deterrent to abusive consumption or illegal underage drinking. The 
science on this issue was examined by the NIAAA in its 10th Special 
Report to Congress. Their conclusion is that no consensus exists in 
this debate. Research funded by the NIAAA indicates that teens are not 
impacted by higher taxes. Further, the research on the effects of 
higher taxes on college students is also cited in the NIAAA report, and 
it concludes, ``The results suggested that alcohol prices were a less 
salient determinant of the drinking behavior of college students than 
they were in other populations.'' Finally, a study coauthored by one of 
the National Academy's panelists indicates that the effects of tax 
increases may be ``considerably smaller than suggested in previous 
literature. <SUP>9</SUP> The bottom line is that we do not support this 
recommendation because there is no scientific consensus to show that it 
will reduce teen drinking. In addition, because excise taxes are highly 
regressive, a tax increase would force a large number of middle class 
adults who enjoy beer to bear an unfair and disproportional tax burden.
---------------------------------------------------------------------------
    \9\ Cook, P.J. and Moore, M.J., ``Environment and Persistence in 
Youthful Drinking Patterns,'' in Risky Behavior Among Youths, An 
Economic Analysis, edited by Jonathan Gruber, University of Chicago 
Press, National Bureau of Economic Research, 2001, pp. 375-437.
---------------------------------------------------------------------------
    In closing, let me reiterate that the efforts I have focused on 
today include not only those supported by Anheuser-Busch and its beer 
wholesalers, but also those supported by our colleagues at Miller, 
Coors, Heineken and other brewers.
    We believe the best way to continue the progress made in the fight 
against underage drinking is through education, especially involving 
parents. And the collective investment we make in our youth will ensure 
their safe passage into adulthood.
                                 ______
                                 
    [Attachments to Ms. Katz's statement follow:]


    1.  Statistical summary on progress in reducing alcohol abuse
    2.  Organizations/groups that endorse/support Anheuser-Busch 
alcohol awareness efforts
    3.  Anheuser-Busch national wholesaler accomplishments in 
implementing alcohol awareness programs
    4.  Beer Institute Advertising Code
    5.  Anheuser-Busch College Marketing Code
    6.  Driver's license guidebook provided to retailers [Retained in 
the Committee's official files.]
    7.  Examples of Anheuser-Busch alcohol awareness advertising

    [GRAPHIC] [TIFF OMITTED] T1726.025
    
    [GRAPHIC] [TIFF OMITTED] T1726.002
    
    [GRAPHIC] [TIFF OMITTED] T1726.023
    
    [GRAPHIC] [TIFF OMITTED] T1726.024
    
    [GRAPHIC] [TIFF OMITTED] T1726.003
    
                                PARTNERS

    Here is a list of organizations with whom we have partnered on 
alcohol awareness programs and projects, or who have distributed our 
program materials.

    American Association of State Colleges and Universities
    American Council on Alcoholism
    American School Counselor Association
    BACCHUS & GAMMA Peer Education Network
    Big Brothers Big Sisters of Mississippi
    Florida Governor's Mentoring Initiative
    Florida Highway Patrol
    Florida Literacy Coalition
    Florida Student Association
    Illinois State Police
    Inter-Association Task Force on Alcohol and other Substance Abuse 
Issues
    International Association of Chiefs of Police
    Korean American Coalition
    Korean Health Education, Information and Research Center
    Mississippi Boys and Girls Club
    Mississippi Mentoring Network
    National Association of State Universities and Land-Grant Colleges
    National Clearinghouse for Alcohol and Drug Information
    National Collegiate Athletic Association
    National Commission Against Drunk Driving
    National Council of Negro Women
    National Highway Traffic Safety Administration (NHTSA)
    National Rural Alcohol and Drug Abuse Network
    National Safe Boating Council
    National School Boards Association
    National Social Norms Resource Center
    Optimist International
    Organization of Chinese Americans, Inc.
    Provident Counseling
    State Attorneys General: Indiana, Nevada, New Mexico, Texas
    State Law Enforcement Chiefs Association (FL)
    Take Stock in Children
    The Betty Ford Center
    The Caron Foundation
    U.S. Hispanic Chamber of Commerce
    U.S. Junior Chamber of Commerce (Jaycees)
    Alcohol Medical Scholars Program

    [GRAPHIC] [TIFF OMITTED] T1726.001
    
    [GRAPHIC] [TIFF OMITTED] T1726.019
    
    [GRAPHIC] [TIFF OMITTED] T1726.020
    
    [GRAPHIC] [TIFF OMITTED] T1726.021
    
    [GRAPHIC] [TIFF OMITTED] T1726.022
    
                         COLLEGE MARKETING CODE

    Anheuser-Busch is committed to the responsible enjoyment of its 
alcohol beverage products by adults of legal purchase and drinking age. 
This commitment is particularly important in the environment of the 
American college campus, where many young adults are making decisions 
about beer that might remain with them for the rest of their lives.
    We believe college students 21 and over have the right to enjoy 
beer responsibly as do other adults in our society. In fact, the vast 
majority of America's 89 million adult beer drinkers enjoy beer in a 
responsible manner that is consistent with a healthy lifestyle. We also 
believe that college students under 21 should respect the state laws 
that prohibit them from purchasing and consuming alcohol beverages.
    Anheuser-Busch historically has supported programs to discourage 
underage drinking and to remind those of legal drinking age to drink 
responsibly . . . programs such as BACCHUS (Boost Alcohol Consciousness 
Concerning the Health of University Students), the NCAA Foundation's 
``Choices'' grant program, and National Collegiate Alcohol Awareness 
Week.
    It has long been our belief and practice that our marketing and 
advertising programs reflect our commitment to responsible enjoyment of 
beer by adults of legal age. While numerous studies have demonstrated 
that alcohol beverage advertising does not cause alcohol abuse or 
underage drinking, we have developed the following college marketing 
guidelines to formalize our commitment to encourage responsible use of 
our products and to discourage underage drinking.
    The guidelines do not apply to educational materials, televised, 
printed or audio messages which do not have as their principal message 
promotion of a beer brand, nor materials or messages designed to 
address issues of alcohol abuse or underage drinking.
    In all cases, Anheuser-Busch marketing efforts which occur on 
campus will be conducted in accordance with any college or university 
regulations which apply to the sale and marketing of alcohol beverage 
products.

Advertising
    Advertising is defined as a message placed in traditional media 
such as television, radio, magazines, newspapers, and signs. ``Campus 
media'' includes any publication that is intended for distribution 
primarily to undergraduate college students. Campus media does not 
include any radio, television or cable television stations that also 
reach a general audience in the community.
    When purchasing advertising in campus media, Anheuser-Busch will do 
so within the following guidelines:
    <bullet>  All beer advertising will adhere to the guidelines 
contained in the Brewing Industry Advertising Code.
    <bullet>  All beer advertising placed in campus media will comply 
with any guidelines set forth by the University or College 
Administration.

Event Sponsorship and Promotion
    Event sponsorship and promotion is defined as providing financial 
or other resources in exchange for display of and recognition for 
specific brand names in conjunction with the event.
    1.  Events on Campus: Anheuser-Busch will limit its event 
sponsorship and promotion on campus to licensed retail establishments 
and those activities open to the general public, such as 
intercollegiate athletics, entertainment events and charity fund-
raisers where most of the audience is reasonably expected to be above 
the legal purchase age. For all such events, management of the event 
must agree to implement and enforce an effective system of checking 
identification and adhering to minimum purchase age laws in place, if 
beer is sold or served.
    2.  Spring Break: At Spring Break destination locations, Anheuser-
Busch will not conduct beer advertising, event sponsorships or 
promotions on beaches or at other outdoor locations or non-licensed 
premises where most of the audience is reasonably expected to be below 
the legal purchase age.
    3.  Product Sampling: Sampling of Anheuser-Busch products on campus 
among consumers of legal drinking age where allowed by law, will be 
limited to circumstances meeting the following criteria.

    <bullet>  The event must be limited to the premises of licensed 
retail accounts and the management of the event must agree that the 
event will be conducted in accordance with school policy.
    <bullet>  The management of the event must agree to establish and 
enforce reasonable limits as to time and quantity of consumption.

Promotional Materials
    Beer-branded promotional materials are defined as posters, 
calendars, articles of clothing, glassware and novelty items such as 
towels, pens, key chains, buttons and the like designed to promote the 
sale of specific beer brands. Anheuser-Busch beer-branded materials are 
intended only for adults of legal purchase age. Anheuser-Busch will 
limit its free distribution of promotional materials on campus to 
circumstances meeting the following criteria:
    <bullet>  Distribution must be at a licensed retail establishment 
or during activities at a venue open to the general public where most 
of the audience is reasonably expected to be above the legal purchase 
age.
    <bullet>  Persons in charge of distribution must agree to make a 
good faith effort to limit distribution to those of legal purchase age.
Company Sales Representatives
    Anheuser-Busch sales personnel must be above the minimum purchase 
age and limit their calls on campus to licensed retail establishments.
Dissemination of Guidelines
    A significant percentage of marketing activities at or near college 
campuses are undertaken, not by Anheuser-Busch, but by wholesalers who 
distribute our products. They are independent businessmen and women who 
have a strong commitment to the communities and the colleges they 
serve. And, like Anheuser-Busch, they also are committed to responsible 
marketing practices. We encourage them to follow these guidelines.
    These guidelines are to be distributed annually by Anheuser-Busch 
to the following:
    <bullet>  University and college administrators;
    <bullet>  Wholesalers who distribute Anheuser-Busch beers;
    <bullet>  All Anheuser-Busch sales and marketing personnel.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.027
                                 
    Mr. Osborne. Thank you very much. We'll now begin 
questioning. And in deference to Ms. Woolsey's schedule--she 
has another hearing--I would like to call on her at this time.
    Ms. Woolsey. Thank you very much, coach, for letting me do 
this.
    We call him ``coach,'' too, Mr. Newton.
    [Laughter.]
    Ms. Woolsey. I have a question. Mr. Newton, if SADD had 
been in existence when you were in school, would it have made 
any difference to you? Would you have joined? Would you have 
supported? How would it have mattered?
    Mr. Newton. I think it would have been an opportunity to 
intervene on me early. At that time there were no programs in 
schools and it was a heavy drinking environment in my high 
school. So it could have been an opportunity for early 
intervention. So I think it really has some value.
    To carry that--the biggest concern I have with young people 
is the mixed message. They see so many messages to drink by the 
time they're 18, and the drinking age is 21 in America, so it's 
a contradiction that they have a hard time working through. But 
it would have been an opportunity for early intervention for 
me.
    Ms. Woolsey. OK. Thank you very much.
    Jacqueline, tell us from your perspective and SADD's 
perspective, what part do parents play? How important are 
parents in--
    Ms. Hackett. Certainly, the parents are very influential to 
their children, and that's why we need to inform the parents of 
the dangers of underage drinking. We need to let the parents 
know the statistics about how many youth are dying and how it 
affects all of their lives, and we need the parents to send the 
message that students should not be drinking.
    Ms. Woolsey. So how are we going to get that message to the 
parents and to youth? Have you--what kind of--would a national 
media campaign work? Does it work with the drug programs? I 
mean, would it work?
    Ms. Hackett. Absolutely.
    Ms. Woolsey. And what would it act like?
    Ms. Hackett. There is a lot of media centered toward youth, 
and youth are very influenced by newspapers, by the TV, and by 
magazines. And we need to act against that and send youth a 
positive message and help them make the right decisions about 
underage drinking.
    Ms. Woolsey. Well, could you comment on the ad we just saw? 
Because I can't believe that somebody that was old enough to 
drink in the first place is sneaking out of the house and 
putting make-up on. I mean, if they're a 21-year-old. So how 
does that--is that a message that worked?
    Ms. Hackett. We need to use a kind of messaging--when 
people are in the media that are drinking, they're good- 
looking, they're smart, they're athletic. We need to do 
something to counteract that. We have to make hip ads. An 
example would be the truth. It's those kind of ads that are 
reaching the youth and helping them to make their own 
decisions. So I think that's a campaign that we could 
definitely look toward making modifications to that work on the 
underage drinking aspects.
    Ms. Woolsey. OK. Thank you very much. I think I'm going to 
yield back, because I really have to go someplace else, but I 
want to thank you all so very much. You've been very, very 
helpful to us. Thank you.
    Mr. Osborne. Thank you, Ms. Woolsey. I'll just ask a few 
questions now. One statistic I ran across a few years ago--I 
think it's fairly accurate--is that by the time a young person 
is 21 years of age, they've watched roughly 2 years, not of 
television, but 2 years of commercials. That's a pretty 
powerful influence, 2 years out of 21, or even if it's a year 
or year-and-a-half. And I'd like to have you think with me a 
little bit as to what percentage of those commercials have to 
do with alcohol. Probably out of 2 years, a few months, you 
know, right? That would be fair. And out of those few months, 
how many de-glamorized alcohol and how many of them have 
glamorized? How many of them have involved young people who 
are, as was mentioned by Ms. Hackett, athletic, attractive, 
having a good time?
    I certainly applaud you, Ms. Katz, for the commercial that 
you showed us. I think that was good. There was one other 
commercial on the Super Bowl that showed a rewind of what 
happens when you use drugs and alcohol that was one of the most 
watched. I think it was the most impressive to young people. 
But on the other hand, we had the dog biting the guy. We had 
the horse, flatulent horse, which appeals to probably somewhat 
of a juvenile sense of humor, and over and over and over again.
    So there is a cumulative effect here. And it definitely 
impresses people. And I don't question your intentions. I don't 
question the industry's intentions. But the long-term effect 
has been a wearing down of sensibility to the destructiveness 
of alcohol.
    Bob, I'd just like to ask you, you said mixed messages. 
Would you flesh that out a little bit? I know you may have some 
thoughts on exactly what might be done that would make that a 
little bit more effective.
    Mr. Newton. Well, I agree with you. I think there is an 
association that young people see as alcohol being very 
glamorous. This is what successful people--this is how they 
celebrate. And I think they develop attitudes from seeing those 
messages.
    I think to combat that--and as I said earlier, those young 
girls, those eighth grade girls, I really believe they didn't 
know alcohol was a depressant and a powerful drug. And I 
sincerely agree with that the earlier a person drinks alcohol, 
the physiological and the psychological impairment is 
devastating. A lot of them won't even get through school. There 
will be major, major negative consequences.
    I think we need, as I mentioned earlier, we need a media 
campaign to combat all the positive messages that are sent with 
the association of alcohol, and I think that's one solution.
    Mr. Osborne. OK. Thank you. I don't know how to say The 
Honorable Molinari, but anyway, I recognize your former status. 
Do you have any objective analysis of some of the data that you 
have presented? In other words, the effects of the 
counteractive measures where some outside agency has actually 
come in and audited and tried to determine how effective what 
you're doing has been?
    Ms. Molinari. Sure. Absolutely, Mr. Chairman. As I said, 
all our current programs right now have an independent 
evaluation as part of it. And I daresay for a lot of alcohol 
prevention programs, they do not. We do. Some of our evaluators 
include for the Alcohol 101 Plus that's currently in the field 
right now, part of our evaluation committee consists of NIAAA 
and the Department of Education.
    They will come back together in a very short period of time 
and consistently monitor progress. We're embarking on a several 
hundred thousand dollar program with the University of New York 
where we're going to sit down, and the chancellor has already 
agreed, where we're going to use these programs at different 
points of a college career and come back and on different 
college campuses perform evaluations with outside auditors and 
outside agencies.
    A lot of our programs have been audited by the Pacific 
Institute and evaluated by the Pacific Institute. The 
University of Florida and George Mason University. And yes, 
some of them, sir, have not been audited by professionals. But 
I challenge anyone sitting here today to look at this, the 
Brandon Story. This is the program that I got involved in as a 
Member of Congress. Brandon has toured all over the United 
States and spoken to high school students, particularly around 
prom and at graduation time. He barely can speak. He can barely 
walk anymore. He tells the story dramatically of the 
irresponsible decision he made, blames no one for hitting a 
tree and lost all his life dreams. And you know what, Mr. 
Chairman, I have been a part of that real evolution. When high 
school students come down and say, it's one instance, but it's 
duplicated, that just sticks in my mind. A group of girls 
before--because girls are the fastest rising binge drinkers in 
the United States today and of great concern--a jar full of 
change and said, wanted to let you know, we were giving this to 
John to go out and buy alcohol after the prom, and after we 
heard what happened to you, we're taking this money back and 
we're going to go get our nails done for the prom.
    So most of our programs are very well expert analyzed. And 
some of them where I have sat in SPEAK-UP organizations on 
college campuses where we've worked with the athletes as role 
models, I have seen them save lives, sir.
    Mr. Osborne. OK. Thank you. My time is up. Mr. Keller.
    Mr. Keller. Thank you, Mr. Vice Chairman. And I want to 
begin by thanking you for your leadership, for bringing this 
issue before our Committee and being largely responsible for 
having this hearing today.
    There's probably nobody I respect more in Congress than 
Coach Osborne. I refer to him as our E.F. Hutton Congressman. 
When he talks, everybody stops and listens. But I have to say 
that I don't quite share Coach Osborne's skepticism about what 
the industry is doing. And he mentioned Anheuser-Busch, for 
example, in his opening remarks.
    And let me just tell you why. In my district of Orlando, 
Florida, the local Budweiser distributor is called Wayne Dench, 
and the president is a young man named John Williams, and they 
spend $42,000 a year there to help combat underage drinking, 
and it makes a big difference. And I'll just give you just 
three little examples that I'm personally familiar with.
    We have a program in Central Florida called ``Tow to Go.'' 
And if you're out at a bar and you're underage or even legal 
age, and you can't drive, you just call AAA and they send out a 
truck and they take you and your car home, no questions asked. 
And the beer distributor picks it up. And it saved 1,400 lives 
last year. Fourteen hundred drunks used it. And they pick up 
the tab. If you don't want your car towed, they have a similar 
service with a cab.
    They send speakers to the different high schools as well. 
Congresswoman Molinari mentioned Brandon. And I was there and 
met Brandon, and I went to Winter Park High School with him. 
And I tell you, I got up in front of those kids and gave my 
best I Have a Dream speech, and, you know, I'm not far removed 
from you, and I'm only 30 years old. And someone who was a jury 
trial lawyer before I got this job and now a politician. I have 
a sense of when I'm connecting with a crowd. And let me tell 
you, I did not connect with that crowd. It was like, whatever.
    And when this young man got up and told his story, wow, 
they were blown away. And you could hear a pin drop. And that's 
because the local beer distributors cared about it and help 
fund it with Congresswoman Molinari's organization. $42,000 a 
year. Don't have to do it. Not doing it because there's a law. 
Not doing it because there's some statute. They're doing it 
because it's the right thing to do.
    So I'm optimistic that working together, we can build 
partnerships to win this battle and take it on head on.
    Let me ask Mr. Newton, let me ask you a question. I'm going 
to ask the same of Mrs. Katz here, and that is, on the issue of 
educating young people, I'm real interested in the age group 
where it's most successful. I know that you have spoke to kids 
at all levels, and my gut reaction as a layman sitting up here 
looking at this issue is that you probably have more success 
focusing your resources and time with middle schoolers or ninth 
and tenth grade than you would at a fraternity party with 20-
year-olds. But you tell me. You've been in the field. Where 
should the time and resources best be used in terms of getting 
to young people and encourage them not to drink?
    Mr. Newton. That's a very good question, Mr. Keller. I 
think we need a comprehensive educational approach in all grade 
levels. I do believe it needs to start in elementary, and it 
continues through middle school and high school.
    I think because the kids that I'm concerned about the most 
are the 6 million that I mentioned that come from a family 
where there's a drinking problem or another drug problem 
already established in the family, I would like to provide 
early education for those kids and help them cope with that 
type of family system, because there's a lot of research in any 
case that is a very emotional turmoil for a young person living 
in that type of family.
    So I think we need a comprehensive approach through all 
grade levels, K through 12. And that would be my hope if there 
was a Federal strategy to implement that type of comprehensive 
approach.
    Mr. Keller. Thank you. Mrs. Katz, what's your opinion on 
the education aspect, and what ages should we focus a lot of 
our time and resources?
    Mrs. Katz. Our Family Talk About Drinking program was 
created by an advisory pane of people in alcohol prevention, 
alcohol treatment, education, and family counseling, and they 
recommend that you start the discussion with your children when 
they're quite young, as young as eight.
    Now when they're that age, it's a very general discussion, 
but as they get older, the discussion becomes much more 
pointed, and it's an ongoing dialog. And when I say a 
discussion I mean more than just a conversation. As your teens 
get to 15, 16, 17 years old, you need to start really becoming 
an active part of their life, much the same way you had to when 
they were babies.
    In fact, the adolescent years are somewhat like a rebirth, 
and kids need in their teen years as much time and attention 
from their parents as they did when they were newborns. And 
that means that you know who their friends are. You know who 
their friends' parents are, and you make sure that they share 
your same values. You know where they're going on a Friday or 
Saturday night, and you're awake when they get home. And thanks 
to the advent of cell phones, hopefully while they're out, you 
even keep track of them, you know, as well. And I know that's 
what I do as a mom.
    Mr. Keller. Thank you. And, Coach, I'll yield back.
    Mr. Osborne. Thank you, Mr. Keller.
    Mr. Case?
    Mr. Case. Thank you, Mr. Chair. I share my Ranking Member's 
welcome acceptance of your initiative in this area.
    Let me ask a bullet question of each of you in my 5 
minutes, so that means 1 minute each. What should the Federal 
Government do to combat underage drinking at this point? I 
think we've diagnosed the problem pretty well. It seems to me 
that the options are regulatory action by our Federal executive 
branch, funding by our executive and legislative branches, or 
statutory changes of one kind or another by both branches as 
well.
    So let me just walk down the panel and just give it to me 
straight and bullet-wise. Ms. Molinari?
    Ms. Molinari. Well, I think first of all, it's national 
leaders I think holding hearings like this and being the 
influence developers that you are throughout this nation 
certainly speaking on these issues and employing our programs, 
any one of the programs that are presented here today to help 
educate and influence is an important role that you can all 
play.
    Certainly I'd say that we embrace almost the majority of 
the NAS studies that--the NAS study recommendations that urge 
the Federal Government to get more involved and wage media 
campaigns, bring together independent advisory boards such as 
we do to constantly keep this as a top priority for our 
nation's leaders. And certainly in any way, shape or form, 
Congressman, that we can be of assistance, we'd be very pleased 
to help you in that.
    But as we talk, there is a role--the numbers are still to 
high--and there's a role for industry, for government, for not-
for-profits all likes to play in reducing and saving lives.
    Mr. Case. Mr. Newton?
    Mr. Newton. Thank you, Mr. Case. I agree with the NSA 
support recommendations to have a Federal strategy to oversee 
prevention, intervention and treatment process through 
communities, schools and throughout our society. I really 
believe that's the kind of intervention we need by the 
government right now.
    And I do believe that the media campaign would be a huge 
tool for us to combat the mixed messages for young kids.
    Mr. Case. Thank you.
    Mrs. Hamilton?
    Mrs. Hamilton. Thank you. It's all right here in the NAS 
report. This Committee hearing was on what works. Of all of the 
research that was submitted, nothing that was submitted by the 
alcohol industry was scientifically evaluated as a science-
based program except for Alcohol 101, and that needed further 
research.
    This is a graph from Monitoring the Future that goes from 
1975 to 2002. The middle line here where the 21 minimum 
drinking age changed is where the line goes down. From 1991, it 
flatlines. All of the programs that have been presented shown 
that this is not working. You cannot just provide information 
without having science behind it that proves that it works, and 
I would urge this Committee to please look at funding for 
science-based programs that can be scientifically evaluated for 
this critical public health and safety issue. It's imperative 
that we look at this.
    You know, I really appreciate the ad. I really do. But I 
have to say that that's only one of 179 that kids see that talk 
about underage drinking. Kids see 2,400 alcohol ads, or people 
do, about drunk driving and underage drinking, and they see 
209,000 product ads. We need to have more responsibility from 
the alcohol industry that talks about what alcohol is. It's for 
adults.
    Mr. Case. OK. Thank you. Let me just keep going. Ms. 
Hackett? Federal Government action.
    Ms. Hackett. We agree very much with what Mrs. Hamilton 
said, especially in regards to the National Academy of Sciences 
report. The Department of Education could also get involved. In 
Vermont, for example, the Department of Education uses its SADD 
chapters in its high schools throughout the state to host 
leadership training, highway safety messaging, substance abuse 
prevention programs and other positive decisionmaking messages 
are sent.
    The Vermont SADD chapters are a very important part of 
their statewide community coalition, which is exactly the model 
that the NAS report states.
    Mr. Case. Thank you. Mrs. Katz?
    Mrs. Katz. Yes, Congressman. First I have to say that we 
truly believe that parents play the greatest role here in 
helping their youth make good decisions. And of course youth 
see beer advertising in their lives. It's part of society. They 
may notice an ad. They may even laugh at an ad or be able to 
recite something that becomes part of popular culture. But the 
truth of the matter is that our job as adults is not to pretend 
that adult things don't exist. It's to help youth navigate 
through an adult world, and that's where we need to place our 
efforts.
    And in this regard, my company's advertising has tripled 
since 1982.
    Mr. Case. OK. Just briefly, should the Federal Government 
do anything?
    Mrs. Katz. Well, I think the notion that this topic is 
being ignored is wrong. I think that there's a study that was 
done by the Fiscal Planning Services of Bethesda, Maryland that 
said in the year 2000, $8.1 billion was spent by state and 
Federal Government agencies and private foundations on alcohol-
related activities such as alcohol abuse treatment, prevention, 
education and research.
    And I would say that contrary to maybe the answer to a lot 
of questions, the answer here is not to throw money at it. It's 
to get parents actively involved in their children's lives. 
That's what kids have told us is the most important influence, 
and that doesn't cost anything.
    Mr. Case. OK. So is the answer no, we shouldn't do 
anything? Or we should continue the Federal Government 
programs?
    Mrs. Katz. I think the Federal Government, state government 
is already heavily involved in this issue, I would urge them to 
continue those efforts. And I think my industry and my company 
has deserved a seat at the table and can play a meaningful 
role.
    Mr. Case. Thank you. Thanks.
    Mr. Osborne. Thank you, Mr. Case. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. I want to thank our 
distinguished panelists for your testimony here today. Ms. 
Molinari, as always, it's a pleasure. And Ms. Hackett, I just 
want to commend you. You've been extremely poised in 
testifying. I assume this is your first opportunity to testify 
before a congressional committee. You've really done an 
outstanding job, and I think your representation for students 
across the country is outstanding in today's panel.
    And Mr. Chairman, I want to commend you, too, for 
highlighting this issue. I think it is an important issue, one 
that the Committee should take a little more time studying, 
obviously, with the National Academy of Science report that has 
come out. As an old college football player myself, I, too, am 
not insensitive to the messages that the youth and collegiate 
athletics are subjected to on a daily basis.
    And what I see in the state of Wisconsin is a coordinated 
and comprehensive approach right now to educate our youth, to 
educate the parents, between beer producers that exist in the 
state, the beer distributors, to the schools, the Tavern League 
has a very comprehensive approach, too, and we're starting to 
see some very fine data coming back in regards to the success 
of many of these programs.
    And I'd hope as we move forward that there will be that 
type of interest in greater collaboration, greater 
communication between the various groups that have an interest 
in trying to reduce underage drinking in this country.
    I notice, Mrs. Katz, that Anheuser-Busch has been very 
aggressive on this front as far as outreach efforts, educating 
parents in their role in establishing that important 
communication with their children in the family, working with 
the retailers in order to try to intercept the underage 
purchases of alcohol, but also the education efforts with 
students and youth in particular. Do you have any statistics in 
regards to the success of the type of programs that Anheuser-
Busch has been involved with? Any type of research that's gone 
on with the approaches that you have taken that you can share 
with the Committee?
    Mrs. Katz. Well, Congressman, the FTC in its 2003 report on 
youth advertising and underage drinking--I'm sorry. On 
advertising and underage drinking, rather, commended the 
industry's educational program, said that they were based on 
sound research and that they were prepared by people from the 
educational field, the medical field, the prevention field, and 
they encouraged the industry to continue those efforts.
    If I may, I left half of what I wanted to say to a point 
that was raised earlier by Congressman Case. If I could just 
finish. I said that our company's advertising expenditures had 
tripled since 1982, but teen drinking has gone down 32 percent 
in that same time period, and teen drunk driving has declined 
61 percent.
    Now we believe that parents play the greatest role again in 
addressing this issue, but it also involves retailers, and 
that's why we put so much emphasis at the point of purchase and 
encourage retailers to get involved. One of the training 
programs that we support at the retail level is called TIPS. It 
stands for Training for Intervention Procedures by Servers of 
alcohol. And it was created by the founding director of the 
National Institute on Alcohol Abuse and Alcoholism, Dr. Morris 
Chafetz, and it has been researched at Virginia Polytechnic and 
found to be very effective. That's a program that we have 
wholeheartedly supported for many years, I believe over 20 
years.
    Mr. Kind. Ms. Katz, do you feel that the beer industry is 
in a position or willing to try to work with some of the other 
outside groups and organizations that obviously have an 
interest, have a lot of ideas that they bring to the table on 
what approach to take, or do you feel that you're being kind of 
excluded in the overall discussion of what approach is 
necessary?
    Mrs. Katz. Well, Congressman, I won't comment on whether or 
not I feel as if we're being excluded, but I will agree that we 
have a role to play and that it would be wonderful if the 
outcome of this hearing is that we all remember what the true 
enemy here is and what we're truly fighting, and that's 
underage drinking and not each other. And we would hope that 
this hearing opens the door for more collaboration on the 
things that we can agree on.
    And I'm familiar with some of the programs that Mothers 
Against Drunk Driving has developed. One that I haven't seen 
but I've read a press release about is called Alcohol EDU, and 
it's for high school students, and it emphasizes, according to 
Mrs. Hamilton, that youth should not drink before they're of 
legal drinking age, that they should never drink and drive, and 
that they should never get in the car with anyone who's been 
drinking.
    Those are messages that we not only wholeheartedly support, 
those are the very same messages that we're conveying in our 
programs. So my hope is that we can work together on areas 
where we have common ground and remember what our true aim here 
is, and that is to continue the progress in the fight against 
underage drinking.
    Mr. Kind. Thank you. And Ms. Hackett, may I ask you a 
question? Obviously peer pressure, and we heard from Mr. Newton 
the role that peer pressure played in his early age in that, 
but that has a huge role in underage drinking as well. Have you 
noticed or have you been involved in any programs dealing with 
peer pressure and educating students on how to deal with the 
powerful influence of their peers in making these type of 
societal decisions?
    Ms. Hackett. I think that's a large initiative of SADD, is 
to help create an environment where high school students can go 
and be in a safe haven, you know, somewhere where they're not 
going to be pressured by people to drink or to go to parties 
where people will be drinking, but it gives them an alternative 
without excluding them from friends.
    Mr. Kind. All right. Thank you. Thank you all again, and 
thank you, Mr. Chairman, for holding this hearing today.
    Mr. Osborne. Thank you, Mr. Kind.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And Mr. Chairman, I'd 
like to thank you for your efforts in having this hearing 
today. As the father of four children, I have a special 
interest in this, and also I'm very pleased that when I served 
in the state senate of South Carolina that I worked very 
closely with MADD. I have been a member. I don't know if my 
dues are current to date, but I have been a--and particularly 
Mr. Bill Rowe of Bluffton, South Carolina, who has been our 
leader there in South Carolina, is very good about educating 
persons on the state level, and I'm very grateful. Please come 
by and visit my office. Ms. Hackett would like this, too, but 
I've got a--
    Mrs. Hamilton. I'll be in South Carolina next week.
    Mr. Wilson. Oh, wonderful. Hey, that's terrific. I've got a 
certificate of merit on the wall. And so thank you. You make a 
real difference on the state level, both of you, MADD and SADD.
    Additionally, I want to submit a statement for the record, 
and I want to commend the beer wholesalers. I've worked with 
them over the years, in particular Larry Lipoff of Charleston, 
with the Pearlstein Distributors in Ridgeland, South Carolina, 
and they have an extraordinary program. This is a very 
depressed community. And they have a program that's real life 
of working with firefighters and with police officers to 
explain the consequences of driving intoxicated.
    Additionally, in Orangeburg, South Carolina, I have known 
multiple generations of the Barudi family. Murray Barudi, 
Orangeburg Distributors. He actually recruited Hootie and the 
Blowfish to provide a little video to warn against young people 
drinking and the consequences. And it's been seen and reached 
142 million people. But I've got this statement for the record.
    And at this time, in the interest of time, Ms. Hackett, I 
was very interested in your point about having mentoring, 
because I believe that peer pressure has been indicated with 
Mr. Newton too that mentoring can be very helpful. Can you tell 
us of any examples in your experience of mentoring?
    Ms. Hackett. Each SADD chapter focuses on mentoring in a 
different way, but my particular chapter, we do DARE role 
modeling, where we'll go into elementary schools with DARE 
officers near the end of their curriculum, and take questions 
from the students about what it's like to be asked to use, if 
we've ever been asked.
    We also have a program called the Just Say No Traveling 
Show where our members who signed the pledge to be no use will 
go into middle schools and elementary schools, not just in our 
district, but around the state. And they perform skits about 
prevention, underage drinking and violence.
    Mr. Wilson. And I was particularly happy to hear about the 
Just Say No. To me, that program is so positive, and it's a 
positive negative message. And so thank you for even 
referencing that.
    And Congresswoman Molinari, it's wonderful to have you 
back. And particularly your work with the Century Council, it 
makes a difference. And you've indicated that research has show 
that parents are the most influential factor in an adolescent's 
decision to drink or not. Could you please explain any 
initiatives that you may have that emphasizes that point?
    Ms. Molinari. Yes sir. I think we all certainly agree here 
that there's so much--there's a role for all of us to play--
government, industry, not-for-profit organizations, as we are 
too, but that to Francine's point, we can't--you want data. The 
data states time and time again that the most important 
influence in a person's ability, a young person's ability to 
choose to drink or not, comes from their parents.
    And let me just cite one more study that we did through 
Teenage Research Unlimited several years ago. We interviewed 
over 2,000 teenagers, and then we interviewed the same amount 
of parents of teenagers. Seventy percent of the parents 
believed in the last 3 weeks they had a meaningful conversation 
about underage drinking with their teenager. Seventy percent of 
the teenagers said they had not talked to their parents about 
underage drinking yet.
    So a lot of what our programs aim to do is to say if you're 
talking, they're not hearing you or you're talking through each 
other. So our programs like You're Not Done Yet and a lot of 
our other programs go directly to the parents, and most 
particularly the program that we're gearing right now for 10-
year-olds and up will be directed through middle schools but 
primarily the message will be geared toward the parents, which 
will be a facilitator's guide and also a message in conjunction 
with a television, positive television representative 
personality, which I can't name yet, but one that you'll all 
think is a good thing, to help communicate to parents and very 
young people about the dangers of underage drinking.
    It's a message that needs to be reinforced to parents, a 
consequence and a level. There's the right way and the wrong--
there's the really right way for parents to communicate with 
their children about underage drinking, but I don't think 
there's a wrong way. The conversation just has to take place.
    Mr. Wilson. Thank you. We appreciate your service and your 
husband's service, too.
    Ms. Molinari. Thank you.
    Mr. Wilson. And Mrs. Katz, you've indicated that Anheuser-
Busch has programs in place to promote greater parent-child 
communication. And that's the key as identified by the other 
persons here today. Can you restate those real quickly in the 
interest of time?
    Mrs. Katz. The programs that we have are aimed at parents 
of young children, Family Talk About Drinking, which helps 
parents initiate the conversation with their children. As those 
children move into their teenage years and are heading off to 
college, we have another program called College Talk, and that 
program helps parents help their teens continue to make good 
decisions as they head out of the home and to college.
    And then finally, we are an avid supporter of mentoring 
programs for those students who don't have that kind of strong 
parental influence at home.
    But I'd just like to make one comment if I may about the 
Roper Research organization's poll of young people, because 
actually that poll asks youth to identify their influences on a 
whole host of topics--music, what clothes they wear. Whether or 
not they're going to drink is one of the answers, or one of the 
questions, rather. And when it comes to things like music and 
what clothes they wear, parents don't really play a role.
    But when it comes to important decisions in their lives 
like whether or not they're going to drink or what they're 
going to be when they grow up, they look to their parents. And 
advertising has always been one of the choices on this survey, 
and it has always ranked dead last.
    And we believe that if youth have so firmly told us that 
their parents are such an important factor in this decision, 
they don't want their parents' disapproval, they want to do the 
right thing, if 82 percent of today's teens are not drinking, 
let's continue to use what works. I agree that we are a far way 
from claiming victory. There are still far too many teens who 
drink. But we're on the right track. And we need to reinforce 
that there's progress that's been made. Because if we don't, we 
lose the opportunity to help students understand that their 
efforts are working.
    I applaud the work that SADD does. In fact, Anheuser-Busch 
was a founding corporate sponsor of SADD. And my older daughter 
was a member of SADD when she was in high school. It's a 
wonderful program, and it complements what parents should be 
doing at home, and it helps youth make good decisions. And in 
the end, that's what this comes down to.
    Mr. Wilson. Thank you all for being here today. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Wilson follows:]

  Statement of Hon. Joe Wilson, a Representative in Congress from the 
                        State of South Carolina

    Thank you, Mr. Chairman for convening this hearing on what works in 
the fight against illegal underage consumption of alcohol. I commend 
you for focusing on the solutions rather than the problem itself. We 
all know great strides have been made in the last twenty years; 
however, there is more to be done. Parents, schools, communities, and 
the industry must band together to identify what works in our 
communities and do more.
    Early intervention by parents, schools, and community partners is 
paramount in taking this fight to the battlefields where it is fought. 
As the father of four children, I have long supported community efforts 
to prevent underage drinking. In the state Senate I received Mothers 
Against Drunk Driving's (MADD's) Certificate of Merit award, and 
proudly display that award in my Congressional office.
    I want to speak about what works in my community. In the district I 
represent, and across South Carolina, beer wholesalers have exemplified 
a strong dedication in their communities in the fight against illegal 
underage consumption. There are more underage drinking prevention 
programs at work in South Carolina's Second District , and nationwide, 
than we have time to enumerate here today, but I want to tell you about 
just a few. Additionally, because I believe in the MADD program, I have 
been a member led by Bill Roe of Bluffta, SC.
    In Ridgeland, South Carolina, Pearlstine Distributors, led by 
President Larry Lipor of Charleston, hosts a program called ``Street 
Smart,'' which uses firefighters and paramedics to present high school 
and middle school students with a real-life look at the consequences of 
underage drinking.
    Additionally, Orangeburg Distributors is an industry leader in the 
fight against illegal underage consumption. Orangeburg Distributors 
President, Murray Baroody, enlisted the help of his friends, pop 
musicians ``Hootie and the Blowfish,'' to record a Public Service 
Announcement which has reached more than 142 million people. Orangeburg 
has a continuous rotation of underage drinking prevention outdoor ads, 
radio spots and print ads, and Orangeburg recently sponsored a talk by 
emergency room nurse Linda Dutil, who makes a dramatic presentation 
showing students the harmful effects of binge drinking and drunk 
driving accidents.
    Both of these operations participate in the ``WE ID'' program that 
offers retailers ID training and a variety of materials, from buttons 
to stickers for cooler doors and store entrances.
    Across the state, the industry works with local high schools to 
promote safe and fun celebrations for seniors on graduation or prom 
nights--by providing food, games, entertainment, and a Zero Tolerance 
for alcohol.
    Again, the efforts that I have touched on today highlight just a 
few of the important and successful programs being implemented by beer 
wholesalers in my district and state. I urge my colleagues to allow for 
full consideration of the industry's commitment to this important issue 
and its efforts to address our mutual concerns.
    Mr. Chairman, again I would like to thank you for your efforts in 
preventing underage consumption by having this hearing today. I am 
confident that we are all here to reach the same goal, though we may 
have different ways of going about it. I look forward to working with 
my colleagues as well as all the public and private entities to find a 
solution to the underage drinking situation that is facing our children 
and American families.
                                 ______
                                 
    Mr. Osborne. Thank you, Mr. Wilson.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. And let me 
commend you for helping to make sure that this issue gets 
raised. As one who has spent much of my adult life working with 
young people and members of my family working with young people 
as teachers and principals and Boy Scouts and Girl Scouts and 
Sunday school and the whole works, I think it's a very relevant 
discussion.
    As I listen to the different type programs and the 
different activities that seem to work, it occurs to me that I 
represent a district that has a large disadvantaged area, large 
disadvantaged population. Many families are dysfunctional. And 
so the normalcy of family impact and family influence 
oftentimes does not occur, or it occurs in a very different 
kind of way.
    My question, Mrs. Katz, is really to you. You've put a lot 
of emphasis on parent or parental influence on decisions and 
behavior of children. Do you have programs that work most 
directly with organizations and groups--I mean, I find that 
interaction, local community groups, local community 
organizations, seem to have a greater opportunity to reach not 
only teenagers or young people, but in many instances, their 
parents as well. And so television messages, ads, don't seem to 
work as well in some of these areas as the direct interaction. 
And so my question is, do you have programs that promote that 
kind of direct interaction and involvement with communities?
    Mrs. Katz. Absolutely, Congressman Davis. In fact, our 
wholesalers, who are in virtually every community across the 
country, bring the programs that I've referenced today to their 
communities, and they work with local organizations to get them 
implemented.
    Nationally, we've worked with many organizations to get 
these programs into the hands of parents or to bring speakers 
into schools. Those that we've worked with include some of our 
states attorneys general, the National Collegiate Athletic 
Association Foundation, the University of Virginia, Florida 
State University. We have worked with Boys and Girls Clubs.
    We've worked with organizations throughout the country, 
because we believe that, again, while it's so important for 
parents to play a meaningful role in their lives, a group like 
the Jaycees or the Junior League can help us get these 
materials to parents and help start those discussions, and 
that's the most important thing. So, yes, we work with 
community organizations throughout the country.
    Mr. Davis. And I would encourage you to even do more 
outreach, for example, while many of the groups that you just 
mentioned in parts of what would be my congressional district, 
because I represent downtown Chicago and everything in it, but 
I also represent other areas where the organizations, for 
example, that you just mentioned, would not be a part of those 
communities. And so I would encourage some additional outreach 
to groups that perhaps are not as traditional, not as well 
known, but are in fact emerging as part of the decisionmaking 
process.
    And the only other comment that I'd have, I want to commend 
MADD. I've been a great fan of MADD since its inception from 
day one, SADD, any groups that are really working, because I 
think that people learn what they live. And I do believe that 
there are opportunities to influence behavior and that as 
individuals learn, then they will apply what they know to daily 
living and make decisions in a different way.
    And so I thank you very much. And thank you, Mr. Chairman.
    Ms. Molinari. Congressman? Could I--when we have a 
conversation about how the Federal Government can get involved, 
I'd like to ask, because your point is well taken, and very 
similar programs are run by the Distilled Spirits, through the 
Boys and Girls Clubs, through the NCAA, through colleges and 
high schools. But certainly you are all--are grassroots in many 
ways, and if there are organizations to any of you that you 
think we can work--and I'll speak for the beer industry too--
we'd all be happy to hear of your suggestions as to where we 
can take our programs or help you if you can help us facilitate 
relationships to get into those venues, we'd be more than happy 
to pursue those and would consider it an honor to work with you 
in the future.
    Mr. Davis. I'd be very pleased to do that.
    Ms. Molinari. Terrific. Thank you.
    Mr. Davis. And we will make it a point. Because I work with 
a group called Prevention Partnership that does outstanding 
work. And I know that they, as well as others, would be 
interested.
    Ms. Molinari. Terrific. We would welcome the opportunity, 
as well.
    Mr. Davis. Thank you very much.
    Mrs. Hamilton. Mr. Vice Chairman, could I just mention a 
few more things? I really want to thank this Committee for 
taking the opportunity to look at this issue very carefully, 
but I also--
    Mr. Osborne. Would you hold off just a second?
    Mrs. Hamilton. I apologize.
    Mr. Osborne. We have one more member who has some 
questions, and so thank you, Mr. Davis. And Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman, and I'm sorry that I 
missed your earlier testimony. You may have spoken about this, 
but if I can ask a little bit more about what is research-based 
to you? What does that entail, and how do we go about that?
    Mrs. Hamilton. Research-based is independently evaluated. 
When MADD's Protecting You Protecting Me program, which is a 
curriculum for first through fifth graders, was named as a 
model program by the Federal Government, it went through a 
rigorous process to get on the national registry of effective 
programs. It has to go to at least three separate independent 
evaluating organizations to look at. There's a criteria that 
they grade upon, and it has to meet that criteria. Everybody 
has to agree on it in order to get on it. Of the over 700 
programs that were submitted for evaluation, I believe there 
are only about 50 that were named as a model program.
    So it's important that independent people look at the 
program that has been put before them, that they look at the 
science behind to see if those programs were developed based on 
science and shown to work to change behavior and to make a 
difference.
    Mrs. Davis. In your estimate, is that what's happening 
across the board?
    Mrs. Hamilton. Unfortunately, no. And that's what we're 
very, very concerned about, is that the programs that were 
shown to the NAS is that they were not scientifically 
evaluated, and we're talking about using Federal funds in the 
school system to talk about underage drinking programs.
    We want to emphasize that these programs that are used 
within the school system that are getting taxpayer-funded need 
to be scientifically evaluated by independent researchers and 
shown to work.
    Mrs. Davis. One of my other concerns is the extent to which 
the young people are included in that. And perhaps, Ms. 
Hackett, you can respond to that. Because I know in the state 
of California, for example, there was a time when we spent a 
lot of money trying to reach young couples on unwed pregnancy. 
And in fact, you know, young people sat and watched the 
commercials and the spot, you know, they responded flatly to 
them. They really didn't speak to them. They didn't speak to 
what would change their behavior.
    And so I'm wondering the extent to which we've really been 
able to get at the heart of that, and obviously for different 
groups, for different ages, but how much effort goes into 
really engaging young people in doing their own ads, what is it 
that would speak to them particularly? Obviously using rock 
stars and people that they care about make a difference. But 
I'm trying to get a sense of how much of that is really going 
on, and are we asking those questions about the response of 
young people?
    Mr. Newton. You know, real quick, Mrs. Davis, I think it's 
hard to scientifically evaluate human behavior. I think, you 
know, a lot of times these intervention and prevention programs 
affect each young person differently at a different time. But 
if they don't have the information available, that's what hurts 
the most.
    With all due respect, I think the efforts by the alcohol 
industry in this regard is--and the money spent and the 
programs developed--is a minute effort compared to the 
promotion of alcohol. So I would like the excise tax, if that 
was passed, that those funds would be totally facilitated 
through the government, and the alcohol industry wouldn't have 
any choice of how that money is used.
    Thank you.
    Mrs. Katz. If I may, Mrs. Hamilton referred to the drug-
free schools money and the fact that taxpayer funding goes to 
pay for these programs. I understand that MADD's programs are 
at a cost to the school, but all of our programs are free of 
charge. We pay for them. Our wholesalers bring speakers to 
schools free of charge. So there is no taxpayer cost.
    And I strongly believe that, as Susan Molinari said, that 
when you have a speaker addressing high school students, in our 
instance we have about, I believe, ten speakers, one of whom is 
the cause of a drunk driving accident. He was the driver, and 
he killed his younger brother. When you have somebody like that 
telling his story to young people, I think it's very powerful. 
He's come to my daughter's school. He's spoken to her peers, 
and it has a very powerful effect.
    And I'm not sure that you can gauge that on a scale. I can 
tell you that we get many, many letters commending these kinds 
of programs from young people, saying that they're making a 
difference. A family talk about drinking program. We actually 
independently go out and have people evaluate the families that 
have gotten the materials to see whether they think the 
materials were helpful, and we've received positive responses.
    So we believe we're on the right track. But I hope the 
effort here is not to exclude some programs and say that some 
are better than others or only certain people should be at the 
table. My company has invested with our wholesalers nearly half 
a billion dollars in these efforts, and our commitment is 
sincere. And we believe that we can be and should be part of 
the solution.
    Mrs. Hamilton. I'm not saying that they should be excluded. 
What I'm saying is that the taxpayer money should be spent on 
programs that are scientifically and independently evaluated 
that show results. That's what I said.
    We've got to educate not only our children on this very 
important issue about underage drinking from the time they get 
to first grade all the way through high school, every single 
year we've got to have a constant funding stream that helps 
these programs continue to work. But we've also got to tell 
parents and adults in this country the truth about what's going 
on with underage drinking, because they do not know. They do 
not understand what a child's developing brain looks like when 
it's been--when they're using alcohol regularly. They don't 
understand that the frontal lobes and the hippocampus are being 
affected by underage drinking. Adults do not know that.
    We've got to have an adult-focused media campaign so that 
parents start learning this. Mr. Newton talked about that. His 
dad was an alcoholic. Children in this country are growing up 
in families where alcohol is not used responsibly. Those 
parents don't understand what kind of a message they're sending 
to their children.
    Ms. Davis. Thank you. I was going to ask, Ms. Hackett, if 
you could respond for a second whether you think that, you 
know, as adults, do we ask you enough what you think about the 
effort that's going on?
    Ms. Hackett. I think there's a pretty wide gap between what 
parents think their kids are doing and what their kids are 
doing. And that's why I think it's very important that we set a 
media campaign targeted toward the parents.
    We need to inform the parents of what their kids are doing 
and how to help their kids make the right decisions.
    Mrs. Davis. Are adults listening to you?
    Ms. Hackett. I think the adults would listen if they were 
given the right ways, you know. You can affect anyone. We just 
have to figure out what media campaign we want to use. The 
example that the Anheuser-Busch showed, their ad that is a 
prevention ad for underage drinking, isn't being talked about 
nearly as much as the ones where you see a dog go and bite the 
groin of a man for the alcohol. So we need to figure out what's 
targeting who. You know, more of my friends were going in and 
quoting that commercial than going in and talking about, you 
know, putting on makeup in the car to go to a convenience 
store.
    Mrs. Davis. And Ms. Molinari?
    Ms. Molinari. I just wanted to all say that we have learned 
over the years of this program, and perhaps the hard way, and 
while we do use the Federal resources, Department of Education, 
NIAAA, SAMHSA, in our program development, they have been--
NTSB--extremely helpful in helping us develop our educational 
programs.
    When we get to the actual implementation of the programs 
and how the program looks, we have young people involved now in 
every stage of it. We go to the younger children in the middle 
school programs, the college students in our Alcohol 101 Plus, 
so that at least we design an environment that's reflective of 
their environment and speak their language so the door stays 
open as long as possible while we try to get our message 
through.
    Mrs. Davis. I appreciate that. I think we're doing a better 
job at that. For a long time we weren't.
    Mr. Osborne. Thank you, Mrs. Davis. A little role reversal 
here. I'd like to defer to the Chairman of the Committee.
    Chairman Castle. Well, thank you, Mr. Chairman, and thank 
you, Mr. Newton, for coaching him well to be a good 
Congressman. We appreciate it.
    (Laughter.)
    Chairman Castle. I'm going to talk from my own experience, 
and I've got to tell you right away up front, this is not 
scientific and not independent. These are just things I've 
observed at home and things that I've done that have worked 
pretty well.
    And perhaps this is to Mrs. Hamilton and to Ms. Hackett 
initially, but it's based--not based on, but Mrs. Katz referred 
to it as well, and that is the experience of young people 
testifying, or other people, members of MADD and SADD who I've 
worked with back as a local official in Delaware, in coming 
into schools and talking to them, and frankly, showing 
pictures, showing slides, having that discussion, tears, the 
whole thing.
    That has a galvanizing effect on those young crowds, and 
I'm talking about high school kids, 9th through 12th grade, 
say, so you're talking about, you know, 15, 16, 17, 14, 18-
year-olds, perhaps. And I'm not sure it's a permanent effect or 
a lasting effect, but to me of all the things that I saw in 
dealing with kids when they actually had known somebody or knew 
of somebody and they saw what had happened, by God, they sat up 
and paid attention.
    Are your two organizations still doing that on a regular 
basis, or is that sort of not proper anymore? Where does that--
where is that on the radar screen?
    Mrs. Hamilton. Unfortunately, because we see over 17,000 
fatalities and over a half million injuries due to drunk 
driving every single year in this country, we get a fresh crop 
of victims who come to MADD to look for our services, and 
victims who speak on victim impact panels in front of schools 
and to offenders all across this country are working.
    There is no scientific evaluation that shows that--we know 
that those programs do have an immediate impact on those kids. 
It is very heart-wrenching to go and listen to that. It's 
heart-wrenching to do. I've done it many, many times myself. We 
work with a lot of people whose children have killed themselves 
in drunk driving crashes, and a lot of people who've driven 
drunk and killed other people in crashes.
    So we're very experienced at working with all kinds of 
people. What we don't know is the long-term range effect of 
whether hearing that at that particular time is going to change 
somebody's attitudes and behavior way down the line. Of course, 
we hope that it's making a difference, but there's more 
research that needs to be done on that.
    Chairman Castle. How do you look at it, Ms. Hackett? No 
research needs to be done in my mind, by the way, but that's 
all right.
    Ms. Hackett. The way that SADD works is each chapter 
decides what initiatives they want to take that would be the 
most effective in their school and community environments. And 
in a lot of cases, schools will do specific programming that 
will reach their students due to something that has happened in 
the school of students have been in accidents involving drunk 
driving.
    So SADD really aims to, you know, target the school, help 
the kids where they need it, and, you know, give them something 
that they need to hear and something that they can relate to.
    Chairman Castle. OK. Well, thank you both for your 
interest. Let me go on to another question, and I'm not sure of 
the answer, so maybe all of you should just answer briefly if 
you can, and that is, the other thing I've seen that had just a 
dramatic effect on my friends, among others, and the behavior 
of people, are the roadblocks for drunk driving.
    But with young people, if you've had so much as any alcohol 
whatsoever, you've got a problem. You're going to lose your 
license. So it's not just drunk driving. It's also anybody who 
is young who is driving. Generally, they're 16. Some may be 
cheating on that, too. So you're dealing with individuals who 
can get in a lot of trouble. And in Delaware, we've done quite 
a bit of radio advertising on that particular subject, which I 
think has deterred some young people from getting into cars at 
least, and hopefully they're more thoughtful about it.
    I mean, I've seen the effect of it at cocktail parties. 
People are very careful, because we have quite a few roadblocks 
in Delaware, and they're very cautious about it. And I've been 
out there with the police on the roadblocks, and I've seen the 
reaction of people. They are panicked when this happens, even 
if they haven't been drinking, they're probably panicked. But 
they are.
    And that also has had--I mean, that has had a dramatic 
effect on the older population, but also on a younger 
population. There are some legal questions about it, none of 
which I think have been really sustained in any courts. First 
of all, is there any group represented here or that you know of 
that's opposed to that for any legal reasons, or anything of 
that nature? None of your groups are--
    Mrs. Hamilton. Opposed to sobriety checkpoints?
    Chairman Castle. Opposed to sobriety checkpoints.
    Mrs. Hamilton. No.
    Mrs. Katz. Well, we are adamantly opposed to drunk driving, 
and to the effective measures that can address drunk driving, 
we are whole-hearted supporters. When it comes to teens, for 
over a decade we have supported an initiative called graduated 
licensing that helps youth get graduated privileges so that 
they ease into the driving privilege and they don't from 16 
years old get full driving privileges.
    But I know that most youth who die in automobile crashes 
die in non-alcohol-related fatalities. And so that is the No. 1 
leading cause of death among youth, and we also need to get a 
message out to young people about not wearing their seat belts, 
and driving too quickly.
    Chairman Castle. I agree with all that, obviously. And I 
couldn't agree with you more. But we're focused on the alcohol, 
really, today and the usage of it. Have any of you seen the 
effects of it on young people in terms of the sobriety 
checkpoints or roadblocks?
    Mrs. Hamilton. The NAS report also suggests sobriety 
checkpoints as a deterrent for underage drinking as well as for 
deterring all impaired driving.
    Chairman Castle. So it is recognized by them that there is 
an underage aspect?
    Mrs. Hamilton. Absolutely.
    Mr. Newton. I think those checkpoints are a very--can be a 
very helpful tool to intervene on someone that has a problem. 
Because it's been shown that legal consequences to drunk 
driving or to drinking problems, people respond to that because 
they're forced to, and it helps people get well.
    I was a little concerned about the message that was 
mentioned earlier I think by Mr. Miller about people giving 
people rides home that are drunk. With underage drinkers, 
that's kind of can be a mixed message. It's OK to drink as long 
as you don't drive. It's still an illegal activity. And a lot 
of those kids will drive if they drink enough. At some point, 
they will not be able to make a decision not to ask somebody 
for a ride, and they will get in their car and be a danger.
    Ms. Molinari. Well, to that point, one of the programs that 
we work with local distributors, retailers, police officers, is 
to try and intervene before we get to that point, and that is 
the Cops in Shops programs or the point of sale, where we try 
and use almost that same fear factor, embarrassment factor to 
say don't even try and buy it if you're under 21, because you 
know what? You're not just going to get slapped on the wrist 
anymore in this area. You're going to get--potentially you can 
get arrested. Potentially, you can never get a driver's license 
if you continue this behavior. And you know what? That police 
officer is going to take you home and stare your parents down 
face to face.
    So we also like to see a lot of the intervention take place 
earlier and the embarrassment so that we don't even get to that 
point.
    Chairman Castle. Well, my time is up, and I don't think, 
Mr. Chairman, that, you know, fear and intimidation is--
obviously education and parental involvement is also 
extraordinarily important as well as other things, but I do 
think because alcohol usage is basically viewed as something 
pleasurable from an early age on. We see it, unfortunately, on 
television advertising. We see it because adults drink and that 
kind of thing, that a little bit of fear and deterrence is in 
order, quite frankly, done legally and done properly. And I 
think that has to be part of the agenda of any programs that we 
put together as we try to deal with this problem.
    So we need to get a balance of various things. I appreciate 
your commenting on your views on those points. I yield back, 
sir.
    Mr. Osborne. Thank you, Mr. Chairman. I think Mr. Case had 
a comment that he wanted to make before he had to leave.
    Mr. Case. Thank you very much, Mr. Chair, and again, I 
thank you on behalf of my colleagues for holding this hearing. 
I thank the witnesses. It was a good, balanced panel. We heard 
from a lot of different perspectives.
    I think we could probably sit here for another couple of 
hours. I certainly could. We didn't even touch some issues that 
frankly we should have gotten into.
    Just a couple of observations. First of all, from my own 
personal perspective, and I believe I speak for several of my 
colleagues, I don't think that the answers here are going to 
lie outside of Federal Government action exclusively. I don't 
believe that we can pull this off by simply deferring to the 
industry and to the schools and to the states. We are going to 
need coordinated efforts across the board.
    We clearly have a continuing problem. I believe it's 
getting worse. Perhaps some of the statistics show some 
positive developments, but overall, I think the pattern is 
pretty clear; that we are exposing our youth to alcohol on a 
much more regular basis, and they are in fact consuming alcohol 
on a much more regular basis, and something is not working.
    Now I think we would all agree that one part of the Federal 
Government's efforts should be devoted to funding prevention. 
That is a legitimate thing for us to do collectively. So one 
place we can certainly start is with the zeroing out of the $30 
million in the current President's budget.
    One of my colleagues made the comment earlier that there 
are going to be some casualties of balancing a budget deficit 
that's worsening every day. I totally agree with that. I just 
don't think this should be the casualty. I don't think that 
this is the right message at all. We've been talking about 
messages the whole day. And the message that the Federal 
Government doesn't believe that alcohol prevention in K to 12 
is important is the wrong message.
    Second, we have not talked yet about advertising 
sufficiently, I don't believe. Certainly what bothers me as one 
member is the low percentage devoted by the alcohol industry to 
so-called responsibility advertising. I'm not sure that looking 
out over the--fairly over the entire scene we can assume, nor 
should we ask of the alcohol industry to fund perhaps a much 
higher level perhaps where we'd all like to see it, like 50 
percent or something like that. So it seems to me that we've 
got to think of some form of getting a lot more of that 
responsibility advertising out over the airwaves both to 
adults--and I agree that adults have to be very much the 
focus--but also to teen drinking. I don't think it's going to 
be enough for adults.
    The comment by Mr. Davis that we can't just simply focus on 
families, when so much of the problem in our country is a 
breakdown in families--where families are not effectively 
delivering messages, means that we have to find other ways of 
reaching children who are not going to be reached through their 
families, and oftentimes that is--and by the way, not only 
through schools either. Sometimes those teens are operating 
outside of the normal school environment. So, clearly, it has 
to be advertising at some point, it seems to me.
    And I do believe finally that the alcohol industry should 
very much be at the table, that they need to be a part of the 
discussion, that we all need to be at the table together. So to 
you, Mrs. Katz, you said it to me twice, and I heard it--I 
heard you say it one more time, so obviously there's some 
sensitivity there. I believe that you should be there.
    But the bottom line is that to leave this unaddressed or to 
leave this to the current kind of approach, which is some level 
of minimal effort by the Federal Government, a tremendous 
amount of effort by community organizations such as MADD, SADD, 
recovering alcoholics such as you, thank you very much for 
being here and telling us your story, and to voluntary 
appearances by people who have suffered, and to basically trust 
in an industry which is still devoted No. 1 to the marketing 
and increased consumption of its product, seems to me to be 
unrealistic.
    So I hope that we would all be able to support a collective 
effort, probably through our Federal Government.
    Thank you.
    Mr. Osborne. Thank you, Mr. Case. I would just like to make 
a couple of closing comments, and then we'll let you get on 
your way. You've been sitting here a long time. You've been 
very patient and articulate, and we appreciate your attendance 
today.
    The reason that I wanted to have this hearing was that the 
National Academy of Science spent a lot of time on this report. 
They are an independent, outside, scientifically based agency. 
And so we didn't want their recommendations just to go unheard 
or forgotten. So often, that's what happens. The Federal 
Government says, well, you guys go study it. They produce a 
report, and then it stays on a shelf somewhere, nobody pays any 
attention.
    And I think we've got to pay attention to this, because 
when you look at the fact that 25 percent of our eighth graders 
are drunk every month, those are the kids that are coming up. 
They're 13 and 14 years old. And we've said over and over again 
here today, that's a whole different deal than somebody 21 or 
22 getting drunk. And so to say that the problem's going away, 
or it isn't much of a problem, I don't think is really very 
accurate.
    Obviously, when the drinking age was raised to 21, we saw a 
pretty steep drop. As has been mentioned, since then, it really 
hasn't declined much. And so what the National Academy of 
Science said, No. 1, they think we ought to have a federally 
funded program that's aimed at parents. And I would agree with 
that, because I think as Ms. Hackett said, there's a tremendous 
gap between what parents think is happening and what is really 
happening. They don't have a clue, most of them.
    But also, Danny Davis made a good point. We've got 20 
million fatherless kids in this country. We have a huge number 
of kids who don't have a parent they can turn to. We have a lot 
of parents, as Bob mentioned, that are currently alcohol-
dependent, and you can't count on one of those parents to be a 
very good adviser to their children. So certainly we've got to 
aim at the parents, but we've got a $53 billion problem here.
    Second recommendation was that the alcohol industry refrain 
from marketing practices that appeal to youth. And I really 
appreciate Mrs. Katz being here and what she had to say, and 
also Ms. Molinari. I think you both represent your industries 
very well and made some very good points. But I think most 
people would have to say that maybe the overwhelming majority 
of what kids see is not the ad don't drink, but they see young 
people having a good time. They're athletic, and they sometimes 
make that connection, that if you're going to have a party, if 
you win a championship, you've got to have alcohol. And it's 
there, very prevalent. So that was their second recommendation.
    There were 30 million underage kids that saw the Super 
Bowl, and you say, well, what was the overall message that they 
got from those Super Bowl ads? Was it pro or anti-underage 
drinking? Probably many people would say it was more pro.
    And then last, we need a Federal coordination and support, 
that the Federal Government is doing a very poor job of 
coordinating what they do spend. They're not spending enough. 
And as Mr. Castle and I and others here know, the Federal 
budget is a real issue right now. I don't know what's going to 
happen.
    But we appreciate your being here today. We appreciate all 
of you for what steps you have taken to prevent, and I think 
each one of you here is sincere in what you're doing.
    So with that, I will end the hearing. And I'd like to thank 
the witnesses and members for their valuable time.
    If there's no further business, the Subcommittee stands 
adjourned.
    [Whereupon, at 1:32 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Statement of Marilyn N. Musgrave, a Representative in Congress from the 
                           State of Colorado

    I have seen in Colorado that young people are susceptible to 
substance abuse if they place a low value on education, have weak 
attachments to family, school, the community, and have friends who 
approve of or engage in substance abuse. Clearly, these are behavior 
patterns that are most affected by individual coping skills and close 
relationships, e.g., friends, family and the community at large. We 
believe children are almost never too young to begin to learn the 
resiliency skills that will protect them from substance abuse of any 
kind. To that end, we all have a role to play in efforts to support 
educational programs and networks that reach youth and their support 
system of parents, schools, church and community, industry and the 
advocacy community.
    The industry has spent enormous resources on community based 
prevention and education. Teaching life skills to young people gives 
them a foundation for making good decisions, setting a positive path 
for their lives.)
    Attempts by some to focus on the product rather than the behavior 
of the individual are misguided and counterproductive. My belief is 
that product- oriented policies do not produce the active involvement 
of people, the essential ingredient to a successful program. Command 
and control, non-collaborative policies do little to address those who 
abuse alcohol and hurt those who use products responsibly.
    Some today will call for more government action. With the budget 
deficit growing due to the war and protecting homeland security, I 
believe our committee will at best be challenged to keep existing 
programs intact during this next fiscal year. Therefore, this committee 
has a big challenge in its review and assessment of the various Dept of 
Education programs and in looking at ways to improve management and 
program effectiveness. I am hopeful that after such a Congressional 
review there will be a determination to give far greater emphasis to 
initiatives that have states and communities determining their unique 
needs and fashioning responses to reduce substance abuse and other 
destructive behaviors.
    Thank you very much Mr. Chairman for allowing me to comment.
                                 ______
                                 

   Letter from Bob Anastas, Founder, Students Against Driving Drunk, 
                        Submitted for the Record

The Honorable Mike Castle
Education Reform Committee
House of Representatives
Washington, D.C.

Dear Representative Castle:

    I understand that you recently conducted a hearing on underage 
drinking. As the founder of Students Against Driving Drunk (SADD), now 
called Students Against Destructive Decisions, I have a long history of 
working to address this issue.
    While we've seen significant progress on preventing underage 
drinking since I began SADD back in the early 1980s, there is much more 
work to be done. The creation of SADD came out of my desire to inspire 
young people to help solve this problem. We all know parents are most 
important in raising our young people, but when the empowerment message 
comes from one teen to another, that, too, can have a great impact.
    As a high-school hockey coach, I lost two of my students to drunk-
driving crashes in the course of a year. And I saw too many other 
students who were ``near misses.'' That's what drove me to begin 
speaking out on this subject and to create SADD and the original 
``Contract for Life'' between parents and teens. Not only did the 
contract encourage young people to make wise choices like not drinking 
and not getting into a car with someone who had been drinking, it also 
encouraged parents to set a good example for their children.
    From the beginning of my efforts to found SADD and speak out on 
this issue, Anheuser-Busch has been a partner in helping me reach 
students with my prevention message. Over the past 20 years, I have 
spoken to literally millions of students, and Anheuser-Busch 
wholesalers across the country have been key in making that happen. 
Since I began speaking on this subject, I have now expanded my program 
to include not only a prevention message on teen drinking and drunk 
driving, but one that encourages teens to reject racism and hatred, 
while working together to solve societal issues.
    If solving underage drinking was easy, we would have conquered it 
in the 1980s, but it's not. It will take teamwork, including 
individuals like myself and the beer industry, to continue the progress 
that's been made. I appreciate the opportunity to share my views on 
this important issue with you.

Very truly yours,

Bob Anastas
Founder
Students Against Driving Drunk
                                 ______
                                 

   Letter from Dale & Thomas Baker, Ph.D.s, Family-School-Community 
                 Partnerships, Submitted for the Record

Honorable Michael N. Castle, Chairman
Subcommittee on Education Reform
U.S. House of Representatives
Washington, DC 20515

Dear Congressman Castle and other Subcommittee Members:

    Like you, we are deeply concerned about the problems created by 
underage drinking. Alcohol abuse at any age is harmful. Underage 
drinking is damaging because it prevents healthy development and 
sidetracks young people from preparation for the future.
    The recent National Academy of Sciences report rightfully 
recognizes the crucial role parents and other adults play in the 
prevention of underage drinking. Parents are the most important 
protective factor and a powerful force in halting the use of alcohol by 
young people. Parents who clearly and frequently tell their children 
they do not want them to drink are less likely to have children who 
drink. Most young people do not want to experience disapproval from 
their parents nor violate their trust.
    Unfortunately, many young people lack guidance from the adults in 
their lives. Many parents believe that the consumption of alcohol by 
adolescents is a right of passage over which they have little control. 
Other parents are inattentive or distance themselves from their teenage 
children. Public policy that reinforces the family leadership role of 
parents is the most effective strategy for the prevention of underage 
drinking. Mentoring services are essential for those children who are 
``raising themselves''.
    Comments from scores of parents attending our ``Parenting Your 
Teenager'' workshops confirm that underage drinking is reduced when 
they make it clear they expect their kids not to drink. We receive the 
same feedback during our ``Parent University'' and our ``Responsibility 
Building Workshop for Parents & Kids'' programs. Our conclusion is that 
parents need to be reminded and educated regarding their vital role in 
the prevention of underage drinking.
    A useful model in this regard is ``Family Talk About Drinking'' 
produced by Anheuser-Busch. This video, available in both English and 
Spanish, helps parents understand how to explain to their kids that 
underage drinking is illegal and inappropriate. Parents need to know 
they are responsible for teaching their kids how to make good 
decisions. Not all parents understand this obligation. We are pleased 
to have served on the advisory group during the creation of this video.
    ``Caring Connections: Helping Young People From Troubled Homes'' 
was also funded by a grant from Anheuser-Busch. The publication 
suggests practical ways educators can connect with young people who 
face adversity. One key to understanding why some young people thrive 
while others fail is the concept of resilience--the capacity to 
overcome the odds. Big classes and large guidance loads spreads the 
talents of teachers and counselors impossibly thin. Yet, every student 
needs the direct encouragement of at least one trustworthy adult at 
school who reinforces the young person's resiliency. This suggests the 
importance of school-based and agency-based programs that train and 
assign adult mentors. We should mention that while generous in its 
funding, Anheuser-Busch did not request nor have any control over the 
content in this publication. Dr. Terrel Bell, President Reagan's 
Secretary of Education, was executive editor of the publication. We 
were the lead writers.
    As you consider public policy regarding the prevention of underage 
drinking, please consider the value of programs that educate parents 
and guardians regarding their leadership role with their children. 
Parenting education and mentoring programs are valuable tools in this 
regard.

Respectfully submitted for your consideration.

Dale & Thomas Baker, Ph.D.s
Family-School-Community Partnerships
A nonprofit organization serving families and youth.
La Jolla, California

----

Dale Baker is a clinical psychologist in private practice in La Jolla, 
CA. Thomas Baker writes parenting education publications and produces 
videos relating to youth issues.
                                 ______
                                 

 Statement of David K. Rehr, PhD, President, National Beer Wholesalers 
                              Association

    Chairman Castle and members of the Subcommittee, on behalf of the 
members of the National Beer Wholesalers Association (NBWA) I 
appreciate the opportunity to submit this testimony in connection with 
the Subcommittee's hearing on what programs and efforts are effective 
in helping to reduce and prevent illegal, underage purchase and 
consumption of licensed beverages. I would also like to thank the 
Chairman for convening this forum and allowing us the opportunity to 
share our thoughts on this important topic, provide the committee with 
an industry perspective and inform its members of just a few of the 
valuable responsibility programs being implemented nationwide by beer 
wholesalers.

INDUSTRY PROGRAMS
    Through national, state and local efforts, beer wholesalers and the 
beer industry in general actively participate in a broad array of 
highly successful prevention programs that effectively address illegal 
underage consumption. As a result, the beer industry has become a 
recognized leader in the fight against illegal underage concerns.
    The beer industry has successfully engaged in the effort to reduce 
illegal underage purchase and consumption. Beer wholesalers have 
exhibited a genuine commitment to addressing underage concerns and have 
implemented countless programs in their respective territories and 
across the nation to communicate a message of legal and responsible 
consumption of their products. To highlight just a few of the programs, 
wholesalers currently sponsor identification verification programs at 
the point-of-sale, retailer education and server training programs, 
public service announcements, educational speakers in schools, and 
alcohol-free post prom events. Wholesalers also participate in 
responsibility messages through advertising and support efforts at the 
state level for stricter penalties on retailers and consumers engaged 
in illegal underage purchase and consumption.
    Specifically, Golden Eagle Distributors of Tucson, Arizona has 
implemented a number of youth programs locally. For many years, Golden 
Eagle has sponsored two unique programs--an essay contest on safety and 
the ``You Auto Buckle Up'' seat belt poster contest.
    The Golden Eagle Driver's Education Safety Essay Contest is held in 
area high schools, with one student winner from each high school being 
awarded a one-year auto insurance policy. The ``You Auto Buckle Up'' 
seat belt use poster contest is open to all school levels--elementary 
through college--with one winner chosen at each level who receives a 
cash award and is honored at an awards luncheon with their parents. In 
particular, this program is a good example of involving parents, 
students, schools and the community in the efforts to address underage 
concerns.
    Another example of proactive wholesaler involvement can be found in 
El Dorado, Kansas where Demo Sales, Inc. has worked to promote a 
dialogue between city council members and local licensed beverage 
retailers. A few years ago the city council voted to establish a Youth 
Initiative Committee to help deter illegal underage consumption and 
promote zero tolerance. The group was instrumental in initiating 
discussions with council members that highlighted retailer concerns and 
their commitment to preventing illegal underage drinking. Through 
attendance at city council meetings, the group was invited to propose 
positive policy initiatives toward the common goal of stopping underage 
drinking.
    Additionally, NBWA members have adopted a Marketing and 
Communications Code to provide guidance on beer wholesaler marketing 
and related promotional activities. For example, the NBWA Code states 
that beer wholesaler promotional activities and marketing should 
reinforce the legal purchase age. Beer wholesaler marketing is directed 
to adults of legal purchase age who choose to drink. The Code guides 
decisions that each wholesale company makes regarding where and how to 
advertise, promote or make related public statements.
    NBWA's Code is further based in principles that are intended to 
communicate responsibility, legal purchase and consumption, and candor. 
Specific directives include the avoidance of depicting illegal activity 
and the avoidance of encouraging or condoning drunk driving, 
intoxication, or excessive, irresponsible consumption.
    NBWA members are committed to abiding by the NBWA Code. We are 
pleased that these efforts are making a real difference. In fact, 
illegal purchase and consumption among high school seniors has dropped 
30 percent over the last two decades, according to a study sponsored by 
the National Institute on Drug Abuse. Additionally, thanks to the 
industry's prevention programs and the efforts of parents, teachers and 
others, 82% of the nation's youth are now making the right decision to 
not drink alcohol illegally, according to research from the U.S. 
Department of Health and Human Services.

EFFORTS TO ACCOUNT FOR WHAT WORKS
    Taking into consideration the topic of the hearing-``Preventing 
Underage Drinking: What Works''-it bears mentioning that Congress has 
recently taken notice of the fact that there are a myriad of government 
funded programs at work today and has instructed federal agencies and 
government panels to inventory the programs. There have been several 
attempts to provide some accounting of programs to prevent illegal 
underage consumption.
    As an initial effort, a 2001 General Accounting Office report 
``Underage Drinking Information on Federal Funds Targeted at 
Prevention,'' concluded, among other things, that:
    <bullet>  Twenty-three federal agencies have program efforts that 
address underage alcohol prevention, and for fiscal year 2000 an 
estimated $71 million was specifically allocated to efforts designed to 
reduce underage drinking.
    <bullet>  SAMHSA and approximately 16 other federal agencies 
identified about $1 billion of fiscal year 2000 combined funding that 
addressed alcohol prevention and illegal drug use. A breakdown of how 
that funding was allocated could not be determined.
    <bullet>  An estimated additional $769 million out of $2.2 billion 
of block, formula and incentive grant funds may have been used by 
states to address prevention of drug and alcohol use by youth.
    <bullet>  The federal government spends substantial resources on 
prevention of underage drinking, with no real means of accounting for 
these resources or the effectiveness of these efforts, questioning the 
way in which federal agencies are spending taxpayer dollars.
    Following up on the GAO report, a comprehensive National Academy of 
Sciences
    (NAS) study was mandated in the 2002 Labor, Health and Human 
Services appropriations bill. This effort, as it was originally stated, 
was intended as a study of existing federal, state, and non-
governmental programs aimed at reducing and preventing illegal underage 
drinking.
    NBWA initially supported Congress's decision to appropriate 
$500,000 to the National Academy of Sciences to review such programs. 
The beer wholesaling industry has many successful, effective underage 
responsibility programs that it was anxious to share with the National 
Academy.
    Regretfully, the National Academy and the advisory committee that 
was selected to carry out its task missed an opportunity to evaluate 
programs and failed to follow Congress's mandate, which was to ``review 
existing federal, state, and non-governmental programs, including 
media-based programs, designed to change the attitudes and health 
behaviors of youth.'' Many organizations, including NBWA, submitted 
documents, articles, videotapes and other materials on a broad range of 
established responsibility programs designed to address underage 
issues; however, the National Academy and the committee ignored 
outright the industry programs submitted and never removed the 
materials submitted on approximately 125 wholesaler responsibility 
programs from their shrink-wrapped packaging.
    Time, revenue and resources were expended with the National Academy 
to determine an adequate accounting of existing programs, their 
effectiveness and the effective use of taxpayer dollars supporting 
various programs; however, there is still no answer.
    More recently, language was included in the 2004 Omnibus 
Appropriations bill (P.L. 108-199) to direct the Secretary of HHS to 
establish an interagency committee on the prevention of illegal 
underage drinking and issue an annual report summarizing all federal 
agency activities concerning the issue, issue key surveillance data and 
progress being made in reducing illegal underage drinking. The 
Secretary is tasked with taking immediate steps to implement the 
recommendations of the panel and to prepare a plan for combating 
underage drinking.
    I am encouraged that the Secretary's efforts will allow for 
progress and also hopeful that this most recent instruction from 
Congress for an accounting for current programs and an annual progress 
report comes to fruition. NBWA looks forward to playing a role in this 
process and stands ready to provide the Secretary with documentation of 
our members' programs.

CONCLUSION
    The beer industry remains committed to the fight against illegal 
underage drinking. While real progress has been made, there is more 
that remains to be done. We must focus on real solutions, such as the 
programs that are working in our communities, and not untested programs 
and misguided tax policies. Parents, teachers, community leaders, law 
enforcement and the industry should continue to work together to keep 
alcohol out of the hands of our children, and available for adults of 
legal drinking age to enjoy safely and responsibly. By working 
together, we can continue to make a difference in the fight against 
illegal underage drinking.
                                 ______
                                 

   Letter from Diane Riibe, Executive Director, Project Extra Mile, 
                        Submitted for the Record

The Honorable Thomas Osborne
U.S. House of Representatives
Washington, D.C. 20515-2703

Dear Congressman Osborne:

    On behalf of the Project Extra Mile network of community coalitions 
across Nebraska, thank you for the opportunity to provide input into 
the hearings in the Education and the Workforce Committee of the House 
of Representatives set for Wednesday, February 11th. We appreciate this 
critical review of underage drinking and, in particular, your and 
Congress' support of the findings of the National Academy of Sciences 
and Institute of Medicine's report unveiled this past September.
    As you may know, Congressman Osborne, Project Extra Mile's 
community efforts span the state, from Omaha to Scottsbluff. Our 
efforts began in Omaha in 1995. We know the passion of community folks 
to create change in their environments regarding underage drinking, to 
make long-lasting change for generations to come. The challenge is 
enormous; communities simply cannot do it alone.
    We respectfully request that you urge your colleagues to continue a 
solid funding base for community level environmental prevention 
activities. We know so many things that work--policy changes at the 
local and state level; enforcement of youth alcohol laws, ordinances, 
and school policies; media advocacy around those issues; and education 
for adults and youth alike--but we need to know that Congress will 
provide the leadership on a continued basis. Federal funding of 
underage drinking prevention efforts has been outpaced by virtually 
every other prevention program, whether it is tobacco prevention or 
illicit drug use prevention programs. Alcohol use by persons under age 
21costs the nation $53 billion each year while thousands of lives are 
lost in automobile crashes, homicides, suicides, drownings, falls, and 
other unintentional and intentional injuries.
    Schools have a unique opportunity to implement or work for 
effective strategies with young people and within the community. Some 
of these include:
    <bullet>  Providing service learning opportunities to connect 
students with community coalitions to actively engage in changing their 
environment;
    <bullet>  Enacting effective school alcohol policies that allow for 
swift and certain response by school officials;
    <bullet>  Restricting alcohol advertisements associated with 
athletic contests;
    <bullet>  Working with local community leaders, businesses, and 
others to remove alcohol sponsorship of community events and cultural 
celebrations;
    <bullet>  Restricting where advertising and promotions are located 
near schools;
    <bullet>  Working with radio and television stations in the 
community to restrict alcohol ad placement when youth are a significant 
portion of the listening or viewing audience.
    <bullet>  Providing media literacy learning opportunities within 
the curriculum.
    We work within Nebraska to bring schools into our community efforts 
in each of the communities; they are vital partners. Their leadership 
can effect real change. Thank you, Congressman Osborne, for looking at 
some of those ways in which schools can involve themselves within the 
community to continue their long-standing commitment to the future of 
children.
    Thank you, also, for your perserverance on this issue. Our 
communities need just such leadership. The result in the future is 
worth the struggle today. Thank you for bringing our concerns and ideas 
forward.

Respectfully submitted,

Diane Riibe
Executive Director
Project Extra Mile
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T1726.036
                                 
                                 <all>

</pre></body></html>
